<html>
<title> - INNOVATIONS IN SAFETY SINCE THE 2010 MACONDO INCIDENT</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


 
                     INNOVATIONS IN SAFETY SINCE 
                       THE 2010 MACONDO INCIDENT

=======================================================================

                           OVERSIGHT HEARING

                               BEFORE THE

                     COMMITTEE ON NATURAL RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                       Wednesday, April 22, 2015

                               __________

                            Serial No. 114-3

                               __________

       Printed for the use of the Committee on Natural Resources
       
       
       
       
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]       


         Available via the World Wide Web: http://www.fdsys.gov
                                   or
          Committee address: http://naturalresources.house.gov
                     


                      U.S. GOVERNMENT PUBLISHING OFFICE
94-319 PDF                   WASHINGTON : 2015                      
                     
________________________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="c8afb8a788abbdbbbca0ada4b8e6aba7a5e6">[email&#160;protected]</a>  
                     
                     
                     
                     
                     
                     COMMITTEE ON NATURAL RESOURCES

                        ROB BISHOP, UT, Chairman
            RAUL M. GRIJALVA, AZ, Ranking Democratic Member

Don Young, AK                        Grace F. Napolitano, CA
Louie Gohmert, TX                    Madeleine Z. Bordallo, GU
Doug Lamborn, CO                     Jim Costa, CA
Robert J. Wittman, VA                Gregorio Kilili Camacho Sablan, 
John Fleming, LA                         CNMI
Tom McClintock, CA                   Niki Tsongas, MA
Glenn Thompson, PA                   Pedro R. Pierluisi, PR
Cynthia M. Lummis, WY                Jared Huffman, CA
Dan Benishek, MI                     Raul Ruiz, CA
Jeff Duncan, SC                      Alan S. Lowenthal, CA
Paul A. Gosar, AZ                    Matt Cartwright, PA
Raul R. Labrador, ID                 Donald S. Beyer, Jr., VA
Doug LaMalfa, CA                     Norma J. Torres, CA
Bradley Byrne, AL                    Debbie Dingell, MI
Jeff Denham, CA                      Ruben Gallego, AZ
Paul Cook, CA                        Lois Capps, CA
Bruce Westerman, AR                  Jared Polis, CO
Garret Graves, LA                    Vacancy
Dan Newhouse, WA
Ryan K. Zinke, MT
Jody B. Hice, GA
Aumua Amata Coleman Radewagen, AS
Thomas MacArthur, NJ
Alexander X. Mooney, WV
Cresent Hardy, NV

                       Jason Knox, Chief of Staff
                      Lisa Pittman, Chief Counsel
                David Watkins, Democratic Staff Director
             Sarah Parker, Democratic Deputy Chief Counsel
                                 ------                                

                                CONTENTS

                              ----------                              
                                                                   Page

Hearing held on Wednesday, April 22, 2015........................     1

Statement of Members:
    Bishop, Hon. Rob, a Representative in Congress from the State 
      of Utah....................................................     2
        Prepared statement of....................................     3
    Capps, Hon. Lois, a Representative in Congress from the State 
      of California..............................................     7
        Prepared statement of....................................     9
    Grijalva, Hon. Raul M., a Representative in Congress from the 
      State of Arizona...........................................     4
        Prepared statement of....................................     5
    Lummis, Hon. Cynthia M., a Representative in Congress from 
      the State of Wyoming.......................................     6
        Prepared statement of....................................     7

Statement of Witnesses:
    Coatney, David, Managing Director, HWCG LLC, Houston, Texas..    51
        Prepared statement of....................................    52
    Hopkins, Holly, Senior Policy Advisor, Upstream, American 
      Petroleum Institute, Washington, DC........................    37
        Prepared statement of....................................    38
        Questions submitted for the record.......................    44
    Murawski, Steven, Professor and Peter Betzer Endowed Chair of 
      Biological Oceanography, University of South Florida, 
      Tampa, Florida.............................................    54
        Prepared statement of....................................    55
    Salerno, Brian, Vice Admiral (USCG, Retired), Director, 
      Bureau of Safety and Environmental Enforcement, U.S. 
      Department of the Interior.................................    10
        Prepared statement of....................................    11
        Questions submitted for the record.......................    16
    Williams, Charlie, Executive Director, Center for Offshore 
      Safety, Houston, Texas.....................................    47
        Prepared statement of....................................    48

Additional Materials Submitted for the Record:
    List of documents submitted for the record retained in the 
      Committee's official files.................................    78
                                     



   OVERSIGHT HEARING ON INNOVATIONS IN SAFETY SINCE THE 2010 MACONDO 
                                INCIDENT

                              ----------                              


                       Wednesday, April 22, 2015

                     U.S. House of Representatives

                     Committee on Natural Resources

                             Washington, DC

                              ----------                              

    The committee met, pursuant to notice, at 9:35 a.m., in 
room 1324, Longworth House Office Building, Hon. Rob Bishop 
[Chairman of the Committee] presiding.
    Present: Representatives Bishop, Gohmert, Lamborn, Wittman, 
Lummis, LaMalfa, Westerman, Graves, Newhouse, Hice, MacArthur, 
Mooney, Hardy; Grijalva, Costa, Tsongas, Huffman, Torres, 
Dingell, Gallego, and Capps.
    The Chairman. I will call this committee meeting to order 
to hear the testimony on innovations in safety since the 2010 
Macondo incident.
    I am going to have one piece of business I am requested to 
make formal right now. I just want to note, as far as decorum 
of our hearings are to be maintained, that there be no applause 
or any other kind of disruption regarding the testimony that is 
given here today. It is important that we respect the decorum 
and rules of the committee, and also the House, and allow 
Members and the public to hear our proceedings.
    So, the Chairman does have an option at any point to halt 
the hearings and request the hearings come to order. Once the 
Chairman has restored order, if a second outburst is noted, or 
if order is not maintained, the Chairman does have the 
discretion to have those creating the disturbance removed.
    Under Committee Rule 4(f), oral opening statements at the 
hearing are limited to the Chairman and the Ranking Minority 
Member and the Vice Chair, and a designee of the Ranking 
Minority Member.
    Mr. Sablan still is not healthy, right? OK. We hope that 
happens very quickly.
    This will allow us to hear from our witnesses sooner, and 
help Members to keep their schedules. Therefore, I ask 
unanimous consent that all other Members' opening statements be 
made part of the hearing record if they are submitted to the 
clerk by 5:00 p.m. today.
    [No response.]
    The Chairman. Hearing no objection, it will be so ordered. 
Let me recognize myself, if I could--beginning with my opening 
statement.
    And before I begin, I have two acknowledgments that I would 
like to do. I think this is the first time we have met since 
Representative Duncan's father has passed away. And we remember 
him and give our sympathy to Mr. Duncan at this time, as well.
    I also think it is appropriate to acknowledge the 11 
workers who lost their lives in the Macondo tragedy and their 
families. I am sure that every time we have another 
anniversary, their families relive those agonizing days. They 
have our sympathy and our prayers at the same time.
    It is appropriate to acknowledge the damage that was 
caused. Hopefully this oversight hearing will provide important 
information on how the government and the industry are and will 
continue to work together to protect lives and the environment 
and prevent such tragedies from happening in the future.

STATEMENT OF THE HON. ROB BISHOP, A REPRESENTATIVE IN CONGRESS 
                     FROM THE STATE OF UTAH

    The Chairman. It has been 5 years since the Macondo spill 
in the Gulf, and a great deal has been accomplished in that 
period of time. Moving forward, improvements to safety and 
responsible offshore energy development will require the 
continued involvement of both the private and the public 
sectors working collaboratively. And that is the key word.
    Today's hearing will certainly cover this important 
interchange, and our discussions will focus on the industry 
innovations, which have been the initial driving force behind 
most, if not all, of the regulatory and operational changes 
that have occurred in the industry since 2010.
    Early on, American energy producers immediately took action 
to develop new standards, recommended practices, and audits 
related to safety and environmental management systems. This 
week in Houston, Secretary Jewell applauded the work of the oil 
and gas industry in improving offshore drilling safety. We 
appreciate her recognition of that fact.
    The Department of the Interior's response, however, 
involved subagencies dissecting into separate subagencies, 
resulting in the revenue collection office now known as the 
Office of Natural Resource Revenue, the Bureau of Ocean Energy 
Management (BOEM), and the Bureau of Safety and Environmental 
Enforcement (BSEE). So I don't mean to say that the Department 
of the Interior spent all its efforts of the past 5 years 
rearranging the deck chairs, even though it is questionable if 
all these efforts really have resulted in improved safety and 
environmental protections. Unfortunately, that is a subject for 
a different day.
    But, for today, following the industry's lead, the 
Department has issued several regulations, including a drilling 
safety rule, workplace rules, and, a couple of weeks ago, what 
we referred to as the blowout preventer rule.
    As we hear testimony today from the witnesses, I and others 
will be listening carefully to the witnesses' opinions on 
whether this Department has struck the right balance, in its 
proposed and final regulations, between ensuring safety, 
protecting the environment, and enabling the private enterprise 
to responsibly develop the Nation's resources for the benefit 
of taxpayers.
    After all, the offshore bonuses and rental payments and 
royalties, if you totaled them all together, that is 7.4 
billion--with a ``B''--in 2014. And, without that money, the 
Federal Government would simply be forced to make up that 
revenue, either in increased taxes, or increased deficits.
    So, rather than seek responsible balance, Federal 
regulatory agencies tend at times to overreach, having the 
ultimate impact of that overreach: stifling innovation, 
undermining safety, and restricting development. So I hope in 
this hearing we can see if that is, indeed, the case, and if it 
needs to be remedied.
    Additionally, Congress has often been criticized for not 
doing enough in the aftermath of this incident. It is a cute 
argument, it is a demagogic argument. And, in many cases, it is 
simply a myth. Congress has enacted laws that have set policy. 
Federal agencies have promulgated regulations. Congress funds 
those initiatives. Federal agency promulgates rules after 
extensive public input. Sometimes it is important for Congress 
to actually go deeper into understanding and recognizing what 
the rules will be, to try to make sure that we are moving in 
the proper direction.
    Industry participants conduct their business in compliance 
with the regulations, or they face the penalties for failing to 
do so. Congress does conduct oversight hearings of the Federal 
agencies to determine if the agency is in compliance with the 
enabling statutes, and it is incumbent upon regulated 
industries to take it upon themselves to self-regulate, as 
well, through the issuance of their standards and their best 
practices. Sometimes we need to make sure that those changes 
take place faster than the agencies themselves can react.
    So, just relating to the Macondo incident itself, this 
committee alone has had 16 hearings since the incident, ranging 
from budget matters for the Department to the restoration of 
the Gulf. And as we focus on the innovations in safety since 
2010, the title of this hearing, we are going to have to give 
credit where credit is due, and look for opportunities to 
improve, as new technologies are made commercially available 
and as safety innovations are going to be developed.
    So, I look forward to the hearing. I look forward to those 
witnesses who have been here, and our guests, and I appreciate 
all of your attention and efforts.
    [The prepared statement of Mr. Bishop follows:]
   Prepared Statement of the Hon. Rob Bishop, Chairman, Committee on 
                           Natural Resources
    Five years since the Macondo spill in the Gulf, there is widespread 
recognition that a great deal has been accomplished to address safety 
and environmental issues raised by this tragedy. Moving forward, 
improvements to safety and promoting responsible offshore energy 
development will require the continued involvement of both private and 
public sectors working collaboratively.
    While today's hearing will certainly cover this important 
interchange, our discussion will focus on industry innovations, which 
have been the initial driving force behind most, if not all, regulatory 
and operational changes that have occurred in the industry since 2010. 
Early on, American energy producers immediately took action to develop 
new standards, recommended practices, and audits related to safety and 
environmental management systems. This week in Houston, Secretary 
Jewell applauded the work of the oil and gas industry in improving 
offshore drilling safety.
    The Department of the Interior's response, however, involved 
subagencies dissecting into separate subagencies, resulting in the 
revenue collection office now known as the Office of Natural Resources 
Revenue, the Bureau of Ocean Energy Management (BOEM), and the Bureau 
of Safety and Environmental Enforcement (BSEE).
    I do not mean to suggest that the Department of Interior spent all 
of its efforts these past 5 years rearranging the deck chairs, even 
though it is questionable if all of that effort really has resulted in 
improved safety and environmental protections. But, that is a subject 
for a different day.
    Following industry's lead, the Department has issued several 
regulations, including the drilling safety rule and the workplace 
safety rule and its updates (SEMS I and SEMS II). Within the past 
couple of weeks, the Department released its Well Control Rule, 
commonly referred to as the ``Blowout Preventer Rule.''
    As we hear testimony today from the witnesses, I and others will be 
listening carefully to the witnesses' opinions on whether the 
Department has struck the right balance, in its proposed and final 
regulations, between ensuring the safety of the offshore workplace and 
protecting the environment, and enabling private enterprise to 
responsibly develop our Nation's resources for the benefit of the 
taxpayers.
    After all, offshore bonuses, rental payments, and royalties totaled 
approximately $7.4 billion in 2014. Without that money, the Federal 
Government would be forced to make up revenue through either increasing 
taxes elsewhere or adding to mammoth deficits. Rather than seek 
reasonable balance, Federal regulatory agencies tend to overreach, 
having the ultimate effect of stifling innovation, undermining safety, 
and restricting development. I look forward to hearing from the 
witnesses to see if that is indeed the case.
    Additionally, Congress has been criticized for not doing enough in 
the aftermath of the Macondo incident. A brief reminder about how the 
process is supposed to work is in order. Congress enacts laws that set 
policy and empowers Federal agencies to promulgate regulations for the 
more detailed governance and enforcement. Congress funds the 
initiatives. The Federal agencies promulgate rules after extensive 
public input from all stakeholders willing to participate.
    Industry participants conduct their business in compliance with 
those regulations or face the penalties for failing to do so. Congress 
conducts oversight of the Federal agencies to determine the agencies' 
compliance with the enabling statutes. It is incumbent upon regulated 
industries to take it upon themselves to self-regulate as well through 
the issuance of standards and best practices.
    Just relating to the Macondo incident, this committee alone has 
held 16 hearings since the incident, ranging from budget matters for 
the Department to restoration of the Gulf. As we focus on the 
``Innovations in Safety Since the 2010 Macondo Incident,'' the title of 
this hearing, let's give credit where it is due and look for 
opportunities to improve as new technologies are made commercially 
available and new safety innovations are developed.

                                 ______
                                 

    The Chairman. And, with that, I will turn to the Ranking 
Member for any opening statement he may wish to give.

  STATEMENT OF THE HON. RAUL M. GRIJALVA, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF ARIZONA

    Mr. Grijalva. Thank you, Mr. Chairman, and thank you for 
holding this hearing.
    The Deepwater Horizon catastrophe was a topic that we 
didn't get a chance to discuss very often in the previous 
Congress, so I appreciate your willingness to open this 
conversation back up on the fifth anniversary of the spill.
    Unfortunately, the title of this hearing, and the testimony 
of some of today's witnesses makes me feel like it is a big 
pat-on-the-back session, rather than real oversight. We have 
three industry witnesses here to tell us what a great job 
industry has done, one agency witness to tell us what a great 
job the agency has done, and one witness to tell us about the 
impacts of the greatest environmental disaster in our country's 
history.
    If we really want to look at whether the industry is safer, 
we would invite the families of the aforementioned 11 workers 
who perished aboard that rig, or the families of the 12 
offshore workers who have been killed by offshore accidents 
since Deepwater Horizon. We would invite the oystermen who have 
seen their harvests decline by two-thirds since the spill. We 
would invite the fishermen who are still pulling up red snapper 
with skin lesions, and shrimp with no eyes. We would invite the 
hotel and restaurant owners who still find massive tar mats on 
the beaches, and who are more vulnerable to floods and 
hurricanes after years of barrier islands shrinking. We would 
invite the people suffering health impacts from the persistent 
oil that keeps appearing in their waterways and on their 
shores.
    I don't doubt there have been some improvements in the past 
5 years. But we need to ask ourselves how prepared are we for 
the next human error or the next failed piece of machinery, not 
just how hard we are working to prevent Deepwater Horizon from 
repeating itself. We shouldn't be lulled into a false sense of 
security. There were 40 relatively quiet years after our first 
major offshore blowout. We were assured that this showed how 
safe everything was. So, 5 years without a blowout isn't the 
end of the story. It certainly doesn't convince me that we 
should allow offshore drilling in the Arctic or in the 
Atlantic. We should not be playing Russian roulette with our 
environment and coastal tourism economies.
    And where drilling is occurring, there is a lot more that 
we can do. While industry and the Interior Department may be 
patting themselves on the back, Congress should be working 
overtime to make up for its failure to act after the Deepwater 
Horizon disaster. That failure is not something we should be 
proud of. We need to raise the liability limit for oil spills 
and enact tough penalties for offshore safety and environmental 
violations.
    Unfortunately, industry will always have an incentive to 
cut corners and expand into more hostile environments, and the 
efforts of regulators will always be uneven. I do not believe 
that offshore drilling will ever be safe enough to rest on our 
laurels. The Majority might want this hearing to be the last 
chapter in this saga; if we are not careful, it could just be a 
prelude.
    We should be moving toward renewable, carbon-free 
technologies like solar, geothermal, and offshore wind. 
Unfortunately, this is not the direction we seem to be going. 
Hopefully, there will be time to change before the next great 
offshore disaster occurs.
    And, with that, Mr. Chairman, thank you, and I yield back.
    [The prepared statement of Mr. Grijalva follows:]
   Prepared Statement of the Hon. Raul M. Grijalva, Ranking Member, 
                     Committee on Natural Resources
    Thank you, Mr. Chairman, and thank you for holding this hearing. 
The Deepwater Horizon catastrophe was a topic that we didn't get a 
chance to discuss very often in the previous Congress, so I appreciate 
your willingness to open this conversation back up on the fifth 
anniversary of the spill.
    Unfortunately, the title of this hearing and the testimony of some 
of today's witnesses feel like a big pat-on-the-back session rather 
than real oversight. We have three industry witnesses here to tell us 
what a great job industry has done, one agency witness to tell us what 
a great job the agency has done, and only one witness to tell us about 
the impacts of the greatest environmental disaster in our country's 
history.
    If we really wanted to look whether the industry is safer, we would 
invite the families of the 11 workers who perished aboard that rig, or 
the families of the 12 offshore workers who have been killed by 
offshore accidents since Deepwater Horizon.
    We would invite the oystermen who have seen their harvests decline 
by two-thirds since the spill. We'd invite the fishermen who are still 
pulling up red snapper with skin lesions and shrimp with no eyes. We 
would invite the hotel and restaurant owners who still find massive tar 
mats on the beaches and who are more vulnerable to floods and 
hurricanes after years of barrier islands shrinking. We would invite 
the people suffering health impacts from the persistent oil that keeps 
appearing in their waterways and on their shores.
    I don't doubt there have been some improvements in the past 5 
years. But we need to ask ourselves how prepared we are for the next 
human error, or the next failed piece of machinery, not just how hard 
we're working to prevent Deepwater Horizon from repeating itself.
    We shouldn't be lulled into a false sense of security. There were 
40 relatively quiet years after our first major offshore blowout. We 
were assured that this showed how safe everything was.
    So 5 years without a blowout isn't the end of the story. It 
certainly doesn't convince me that we should allow offshore drilling in 
the Arctic or in the Atlantic. We should not be playing Russian 
roulette with our environment and coastal tourism economies.
    And where drilling is occurring today, there is a lot more we can 
do. While industry and the Interior Department may be patting 
themselves on the back, Congress should be working overtime to make up 
for its failure to act after the Deepwater Horizon disaster. That 
failure is not something we should be proud of.
    We need to raise the liability limit for oil spills and enact tough 
penalties for offshore safety and environmental violations. 
Unfortunately, industry will always have an incentive to cut corners 
and expand into more hostile environments, and the efforts of 
regulators will always be uneven. I do not believe that offshore 
drilling will ever be safe enough to rest on our laurels. The Majority 
may want this hearing to be the last chapter in this saga; if we are 
not careful, I fear it could just be a prelude.
    We should be moving away from offshore drilling and toward cleaner, 
safer, carbon-free technologies like solar, geothermal and offshore 
wind. Unfortunately, that is not the direction we seem to be going. 
Hopefully there is still time to change before the next great offshore 
disaster occurs.

    Thank you Mr. Chairman, and I yield back.

                                 ______
                                 

    The Chairman. With that I now turn to the Vice Chair, Mrs. 
Lummis, for her opening statement.

 STATEMENT OF THE HON. CYNTHIA M. LUMMIS, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF WYOMING

    Mrs. Lummis. Thank you, Mr. Chairman. And thank you for 
holding this hearing on the safety in offshore energy 
production. As has been said, this marks the 5-year anniversary 
this week of the horrific tragedy aboard the offshore oil 
platform, Deepwater Horizon, where the explosion took 11 lives 
and devastated families. The ecological damage was extensive. 
The tragedy was like a shot heard 'round the world, in terms of 
how we look at offshore energy safety, and rightly so.
    Fixing the safety shortfalls that led to the explosion 
isn't just the right thing to do for those workers, their 
families, and the environment. It is a necessity, going 
forward, because offshore energy production is a necessity. 
Offshore energy production is essential for the United States 
to achieve lasting energy security, which also brings about 
economic security, national security, and job security for the 
men and women in the offshore industry.
    So, the answer is not to hold up offshore energy 
production. The answer is to make offshore energy production 
safer than it has ever been in history for both the people and 
the environment. We must proceed deliberately and responsibly 
toward safety improvements, relying on science, innovation, and 
measurable results. We need to encourage creativity and 
innovation that is ingrained in American culture and tradition.
    I thank our panels for coming today to discuss strides made 
both by industry and the regulatory community since Deepwater 
Horizon occurred. We must make sure the Federal regulatory 
framework that was developed in response to the tragedy stays 
nimble and keeps pace with the technological innovation that 
has occurred since then. Striking this balance between worker 
and environmental safety and our energy security will be an 
ongoing challenge, but America is up to the challenge, as I 
believe today's panel will begin to reveal.
    Thank you. Mr. Chairman.
    [The prepared statement of Mrs. Lummis follows:]
 Prepared Statement of the Hon. Cynthia M. Lummis, a Representative in 
                   Congress from the State of Wyoming
    Thank you Mr. Chairman, and thank you for holding this hearing on 
safety in offshore energy production.
    April 20 marked the 5-year anniversary of the horrific tragedy 
aboard the offshore oil platform known as the Deepwater Horizon. The 
explosion took the lives of 11 Americans. The ecological damage was 
extensive. The tragedy was a game changer in terms of how we look at 
offshore energy safety, and rightly so.
    Fixing the safety shortfalls that led to that explosion isn't just 
the right thing to do for the workers, their families, and the 
environment. It's a necessity, and that is because offshore energy 
production is a necessity. Offshore energy production is necessary for 
the United States to achieve lasting energy security, which also means 
economic security, national security, and job security for the men and 
women in the offshore industry.
    Holding up offshore energy production is not a solution. A solution 
is rolling up our sleeves and persevering to make offshore energy 
production as safe as possible, both for people and the environment. We 
must proceed deliberately and responsibly toward safety improvements, 
relying on science and measurable results. We need to encourage the 
creativity and innovation that is ingrained in American culture and 
tradition.
    I thank our panels for coming today to discuss the strides made 
since the Deepwater Horizon tragedy by both industry and the regulatory 
community. We must make sure the Federal regulatory framework that was 
developed in response to the tragedy stays nimble and able to keep pace 
with technological innovation. Striking this balance between worker and 
environmental safety and our energy security will be an ongoing 
challenge, but America is up to the challenge as I believe today's 
panels will show.
    Thank you Mr. Chairman. I yield back.

                                 ______
                                 

    The Chairman. I thank the Vice Chair.
    At the request of the Ranking Member, I will now recognize 
Mrs. Capps to--for an opening statement.

STATEMENT OF THE HON. LOIS CAPPS, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF CALIFORNIA

    Mrs. Capps. Thank you very much, Mr. Chairman, and thank 
you, Ranking Member Grijalva, for giving me this opportunity to 
speak. And I want to thank each of you for acknowledging that 
this is roughly the 5-year anniversary of the tragic Deepwater 
Horizon spill. And I also want to acknowledge that this is 
Earth Day, and that is an annual occurrence on this date every 
year that came about after Senator Gaylord Nelson visited my 
coastline, the coastline that I am privileged to represent, in 
1970 and saw, even a year later, the tragedy that was the 1969 
oil spill of Platform A that I represent.
    So, I do represent a district that experienced the brunt of 
the 1969 Santa Barbara oil spill. Our coastline still has 
multiple oil platforms visible from our shoreline. And many of 
my constituents and I have a very strong and personal interest 
in offshore drilling safety.
    One of the issues that I do not want to lose sight of in 
this discussion today is the importance of safety in both 
deepwater and shallow water drilling. The Interior Department 
and industry have understandably focused most of their efforts 
in the last 5 years on improving deepwater drilling safety, 
because we saw firsthand just how unprepared we were for 
something terrible to happen 1 mile under the ocean. As 
companies continue to move into deeper and deeper water, they 
will encounter more and more dangerous conditions and greater 
technical difficulties. So continual focus on deepwater 
drilling is absolutely essential.
    But the industry still works in shallow waters, as well. 
And that is what I don't want to lose sight of in this hearing. 
After Deepwater Horizon, we were told by industry that, while 
new safety standards might be appropriate for deepwater, things 
were much safer in shallow water operations. While the rest of 
the country watched oil billowing uncontrollably into the Gulf 
of Mexico, wondering whether offshore drilling could ever be 
done safely at all, shallow water drillers criticized the 
Interior Department for focusing more on responding to the 
spill than issuing new drilling permits. For the record, I 
think the Department of the Interior made the right choice, and 
the only choice, in that situation, but clearly, not everyone 
agreed.
    However, in November of 2010, barely 7 months after the 
blowout began, an executive for a shallow water drilling 
contractor named Hercules Offshore wrote an editorial touting 
the safety of their operations. In this editorial he wrote, and 
I quote, ``We've been drilling shallow water wells safely and 
without major incident since 1949.'' The contractor was 
apparently referring only to waters in the U.S. portion of the 
Gulf of Mexico, because both the 1969 Santa Barbara and the 
1979 Ixtoc blowouts occurred in water less than 200 feet deep.
    But he went on to say, again I quote, ``Shallow water 
drilling takes place in mature, predictable, well-known 
reservoirs. We use proven technologies and well-controlled 
equipment with our blow-out preventers located right on the 
rig, allowing for immediate access and constant inspection and 
maintenance.'' This sounds great. But I would like permission 
to show you something.
    [Slide]
    Mrs. Capps. If you can see it, this is--despite the initial 
similarities, this is not a picture of Deepwater Horizon. It is 
a picture from July 2013 of a blowout and explosion on a 
shallow water rig operated by Hercules Offshore, the same 
company whose executive wrote that editorial about the safety 
of shallow water operations. The pictured rig, which you see 
behind me, was operating in 154 feet of water, using proven 
technologies and a blowout preventer right on the rig that 
could be immediately accessed and constantly inspected.
    Thankfully, no one was killed during this event and there 
was not a major oil spill. But this was only one of several 
major shallow water incidents we have seen in the past 5 years, 
and lives have been lost in some of those incidents. And 
because these operations are much closer to the shoreline, if a 
spill does occur on one of them, the impacts on wetlands and 
wildlife could be so much worse. Shallow is simply not a 
synonym for safe. All companies should be required to meet the 
same stringent safety standards that were put into place after 
the Deepwater Horizon disaster.
    Mr. Chairman, I hope we can agree that safety should always 
be our top priority. I am looking forward to working with you 
and my colleagues to support common-sense safety measures that 
are clearly needed. And I yield back.
    [The prepared statement of Mrs. Capps follows:]
Prepared Statement of the Hon. Lois Capps, a Representative in Congress 
                      from the State of California
    Thank you, Mr. Chairman, and thank you, Ranking Member Grijalva, 
for giving me this opportunity to speak.
    Representing a district that experienced the brunt of the 1969 
Santa Barbara oil spill and still has multiple platforms visible from 
our shores, I have a very strong and personal interest in offshore 
drilling safety.
    One of the issues that I do not want to lose sight of in this 
discussion is the importance of safety in both deepwater and shallow 
water drilling. The Interior Department and industry have 
understandably focused most of their efforts over the past 5 years on 
improving deepwater drilling safety, because we saw firsthand just how 
unprepared we were for something terrible to happen 1 mile under the 
ocean. As companies continue to move into deeper and deeper waters they 
will encounter more and more dangerous conditions and greater technical 
challenges, so continual focus on deepwater drilling safety is 
absolutely essential.
    But the industry still works in shallow waters as well. After 
Deepwater Horizon we were told by industry that, while new safety 
standards might be appropriate for deepwater, things were much safer in 
shallow water operations. While the rest of the country watched oil 
billowing uncontrollably into the Gulf of Mexico, wondering whether 
offshore drilling could be done safely at all, shallow water drillers 
criticized the Interior Department for focusing more on responding to 
the spill than issuing new drilling permits. For the record, I think 
the Department of the Interior made the right choice--and the only 
choice--in that situation, but clearly not everyone agreed.
    In November of 2010, barely 7 months after the blowout began, an 
executive for a shallow water drilling contractor named Hercules 
Offshore wrote an editorial touting the safety of their operations. In 
this editorial he wrote, ``We've been drilling shallow-water wells 
safely and without major incident since 1949.'' The contractor was 
apparently referring only to waters in the U.S. portion of the Gulf of 
Mexico, because both the 1969 Santa Barbara blowout and the 1979 Ixtoc 
[ICKS-tock] blowout occurred in water less than 200 feet deep.
    But he went on to say, ``Shallow-water drilling takes place in 
mature, predictable, well-known reservoirs. We use proven technologies 
and well-control equipment, with our blowout preventers located right 
on the rig, allowing for immediate access and constant inspection and 
maintenance.'' This sounds great, but I want to show you something...
    [Display picture of Hercules rig on fire]
    Despite the initial similarities, this picture is not of Deepwater 
Horizon. This is a picture from July 2013 of a blowout and explosion on 
a shallow water rig operated by Hercules Offshore, the same company 
whose executive wrote that editorial about the safety of shallow water 
operations. The pictured rig was operating in 154 feet of water, using 
proven technologies, and a blowout preventer right on the rig that 
could be immediately accessed and constantly inspected.
    Thankfully, no one was killed during this event, and there was not 
a major oil spill. But this was only one of several major shallow water 
incidents we have seen in the past 5 years, and lives have been lost in 
some of those incidents. And because these operations are much closer 
to the shoreline, if a spill does occur, the impacts on wetlands and 
wildlife could be much, much worse. Shallow is simply not a synonym for 
safe. All companies should be required to meet the same stringent 
safety standards that were put in place after the Deepwater Horizon 
disaster.
    Mr. Chairman, I hope we can agree that safety should always be our 
top priority. I look forward to working with you and my colleagues to 
support common-sense safety measures that are clearly needed.
    I yield back.

                                 ______
                                 

    The Chairman. Thank you. Now it is my pleasure to introduce 
our first witness, Vice Admiral Brian Salerno, who is the 
Director of the Bureau of Safety and Environmental Enforcement. 
Happy to have you here.
    I will remind you, you have been here before, you know the 
rule. Your oral testimony is limited to 5 minutes, but your 
entire written testimony is part of the record. And I think you 
understand how the lights go there. As soon as it is red, you 
have to stop in mid-sentence. Thank you.
    Admiral Salerno. Yes, sir.
    The Chairman. The Chair recognizes Mr. Salerno now for your 
testimony.

   STATEMENT OF BRIAN SALERNO, VICE ADMIRAL (USCG, RETIRED), 
DIRECTOR, BUREAU OF SAFETY AND ENVIRONMENTAL ENFORCEMENT, U.S. 
                   DEPARTMENT OF THE INTERIOR

    Admiral Salerno. Thank you. Chairman Bishop, Ranking Member 
Grijalva, and members of the committee, thank you for the 
opportunity to appear before you today to discuss progress in 
offshore safety since the Deepwater Horizon incident.
    As you know, the blowout explosion and resulting oil spill, 
which began on April 20, 2010, resulted in the loss of 11 
hardworking men on the Deepwater Horizon, and one of the most 
significant environmental disasters in U.S. history. The 
aftershocks of that fatal day will forever reverberate with the 
families left behind, as well as for all those whose lives and 
livelihoods were affected by the environmental damage caused by 
that spill.
    This event had a profound effect on the public, on the 
industry, and upon us, as a regulatory body. The Bureau of 
Safety and Environmental Enforcement was created in direct 
response to that event, to provide a laser focus on safety, and 
to reduce the risk of a similar event from ever occurring 
again. Establishing this new organization allowed for greater 
mission clarity, and helped remove the sometimes-conflicting 
priorities within its predecessor organization, the Minerals 
Management Service. Congress also provided new resources 
necessary to fulfill the Bureau's regulatory responsibilities.
    In the 3\1/2\ years since it was established, BSEE has 
worked diligently to earn public confidence in our oversight 
activities, while at the same time promoting safe and 
responsible energy development. We have approached our 
responsibilities in a number of ways, including strengthening 
our permitting procedures to ensure more stringent safety 
analysis of well design; increasing our staff of inspectors, 
engineers, and scientists to allow for more meaningful 
oversight; updating our regulations to reflect current 
operating conditions, industry standards, and workplace safety 
best practices; enhancing oil spill response capabilities, 
especially subsea containment capability; and, most 
importantly, we placed a strong emphasis on establishing a 
culture of safety among all those who work on the Outer 
Continental Shelf.
    Regulatory enhancements are important, and they continue to 
form the foundation of our approach. But, in addition, we 
continue to engage stakeholders from academia, from industry, 
from non-governmental organizations, and other government 
agencies to improve our approach to system reliability and 
human decisionmaking.
    In 2013, BSEE funded the startup costs for the Ocean Energy 
Safety Institute, which provides an independent forum for 
dialog, shared learning, and cooperative research among 
stakeholders. BSEE is also in the process of establishing an 
engineering technology assessment center to be located in 
Houston, Texas, which will be a bureau-wide focal point for 
emerging technology evaluation.
    Looking ahead, BSEE intends to pursue a risk-based approach 
to our inspection responsibilities to better match our time and 
resources to the greatest risks. In the near future, we will 
establish a near-miss reporting system modeled after a similar 
system used in commercial aviation, and which will help us 
understand safety trends, and allow us to better focus our 
prevention efforts. And we will continue to refine our 
organization to achieve greater transparency, consistency, and 
effectiveness in our mission performance.
    A lot has occurred in the last 5 years to make the Outer 
Continental Shelf safer. However, incidents still occur. 
Complacency is our greatest adversary. Our commitment is to 
remain focused and vigilant, to do everything we can, working 
with all interested parties, to reduce risk to the lowest 
practical level, while allowing industry to responsibly develop 
energy resources.
    I would like to thank the committee for inviting me to 
appear here today, and I look forward to your questions.
    [The prepared statement of Admiral Salerno follows:]
  Prepared Statement of Brian Salerno, Director, Bureau of Safety and 
       Environmental Enforcement, U.S. Department of the Interior
    Chairman Bishop, Ranking Member Grijalva, and members of the 
committee, thank you for the opportunity to appear here today to 
discuss the regulatory reforms that the U.S. Department of the Interior 
(DOI) has implemented since the Deepwater Horizon (DWH) tragedy where 
11 offshore workers lost their lives and oil flowed into the Gulf of 
Mexico (GOM) for 87 consecutive days resulting in millions of barrels 
of total oil spilled.
    Over the last 5 years, the DOI has launched numerous reforms that 
represent the most aggressive and comprehensive changes to offshore oil 
and gas regulation and oversight since the enactment of the Outer 
Continental Shelf Lands Act. One of the most immediate reforms included 
the division of the Minerals Management Service (MMS) into three 
independent entities:

  1.  Bureau of Ocean Energy Management (BOEM) ensuring the balanced 
            and responsible development of energy resources on the 
            Outer Continental Shelf (OCS);

  2.  Bureau of Safety and Environmental Enforcement (BSEE) ensuring 
            safe and environmentally responsible exploration and 
            production through vigorous regulatory oversight and 
            enforcement; and

  3.  Office of Natural Resources Revenue ensuring a fair return to the 
            taxpayer from royalty and revenue collection and 
            disbursement activities.

    The creation of BSEE out of the former MMS provided for an 
organization with a distinct mission focus on ensuring safe and 
environmentally responsible OCS operations through development and 
promotion of safety standards and processes, along with rigorous 
compliance and enforcement. BSEE has pursued its oversight mission by 
implementing a series of comprehensive regulatory reforms; 
strengthening its internal capacity by improving processes related to 
inspections, investigations, and enforcement programs; funding research 
in spill preparedness and response, and technological advancement; and 
engaging in strategic interagency, international and industry 
engagements.
                      assessing and managing risk
    Managing risk provides the basic framework through which BSEE 
approaches safety on the OCS. BSEE pursues this objective through a 
comprehensive program of regulations, technical assessments, 
inspections, and incident investigations. In addition, we place great 
emphasis on the establishment of a safety culture throughout industry, 
the cornerstone of this effort being the Safety and Environmental 
Management System, or SEMS. SEMS is performance based, and forms a 
necessary counterpart to our more traditional regulatory oversight 
activities. We believe this hybrid approach is the most comprehensive 
way to take safety to the next level.
    To further support this overall approach, the Bureau is focusing on 
building its capacity for analyzing data gained through incident 
reporting requirements, near-miss reporting, and real-time monitoring. 
For example, in November 2013, BSEE and the Bureau of Transportation 
Statistics (BTS) signed an interagency agreement (IAA) to develop the 
Voluntary Confidential Near-Miss Reporting System (Safe OCS) for use on 
the OCS. Safe OCS, which will be managed by BTS, has the potential to 
help identify safety concerns and support collective measures that will 
help prevent catastrophic incidents that endanger lives and the 
environment. The trend information will be shared with BSEE, the 
industry, and the public and provide essential information about 
accident precursors and potential hazards associated with OCS oil and 
gas operations.
    The Bureau also works with recognized scientific organizations, 
other international regulators, and the industry to identify and 
quantify operational risks. These activities, along with increased data 
collection, will further contribute to BSEE's ability to target the 
components, operations, and activities that present the highest risk to 
safety and the environment and ensure that mitigation measures are in 
place. Through these initiatives and others, the Bureau will continue 
to ensure that offshore development occurs in a safe and 
environmentally responsible way.
                 major regulatory enhancements to date
    In the immediate aftermath of the DWH tragedy, it was clear that 
existing regulations had not kept pace with the advancements in 
technology used during offshore activities. The regulatory reforms that 
BSEE has initiated and implemented cover a wide range of subjects, all 
focused on increasing safety and reducing the risk throughout offshore 
operations. BSEE continues to use a hybrid approach--prescriptive 
regulations and performance-based measures--focusing on rules that will 
provide for the greatest enhancement in safety and environmental 
protection. As offshore operations expand and move into new 
environments and require new technologies, BSEE will continue to adapt 
its regulatory approach and oversight responsibilities. Over the last 5 
years, BSEE's regulatory enhancements include:
    Promoting Safety Culture and Continuous Improvement at All Levels 
of Industry--As noted above, the Safety and Environmental Management 
Systems (SEMS) program is the cornerstone of BSEE's hybrid regulatory 
approach. The goal is for the SEMS program to encourage the offshore 
oil and gas industry to look beyond baseline compliance with 
regulations and move toward a safety culture that promotes continuous 
improvement in safety and environmental performance. The SEMS program 
is meant to be a tool through which companies actively manage and 
improve safety performance related to human behavior, organizational 
structure, leadership, standards, processes, and procedures--not simply 
a compilation of required documentation. It also requires industry to 
maintain an active integrated program that empowers industry workers to 
participate in safety management decisions. BSEE issued regulations in 
2010 and 2012 and will continue to refine the program in future years.
    Drilling Safety Rules--Following the DWH tragedy, several immediate 
actions were taken to address specific offshore safety concerns 
involving drilling operations. The regulations that were issued in 2010 
and 2012 required new standards for well design, casing and cementing, 
and the third party certification of designs. These rules represented 
an important first step in addressing regulatory gaps in the offshore 
program. BSEE engineers have since reviewed, analyzed, and approved a 
total of 579 new well permits for drilling in the GOM that meet these 
more stringent well-construction standards. Further, despite the new 
standards recent statistics indicated that new wells are reviewed and 
approved on average under 60 days.
    Access to Subsea Containment Capability--As a condition for 
approving deepwater drilling operations, BSEE evaluates an operator's 
capability to contain a subsea blowout. BSEE also evaluates an 
operator's access to all necessary equipment for subsea containment 
including a capping stack. As a result, there is now containment 
equipment available for industry deployment. In addition, BSEE has 
required the providers of the containment systems to demonstrate 
successful deployment of the systems in the field.
                         ongoing reform efforts
    Proposed Production Safety Systems Rule--In August 2013, BSEE 
published a proposed rule to address safety systems that prevent the 
release of hydrocarbons and protect the personnel on the 2,500 OCS 
production facilities. This will be the first significant revision of 
these critical regulations since 1988. The proposed rule will address 
new technology that has been developed in the past 25 years, upgrade 
requirements for critical safety equipment, and ensure the use of best 
available and safest technology. The Bureau is currently working to 
finalize the proposed rule.
    Proposed Arctic Rule--In February 2015, BSEE and BOEM published the 
proposed rule for drilling operations in the U.S. Arctic OCS. Using a 
combination of performance-based and prescriptive standards, the 
proposed regulations codify and further develop current Arctic-specific 
operational standards that seek to ensure that operators take the 
necessary steps to thoroughly plan for and conduct safe exploratory 
drilling operations within the Beaufort Sea and Chukchi Sea Planning 
Areas.
    The proposed regulations have been developed with significant up-
front public input from the state of Alaska, North Slope indigenous 
communities, industry and non-governmental organizations. The proposed 
regulations are currently open for additional public comment to ensure 
transparency and solicit feedback from all stakeholders. Interior will 
continue rigorous stakeholder engagement as well as formal tribal 
consultation in the region.
    Proposed Well Control Rule--BSEE has reviewed over 400 
recommendations following the DWH tragedy. On April 13, 2015, BSEE 
announced proposed Well Control regulations to address some of the key 
recommendations. This proposed rule includes provisions that increase 
equipment reliability and build upon enhanced industry standards for 
blowout preventers (BOP) and, in a comprehensive way, addresses the 
multiple systems and processes critical to well control operations. The 
proposed rule requires more stringent design requirements for critical 
well control safety system equipment and traceability through the 
lifecycle of the BOP and other well control equipment, ensuring 
operability of the equipment. Finally, the rule will provide continuous 
oversight of deepwater operations through onshore real-time monitoring 
and additional requirements for third party certification of the 
performance of critical equipment.
    Other Reforms--In 2014, BSEE published an Advanced Notice of 
Proposed Rulemaking related to aviation safety. In the near future, 
BSEE plans to publish a proposed rule that will incorporate updated 
industry safety standards for cranes on fixed platforms; the Agency 
also expects to solicit comments on approaches to improve the existing 
SEMS regulations.
    Increased Limits of Liability--In coordination with BSEE, the 
Bureau of Ocean Energy Management (BOEM) has taken action to better 
ensure responsible parties are held accountable for OCS pollution 
incidents in the future. BOEM has increased the limit of liability for 
oil-spill related damages from $75 million to approximately $134 
million for offshore oil and gas facilities--the maximum allowed under 
the law--and has established a process for future increases to keep 
pace with inflation.
           bolstering bsee's capacity to reduce risk offshore
Human Capital
    Following the Deepwater Horizon tragedy, it was determined that 
there were significant skill and staffing gaps in career fields crucial 
to ensuring safe and environmentally sound exploration and development. 
The Bureau has taken a number of actions to address long-term hiring 
and retention challenges including offering a suite of available hiring 
and retention incentives. BSEE has worked diligently to hire and train 
new inspectors and engineers, but continues to face significant 
challenges in recruitment and retention within certain job 
classifications. BSEE will continue to implement its Human Capital 
Strategic Plan, which addresses anticipated workforce changes and gaps 
in critical skills and competencies.
Inspection Program
    BSEE's efforts to reinforce its inspection program have been 
threefold: increase its inspection and engineering workforce, enrich 
the training of inspectors and engineers, and apply a risk management 
methodology to conduct inspections. The number of inspectors in the 
BSEE Gulf of Mexico Region has increased from 55 in April 2010 to 92 
currently. BSEE inspectors now specialize in either well or production 
operations; this specialization allows for more training and time 
devoted to a specific area of inspection. The engineer workforce in the 
Gulf of Mexico Region has increased from 106 at BSEE's inception in 
October 2011 to 129 currently. This allows for the increased review of 
permits which requires more analysis to ensure compliance with the 
enhanced standards.
    To ensure that our inspectors and engineers are able to fully 
assess the latest technological advances, BSEE has implemented a 
comprehensive training program that ensures they receive the best 
training currently available. In FY 2014, BSEE offered 79 training 
courses that resulted in 23,396 contact training hours for 177 BSEE 
engineers, 113 BSEE inspectors, as well as 20 Coast Guard personnel.
    By applying a risk management methodology, BSEE is beginning to 
shift its inspection program to a risk-based program that more 
effectively uses the available inspection and enforcement resources. 
BSEE will in the future target higher risk operations and facilities 
for supplemental oversight in order to increase the overall performance 
of offshore operations.
    With the increased inspection workforce, BSEE is now positioned to 
ensure full implementation of the new standards for BOP testing. BSEE 
inspectors witness BOP testing to observe the skill level of the 
drilling crews, and to become more involved with the crew's handling of 
the BOP function. Since October 2010, BSEE inspectors have witnessed 
169 on-site BOP tests. Inspectors also conduct detailed reviews of BOP 
test results; 409 of these detailed reviews have been completed since 
October 2010. BSEE is considering options that would provide additional 
oversight using remotely sensed data and real-time monitoring from 
onshore facilities.
Investigation and Enforcement
    BSEE has also taken steps to strengthen its investigation, data 
analysis, and compliance and enforcement programs. BSEE has reevaluated 
how it conducts investigations of incidents and potential violations 
occurring during oil and gas operations on the OCS. Should a safety or 
environmental incident occur, BSEE has a duty to investigate and 
determine the causal elements/factors and the appropriate corrective 
actions. The implications of such determinations will apply to the 
operator(s) involved in the incident, potentially their contractors and 
subcontractors, and also may extend to industry-wide practices. These 
determinations also may have implications for BSEE's own regulatory 
procedures and standards.
    The goal is to improve safety on an operator and company basis, as 
well as on a system-wide level as appropriate. For the most serious 
incidents that occur offshore, BSEE conducts in-depth panel 
investigations, resulting in detailed findings and recommendations. 
Some panel investigations lead to recommended enforcement actions and/
or referrals to other enforcement authorities. BSEE incident 
investigations can also lead to the issuance of safety alerts, a 
vehicle to inform industry participants about the circumstances 
surrounding an incident (or potential incident). For example, in 
February 2015, BSEE and the U.S. Coast Guard (USCG) issued a Joint 
Safety Alert addressing a dynamic positioning incident involving an 
Offshore Supply Vessel which resulted in a loss of position. The alert 
identified the potential hazard so that other operators could minimize 
the chance of a reoccurrence.
                technological innovation and assessment
    BSEE has continued to engage stakeholders from academia, industry, 
non-governmental organizations, and other governmental agencies to 
enhance the knowledge base of BSEE's technical personnel and enabled 
them to better identify regulatory gaps, promote innovative 
technologies, and encourage risk-based decisionmaking.
    BSEE funded the startup costs for the Ocean Energy Safety Institute 
(OESI), which provides an independent forum for dialog, shared 
learning, and cooperative research among stakeholders. Although OESI 
was established by BSEE, it is not an extension of the Bureau. Rather 
the OESI is a neutral ground for the exploration of issues of offshore 
risk that are of common concern to industry and regulators. The BSEE 
operates as one of many participants, with others coming from industry 
and academia.
    In a separate initiative, BSEE is in the process of establishing 
the Engineering Technology Assessment Center (ETAC or Center) in 
Houston, Texas. The ETAC will also strengthen BSEE's ability to assess 
novel and emerging technologies by keeping pace with an increasingly 
complex industry. In 2015, projects will focus on the evaluation of BOP 
technology and the determination of Best Available and Safest 
Technology. Through the Center, the Bureau will work more closely with 
original equipment manufacturers and participate more fully with 
standards-setting bodies. The Center will serve as the primary liaison 
between BSEE and the OESI, and BSEE anticipates that the ETAC engineers 
will work with OESI on joint industry projects.
Research
    BSEE is leveraging the resources of our interagency partners and 
working with others to conduct important research related to new and 
emerging technologies, as well as operations in frontier areas to 
further our efforts to reduce risks across all offshore operations. The 
Technology Assessment Program supports research associated with 
operational safety and pollution prevention and is providing regulatory 
tools to assist in the evaluation of high temperature/high pressure 
equipment and materials and cutting edge issues involving BOPs and 
cementing practices.
    BSEE is the principal Federal agency funding offshore oil spill 
response research that focuses on improving the methods and 
technologies used for oil spill detection from aerial and subsea 
platforms and vehicles, surface and subsea containment, treatment, 
recovery and cleanup. The Bureau operates the National Oil Spill 
Response Research and Renewable Energy Test Facility, known as Ohmsett, 
where many of today's commercially available oil spill cleanup products 
have been tested. Government agencies including the USCG and the U.S. 
Navy as well as private industry and oil spill response organizations 
from around the world train their emergency response personnel with 
real oil and their own equipment.
Preparedness
    BSEE continues to focus on improving the Nation's response 
capabilities through rigorous oversight and research opportunities. 
BSEE reviews oil spill response plans to verify that owners and 
operators of offshore facilities are prepared to respond to a worst 
case oil discharge. BSEE requires that plans be updated at a minimum of 
every 2 years or when key changes to an operator's preparedness posture 
or worst-case discharge scenario change.
    In 2014, BSEE conducted 11 unannounced complex table top and/or 
equipment deployment exercises. These exercises tested operator's oil 
spill response plans and their ability to respond effectively and 
efficiently to hypothetical spill scenarios.
Interagency Coordination
    BSEE's responsibilities for the regulation of offshore energy 
development on the OCS are shared in some cases with other Federal 
agencies. The Bureau leverages its limited resources through agreements 
with Federal partners and other agencies through memoranda of 
understanding or agreement (MOU, MOA) and IAA. For example, BSEE and 
the USCG have closely aligned jurisdictional and regulatory 
responsibilities for offshore inspections, incident response and 
investigations. Under an overarching MOU and six MOA's the two 
organizations have collaborated extensively to reduce redundancy and 
ensure consistency and clarity for the regulated community. BSEE has 
also entered into agreements with other Federal partners including the 
U.S. Department of Energy (DOE), U.S. Department of Transportation, 
Pipelines and Hazardous Materials Safety Administration, the U.S. 
Environmental Protection Agency, and U.S. Army Corp of Engineers.
    BSEE signed an interagency agreement with the DOE in 2014. Through 
the formal Memorandum of Collaboration, BSEE works with Argonne 
National Laboratory and the National Energy Technology Laboratory on 
areas of spill prevention research, risk modeling, renewable energy 
initiatives, and technology research.
    BSEE also participates in the Interagency Coordinating Committee on 
Oil Pollution Research (ICCOPR), which provides a forum for research 
collaboration that looks at oil spill prevention, preparedness, and 
response. The ICCOPR, a congressionally mandated body which is 
comprised of staff from Federal agencies, provides a venue in which 
agencies share their latest research, regulations, and policies; 
explore opportunities for collaboration on research; and, identify 
emerging issues that need national attention. BSEE currently serves as 
the Co-Chair providing leadership and coordinated research efforts 
throughout the Federal oil spill research community. BSEE also sits on 
the Scientific and Technical Committee of the National Response Team.
International Collaboration
    BSEE's commitment to reducing risk throughout the offshore industry 
is not limited to the U.S. OCS. Through various multilateral and 
bilateral relationships, BSEE is helping to share U.S. standards and 
best practices for safety and environmental protection internationally 
across a global industry. Bureau experts are routinely requested to 
provide technical assistance and training to other nations who are 
working to develop their offshore energy resources in a safe and 
environmentally responsible manner. BSEE engagements include policy 
assistance, bilateral and multilateral engagements, standards 
development, international agreements, and participation in 
international fora. Notable multilateral engagements include BSEE 
participation in the International Regulators Forum (IRF), 
International Offshore Petroleum Environment Regulators, Arctic 
Offshore Regulators Forum, and the Caribbean Oil Spill Cooperation 
Forum.
    BSEE is actively involved in several working groups of the Arctic 
Council. For example, as a member of the Emergency Prevention, 
Preparedness, and Response Working Group, BSEE is engaging 
international partners in joint research activities to better protect 
resources that could be impacted from spills in Arctic waters.
    Through the implementation of the U.S.-Mexico Transboundary 
Hydrocarbon Agreement, BSEE continues to work with Mexican officials to 
exchange information and craft procedures for a joint inspections 
program that supports the safe and responsible exploration and 
development of hydrocarbon resources along the maritime boundary.
                               conclusion
    The efforts outlined throughout this testimony represent important 
milestones in BSEE's ability to achieve its mission to ensure offshore 
safety, and to protect life, property, and the environment while 
serving as a significant source of energy for the Nation. In calendar 
year 2014, OCS leases in California, Alaska, and the GOM provided 528 
million barrels of oil and 1.3 trillion cubic feet of natural gas, 
accounting for more than 16 percent of the Nation's oil production and 
about 5 percent of domestic natural gas production. BSEE will continue 
to support domestic energy production from the Nation's offshore 
resources, while actively working to reduce risk in order to ensure 
safe and environmentally responsible operations on the OCS.
    It is my belief that our work as regulators--on behalf of the 
American people--is never finished. As our commitment and duty to the 
American people, we will remain vigilant in instituting reform efforts 
and lessons learned since the tragic DWH event. We will continue to 
work cooperatively with the regulated community to promote best 
practices and to support a robust culture of safety within industry. I 
thank the committee for inviting me to appear today. I would be pleased 
to answer any questions.

                                 ______
                                 

 Questions Submitted for the Record by Chairman Rob Bishop to Director 
        Salerno, Bureau of Safety and Environmental Enforcement
    Question 1. In the hearing, you responded that the lessons learned 
in the Gulf of Mexico will be employed in new areas, such as the 
Atlantic, and that exploration and production can be conducted safely. 
Can you explain where BSEE intends to have a regional office to better 
regulate this prospective development and how the Bureau intends to 
oversee operations?

    Answer. No decision has been made at this time regarding the 
location of a regional office to oversee exploration and production 
activities on the Atlantic Outer Continental Shelf (OCS). If regulatory 
or technical issues arise before the office is established, staff from 
our Headquarters and Gulf of Mexico offices will assist.

    Question 2. Can you please elaborate on the criteria used to 
furnish the economic analysis of your rulemakings.

    Answer. The criteria used to furnish economic analyses of BSEE's 
rulemakings are established by statute, Executive Orders and guidance 
from the Office of Management and Budget (OMB) for all Federal 
regulatory agencies. Most of these criteria are found in Executive 
Order (E.O.) 12866 and E.O. 13563, and associated guidance in OMB 
Circular A-4,``Regulatory Analysis'' (Sept. 2003). In addition, 
agencies are required by the Regulatory Flexibility Act of 1980 to 
consider the economic impact of regulations on small entities, and 
agencies are required under the Unfunded Mandates Reform Act of 1995 
(UMRA) (Public Law 104-4) to assess whether the effects of the 
regulation would include a mandate involving additional annual 
government expenditures of $100 million or more.
    BSEE looks at all available sources of data and uses a variety of 
data sources for its economic analyses. These include BSEE's own 
electronic databases, especially TIMS, which include information 
collected from industry reports and/or compiled by BSEE inspectors and 
other staff in the course of their duties. Other data are acquired from 
publicly available statistics from several agencies, such as energy 
prices and volumes from the Department of Energy, industry statistics 
from the Department of Commerce, and wage rates and the Consumer Price 
Index from the Bureau of Labor Statistics. Additional data are acquired 
from trade association and professional association (e.g., Society of 
Professional Engineers) Web sites, and, where appropriate, from 
inquiries to knowledgeable and reliable sources within the affected 
industry, including BSEE's own subject matter experts with direct 
knowledge of relevant facts.
    Data provided through public comment on proposed rulemakings also 
are invaluable sources of information that allow the agency to refine 
its economic impact analysis.

    Question 3. Given the complexity of the well-control rule and how 
it will work in concert with the proposed Arctic rule, can you provide 
a schedule for expected implementation?

    Answer. Both the Arctic rule and the well control rule are proposed 
rules published for public comment. All relevant comments will be 
reviewed and considered by the Department before any final rulemaking 
decisions are made. During the comment review and preparation of the 
final rules, the Bureaus will reconcile any potential overlap in the 
rules and will consider the appropriate implementation schedules for 
both rulemakings.

    Question 4. How is BSEE working with industry to encourage further 
safety innovations for future operations?

    Answer. For decades, BSEE and its predecessor bureaus have 
communicated with industry to encourage safety innovations through 
Regional and Headquarters administered programs and functions. These 
interactions occur through any number of fora including formal review 
processes, sharing the results of significant permit reviews and 
incident investigations, participation in conferences and technical 
fora and through technical research projects focused on operational 
safety and pollution prevention.
    For example, BSEE uses the results of incident investigations and 
data analysis to identify incident causes and trends. Appropriate 
actions are then identified to prevent the recurrence of these 
incidents and to enhance safety and environmental protection on the 
OCS. These actions may include publishing Safety Alerts, initiating 
technical research, developing new/revised regulations or standards, 
enhancing inspection strategies, and holding safety workshops. BSEE 
uses these tools and practices to inform the offshore oil and gas 
industry and our international counterparts of the circumstances 
surrounding an incident or a near miss, and to provide recommendations 
to help prevent the recurrence of such an incident on the OCS.
    BSEE and industry also engage with each other in technical forums, 
meetings on specific topics or practices, regulations workshops, and 
the development of technical standards. At the present time, BSEE 
incorporates over 100 technical standards into its regulatory program. 
The standards include equipment specifications, operating practices, 
equipment manufacturing, and hydrocarbon measurement. Currently, BSEE 
is working with industry on a variety of standards-related issues to 
improve safety on the OCS. These standards include deepwater 
operations, Safety and Environmental Management Systems, cementing, 
cranes and lift operations, operations in high pressure high 
temperature environments and safety valves.

    While BSEE continues to promote new technologies and safety 
innovations through these means, more recently BSEE has broadened its 
exposure and influence through new and evolving programs, such as:

    The Best Available and Safest Technologies (BAST) program. As part 
of the initiative, BSEE engineers continuously identify and assess new 
and emerging technologies that have been recommended for or have the 
potential for use in the OCS. BSEE engineers engage designers, Original 
Equipment Manufacturers, service providers, distributors and others to 
assess the capabilities of technology as potential BAST and, where 
possible, witness qualification testing to assess performance and 
risks.

    Safety and Environmental Management System (SEMS). As part of our 
implementation of the SEMS program, BSEE has formulated over 20 
questions on how SEMS can be used to encourage further safety 
innovations in OCS oil and gas operations, and has asked the Ocean 
Energy Safety Institute (OESI), a research consortium sponsored by BSEE 
and run by Texas A&M, University of Texas and University of Houston, to 
conduct workshops and forums with industry and other stakeholders, to 
provide BSEE with answers to those questions.

    Ocean Energy Safety Institute (OESI). In 2013, BSEE established the 
OESI, a consortium of the University of Texas, University of Houston 
and Texas A&M. It is housed in the Texas A&M Mary Kay O'Connor Process 
Safety Center. The OESI was established to facilitate research and 
development, training of Federal workers on BAST, and implementation of 
operational improvements in the areas of offshore drilling safety and 
environmental protection, blowout containment and oil spill response.
    The OESI provides a forum for dialog, shared learning, and 
cooperative research among academia, government, industry, and other 
non-governmental organizations, in offshore energy-related technologies 
and activities that ensure safe and environmentally responsible 
offshore operations.

                                 ______
                                 

    The Chairman. Thank you, I appreciate that. Stayed in the 
time limit too, I appreciate that.
    We will now turn to questions. Let me turn first to Mr. 
Lamborn, if you have questions for the Director.
    Mr. Lamborn. Yes, thank you, Mr. Chairman. Thank you for 
holding this hearing. And, Director Salerno, thank you for 
being here today.
    This week Secretary Jewell said that offshore drilling is 
safe, especially under the Federal reforms that have been put 
into place since Macondo. Do you agree with her statement?
    Admiral Salerno. I believe it has gotten safer, sir, yes.
    Mr. Lamborn. No, I am glad to hear that. But is it safe?
    Admiral Salerno. It is comparatively safer, yes. And I 
think the reforms that have been put in place have contributed 
to that, as well as a number of other factors.
    Mr. Lamborn. Now, I imagine that the reforms will carry 
forward into all of the new areas that this committee hopes to 
see developed in the coming years, such as the Arctic and the 
Atlantic. Is it your belief that offshore exploration and 
development can be done safely in the Arctic and the Atlantic?
    Admiral Salerno. With the proper oversight and controls, I 
believe it can be done safely.
    Mr. Lamborn. Thank you. I would like to touch on two of 
your most recently proposed regulations, the Arctic Rule and 
the Well Containment Rule. The Well Containment Rule focuses on 
the high pressure and high temperature environment of the 
deepwater Gulf of Mexico. And, from what I know, the areas put 
forward for Arctic development are in a low pressure, low 
temperature, and shallow water environment. How would these 
rules work together, or work in tandem with two very different 
environments?
    Admiral Salerno. The Well Control Rule does include high 
temperature, high pressure, as you indicated. But it is 
actually more inclusive than that. It also addresses activities 
in shallower water, and it also is meant to apply to Arctic 
activities, as well.
    Mr. Lamborn. And does the Arctic Rule include provisions 
for a second ship to be available to start drilling a relief 
well, in case there is a problem?
    Admiral Salerno. The Arctic Rule does propose a second rig, 
which would be available to drill a relief well, should one be 
required. That rig can also be used for drilling activity.
    Mr. Lamborn. How long would it take to start and finish 
drilling a relief well, if such a thing were necessary?
    Admiral Salerno. We estimate--well, we built into the 
proposal a 45-day window at the end of the drilling season to 
allow sufficient time for a relief well to be drilled. And that 
would include time to reposition a second rig to the site.
    Mr. Lamborn. So you don't think there are better ways, 
faster ways, of tackling the issue than what would take up to 
45 days with a second drilling rig doing a relief well?
    Admiral Salerno. To permanently kill an out-of-control 
well, our best understanding is it will take a relief well. 
Most wells are permanently killed in that fashion. So that is 
why we included it in the proposal.
    Now, we have asked the industry in this proposal for 
alternative technologies, and we would welcome input from the 
industry along those lines.
    Mr. Lamborn. OK, thank you. Also, my understanding is that 
the comment period is going to be limited to 60 days, which, to 
me, sounds like a very short time. What are your thoughts on 
that?
    Admiral Salerno. The Arctic Rule has just been extended an 
additional 30 days, for a total of 90 days. And our initial 
comment period for the Well Control Rule is 60 days. Should 
there be a need to extend that, obviously, the Department can 
evaluate that and extend it, if necessary.
    Mr. Lamborn. Well, I would ask you to consider that, 
because these are very technical, as you know. And that 
additional time could be useful to the people wanting to make 
comments.
    OK, thank you. I appreciate that. Mr. Chairman, I yield 
back.
    The Chairman. I thank the Subcommittee Chairman for those 
questions.
    Turning to Mr. Grijalva, I realize you already have the 
monitor aimed toward you. You are taking over here. Do you have 
questions?
    Mr. Grijalva. I would defer to the----
    The Chairman. Ms. Tsongas, defer to you for the questions.
    Ms. Tsongas. Thank you. And thank you, Vice Admiral 
Salerno, for being here. It is great to have you here.
    You know, I come from the coastal state of Massachusetts. 
And, like many of the Gulf states which were so deeply impacted 
by the BP oil spill, the health of our ocean, the Atlantic, 
directly impacts the health of many communities in 
Massachusetts, as well as the other New England coastal states. 
And we depend on the ocean and coastal areas for shipping, for 
commercial fishing and tourism, as well as for alternative 
energy development.
    In fact, Massachusetts is home to the most profitable port 
in the Nation, New Bedford, Massachusetts, which brings in over 
$400 million a year in commercial fishery landings. The New 
England region, as a whole, brings in over $1.1 billion in 
commercial landings annually, which, obviously, has a ripple 
effect on our entire regional community.
    As you know, the Department of the Interior recently issued 
the draft 5-year Outer Continental Shelf Oil and Gas Leasing 
Program, which included a proposed lease sale in the Atlantic 
Ocean. The BP oil spill underscores the real risks associated 
with offshore drilling. And, despite testimony today, I remain 
concerned that safety reforms are insufficient. I strongly 
oppose this proposed lease sale, and hope it will be removed 
from the final plan.
    In your written testimony about agency reforms, you said 
that BSEE approaches safety on the Outer Continental Shelf by 
assessing and managing risk. You also said that the Bureau 
works with scientific organizations and industry to identify 
and quantify operational risks. We have not had drilling off 
the coast of the Atlantic in decades, and the most recent wells 
were abandoned because they were not commercially viable.
    So, my question is, as you are relooking at the way in 
which you do work, given the risks that we know are real, has 
BSEE ever conducted any assessments of drilling safety off the 
coast of the Atlantic?
    Admiral Salerno. We have not looked specifically at the 
Atlantic. We look at drilling activity in and of itself, you 
know, the nature of drilling, the technology that is used in 
drilling, the environment where drilling takes place--
particularly, for example, in the Arctic, where we need special 
conditions. But we focus on the technology, the techniques, the 
practices that are used by the industry, and everything that 
goes into preventing mishaps and accidents on the Outer 
Continental Shelf. But it is not necessarily geographically 
specific for the Atlantic.
    Ms. Tsongas. So are you basically depending upon industry 
assessment?
    Admiral Salerno. No, we are not. We are focusing on our own 
assessments of industry practices and the technology that is 
being used in place.
    We really focus on the design of the well, making sure that 
there is proper integrity there, there are proper barriers in 
place, so that anything that conceivably could happen has a 
safety barrier, multiple safety barriers. That is how we 
approach the management of risk.
    Ms. Tsongas. Well, should the Atlantic lease sales be 
included in the final 5-year plan, what do you expect to be the 
biggest safety concerns?
    Admiral Salerno. We will certainly take a close look at any 
unique characteristics, but a lot of it will be depending on 
the geology, what we anticipate in the geological formations, 
what risks they impose, the temperatures, the pressures, and 
certainly any operating conditions regarding meta-ocean data. 
You know, anything that might affect activity on the surface.
    Ms. Tsongas. And do you imagine that the precautions in the 
Atlantic would be different from those that are in the Gulf or 
wherever else you may be considering lease sales?
    Admiral Salerno. Potentially. I think it will be a result 
of all of the factors I just mentioned.
    Ms. Tsongas. Well, as I said, I remain very opposed to 
having the Atlantic included in these proposed lease sales, and 
I do hope that it will be taken off the list. Thank you, and I 
yield back.
    The Chairman. Thank you. Now I will turn to Mr. Graves, 
this is your back yard. Do you have questions for the Director?
    Mr. Graves. Thank you, Mr. Chairman. Put the slide up, 
please.
    [Slide]
    Mr. Graves. Director, this slide here shows--the blue bars 
there show the volume of oil that was spilled in various years, 
dating back to 1973. And the red shows the number of 
incidences.
    You know, my takeaway, looking at that, is that you see a 
trend of, number one, decreasing incidences, which I think is 
fantastic. When I refer to incidences, I am talking about 
spills. Number two, you see a volume, significant volume drop. 
You see a bump in Valdez. You see a bump in 2005, as a result 
of the extraordinary hurricane activity that we had. But the 
trends are exactly what I think all of us want to see: fewer 
incidences and extraordinary reduction in the volume of oil 
that was spilled.
    If you were to take the oil that was spilled in Deepwater 
Horizon, you could take that max year that looks like it is 
1975, and by some estimates you could multiply that times 10 or 
20. OK? And that takeaway is over 2,000 separate spills. So I 
will say again, you can take the spills, over 2,000 separate 
spills, total volume, you can multiple it times 10 or 20.
    I realize that the District Court said it is 3.19 barrels 
that were spilled. That is under appeal by Department of 
Justice. And I think there is other documentation out there 
which may indicate that the spill volume was much higher.
    I guess you would concur that this is a good direction and 
good trends that we are seeing.
    Admiral Salerno. Yes.
    Mr. Graves. You understand that, in the case of Deepwater 
Horizon, that the judge determined that there was gross 
negligence and that there was willful misconduct. And I would 
consider that to be somewhat of an anomaly, meaning that the 
operations in that particular situation were an anomaly. In 
fact, the judge says that there was an ``extreme deviation from 
the standard of care, and a conscious disregard of known 
risk.'' He also said that the operators decisions were 
``profit-driven.''
    I am all for ensuring that we are safe in operation of 
offshore. But I also think it is really important for us to 
recognize this: gross negligence, willful misconduct. The fact 
that we have had billions of barrels of oil that have been 
produced in the Gulf of Mexico, and trillions of cubic feet of 
natural gas, and we haven't had incidences. We haven't had 
serious spills. And this is an anomaly. And I think it is very 
important that that be taken into consideration.
    Whenever you go ride a motorcycle, you put a helmet on. 
Whenever you go whitewater rafting, you put on a PFD or a life 
jacket, because there are additional safety risks. I will say 
that, with the corners that were cut in Deepwater Horizon, 
absolutely the capture measure, the capping the recovery 
measures, were insufficient, based upon the risks that those 
operators, that those RPs, were taking. But I am concerned that 
what is happening now in some cases--that the safety regs are 
going to go beyond, and you are going to punish some of those 
that have actually been good operators in the Gulf of Mexico. 
And I just want to place that in the record, and I want to ask 
you to please consider that we have had safe, good operators in 
the Gulf.
    Ask you a question. Right now--and you can certainly come 
up with various estimates; I think it is difficult to get an 
accurate prediction--but you can easily conclude that today--
that there are multiple times more oil in the Gulf of Mexico 
than there was spilled during the entire Valdez spill. Do you 
believe that the cleanup efforts have been sufficient? I know 
it is outside your box.
    Admiral Salerno. Yes, that is outside my box. They are 
continuing. I think the cleanup efforts were a remarkable job, 
they did a remarkable job. But it is ongoing. It is not done. 
There is still oil out there, and the unified command continues 
to exist, to the best of my knowledge, for that purpose.
    Mr. Graves. Director, the fact that, here we are, 5 years 
later, and we are still seeing the same headlines as we saw 5 
years ago, extraordinary volumes of oil that are still being 
recovered--I can take you out there today, I can take you out 
there any day you want to go, and I can show you oil. I will 
tell you I think it is ridiculous. I think it is absolutely 
ridiculous that we still have the volumes of oil that are out 
there today, and that the Coast Guard and the Feds are not 
being more vigilant in requiring the RPs to be more aggressive 
in the recovery efforts. And I think that much, much more can 
be done.
    To see the President hide behind environmental concerns and 
oil spill concerns on Keystone Pipeline, yet in this case allow 
the extraordinary volumes of oil to infect one of the most 
sensitive and productive ecosystems on this continent I think 
is absolutely unacceptable.
    Thank you, Mr. Chairman.
    The Chairman. Thank you. Mr. Huffman.
    Mr. Huffman. Thank you, Mr. Chairman. I have come to 
associate these oversight hearings with the very colorful and 
sometimes lurid titles about government overreach and water 
grabs, and things like that. So I was kind of surprised to see 
this very technical, academic title today: ``Innovations in 
Safety Since the 2010 Macondo Incident.'' I didn't even know 
what the Macondo Incident was.
    Turns out the Majority's messaging department has once 
again been very on-message. The message with this milestone 
anniversary of the tragic Deepwater Horizon spill is to not 
talk about that spill. In fact, we are even renaming it. We are 
calling it the Macondo Incident. And we are going to talk 
euphemistically and wishfully about all the advances in 
innovation that have made deepwater drilling and other 
exploration safe now.
    It is a great attempt at messaging. But, unfortunately, it 
is not very accurate. There is a lot that we could be saying on 
this milestone about what happened with the Deepwater Horizon 
rig. We could be talking about the inherent dangers of oil 
drilling and exploration, the loss of life that continues to 
happen, the exploding trains that we are experiencing all too 
often around the country, the inherent environmental damage and 
risk that we see with our unhealthy reliance on oil. We could 
talk about the full extent of the environmental damage from the 
Deepwater Horizon spill.
    We could talk about the Barrier Islands in Louisiana that 
have eroded and begun to disappear because of the loss of 
vegetation, as the mangroves were encased in oil. I was 
watching a show last night where somebody took a boat up to one 
of these islands, and just the propeller action from that boat 
started stirring up oil that was beneath the surface.
    We could talk about the massive oil mats that are being 
found beneath the surface that nobody talks about. They are not 
visible from the surface. But I was glad Mr. Graves raised this 
issue, because if we are going to commemorate this important 
milestone, we need to be honest about it. We can't whitewash 
the full consequences of our unhealthy reliance on big oil, and 
the inherent dangers of some of these drilling operations.
    Now, I know that the Majority would like to have that be 
the narrative today, how far we have come, how safe drilling 
and exploration is, because, obviously, there is an agenda to 
take drilling and exploration into the Arctic, onto the 
Atlantic Coast. But we need to think very carefully about that, 
and make sure that we are drawing the right lessons from our 
own very recent history.
    So, Director Salerno, I just want to ask you about the 
Arctic, for example. Would you agree that the Arctic is 
probably one of the more hostile climates that we could attempt 
to do oil exploration and drilling in?
    Admiral Salerno. It is a hostile environment. It is not 
impossible, but it would require very special considerations 
and capabilities to be brought to the scene.
    Mr. Huffman. Choked with pack ice 8 months of the year, 25-
foot seas, gale force winds, a lack of nearby equipment and 
staging locations. All of these things are going to seriously 
complicate an attempt to do drilling in a place like the 
Arctic, wouldn't you agree?
    Admiral Salerno. I liken it to a moon shot. You really have 
to bring what you need with you, which gets to the whole 
question about the relief rig. And it also gets to the special 
capabilities of the equipment that is brought to the scene.
    Mr. Huffman. Now, Shell Oil Company tried to get into that 
area in August of 2012. And it is my understanding it didn't go 
so well. Are you familiar with that effort?
    Admiral Salerno. I am.
    Mr. Huffman. Would you tell us a little bit about what went 
wrong?
    Admiral Salerno. There were elements of the overall 
operation which did not pan out as Shell had planned. The 
environmental response capabilities were not brought to bear. 
That resulted in a restriction in what drill was allowed to do 
in their drilling activity. They were not allowed to enter into 
an oil-bearing zone, as a result.
    And then, as was well publicized, the marine transportation 
portion of their operation failed bringing the rig out of the 
Arctic. This actually occurred down by the Aleutian Chain, 
where they lost a tow line, and were unable to recover the tow.
    Mr. Huffman. They had an underwater containment vessel that 
they claimed could bottle up a gusher. What happened to that?
    Admiral Salerno. That was not functional. And that was the 
reason they were not allowed to drill into an oil-bearing zone. 
They did not have that capability readily available.
    Mr. Huffman. And they had two drilling rigs that they lost 
control of. One of them crashed on the rocks and had to be 
rescued by the Coast Guard. Is that your understanding, as 
well?
    Admiral Salerno. I believe they did drag anchor, they did 
have some marine problems, and the Coast Guard addressed those.
    Mr. Huffman. All right, thank you. I think we need to be 
very careful before wishfully assuming that everything is safe 
with oil exploration. Thank you, Mr. Chair.
    The Chairman. Thank you. The Arctic is hostile, but they 
are not in a drought.
    Mr. Gohmert, let me turn to you. And I want you to know 
that I am trying to follow your lead, but I only have a can, I 
don't have a bottle, I am sorry.
    Mr. Gohmert. You can get your can out, but that is----
    The Chairman. You are up.
    Mr. Gohmert. Thanks. Director, thanks for being here. Do 
you know, I don't have it in front of me, but do you know how 
many egregious safety violations British Petroleum was cited 
with before the blowout of the Deepwater Horizon?
    Admiral Salerno. I do not have that at my fingertips, sir. 
I can get it for you----
    Mr. Gohmert. Yes----
    Admiral Salerno [continuing]. For the record.
    Mr. Gohmert. Well, it seemed like it was right at 800 
egregious safety violations. That sound about right, in that 
area?
    Admiral Salerno. Again, sir, I would have to check the data 
on that.
    Mr. Gohmert. Do you know of any offshore production company 
that has come anywhere near 800 egregious safety violations?
    Admiral Salerno. Not offhand.
    Mr. Gohmert. Because we have had hearings on it before, and 
it seemed like some may have had one, some two, and British 
Petroleum had, as I recall, nearly 800. And some of us were 
just scratching our heads. How in the world were these people 
allowed to keep operating with those kind of egregious 
problems?
    And, having graduated from Texas A&M, that is known for its 
petroleum engineering and other petroleum degrees, I have had 
friends, many that have worked out in the Gulf of Mexico, and 
they have told me about BP back before the blowout, the 
Deepwater Horizon, that they had a reputation for trying to cut 
corners. So, many of us just wondered how in the world the 
Obama administration allowed them to keep operating.
    And I read an article that, on the day of the blowout, BP 
officials were meeting with Senator Kerry at that time about a 
big coming-out party announcement, where BP was going to 
announce their big support for the cap and trade bill. So I 
didn't know if maybe their favorable position on cap and trade 
got them some special consideration, at least the 
Administration looking the other way.
    Since you were not familiar with how many egregious safety 
violations there had been, and you are in charge of the Bureau 
of Safety and Environmental Enforcement, do you not pay 
attention to who the egregious safety violators are?
    Admiral Salerno. Oh, I absolutely do.
    Mr. Gohmert. But you just don't know----
    Admiral Salerno. I don't have that number at my fingertips, 
no.
    Mr. Gohmert. Do you have any idea how many egregious safety 
violations British Petroleum has had since the Deepwater 
Horizon blowout?
    Admiral Salerno. Not at my fingertips.
    Mr. Gohmert. So, we really don't have to worry about them. 
We know, surely, they would never let something like that 
happen again. Is that the approach that your bureau takes?
    Admiral Salerno. Not at all. Not at all, sir. They, you 
realize, were debarred for several years. They were not allowed 
to----
    Mr. Gohmert. So who is the most egregious safety violator 
that we have in the Gulf of Mexico right now?
    Admiral Salerno. There are a number of companies that we 
have on what we call performance improvement plans because of 
unsatisfactory performance----
    Mr. Gohmert. Which ones are those?
    Admiral Salerno. I can get you a list of those, sir.
    Mr. Gohmert. But you don't know, just off the top of your 
head.
    Admiral Salerno. I do have----
    Mr. Gohmert. Is that somebody else's responsibility?
    Admiral Salerno. I was trying not to use up your time, sir, 
but----
    Mr. Gohmert. Well, that is all right. I am really curious.
    Admiral Salerno. We have had--I am sorry here----
    Mr. Gohmert. So have you personally had dealings with any 
of the egregious safety violators in the Gulf of Mexico?
    Admiral Salerno. Yes, well BP, in particular. They are 
under court-ordered safety----
    Mr. Gohmert. So they continued to have egregious safety 
violations since----
    Admiral Salerno. We had regular meetings with them, and 
they are subject to a heightened degree of scrutiny.
    Mr. Gohmert. So they have continued to have egregious 
safety violations, or this is still from Deepwater Horizon?
    Admiral Salerno. No, we did not see egregious safety 
violations.
    Mr. Gohmert. OK. But they are just on watch from that 
original one.
    But what about other egregious violators? Do you have 
direct dealings with any of those, or do you just leave that to 
somebody else, to deal with egregious safety violators?
    Admiral Salerno. No, I do meet with them.
    OK, the ones on special--that we watch very closely are ERT 
Talos, BT, Pogo. Those are three.
    Mr. Gohmert. OK.
    Admiral Salerno. We have----
    Mr. Gohmert. Nothing like good staff to hand us notes to 
help us out. So that is very helpful.
    But I was curious about you, personally, whether you were a 
hands-on kind of person that really wanted to stop egregious 
violations.
    I see my time has expired. But I would encourage you to 
take a personal interest in who the egregious violators----
    Admiral Salerno. I assure you, I do.
    Mr. Gohmert. OK. Well, I will look forward to having better 
answers next time, since you do. Thank you.
    The Chairman. Mrs. Capps.
    Mrs. Capps. Thank you, Mr. Chairman. And thank you, 
Director Salerno, for your testimony, and also for the 
impressive amount of work you have done on new drilling and 
safety regulations following the Deepwater Horizon incident.
    But it also highlighted serious weaknesses in our ability 
to actually remove oil that has been spilled into the water. 
That is the topic I would like to focus on a bit.
    I witnessed myself the 1969 Santa Barbara oil spill, and I 
vividly remember the booms that were used to contain the oil, 
and the workers who mopped--literally mopped--up the oil with 
their bare hands, and got it all over themselves, as well as 
the wildlife. Watching the Deepwater Horizon response unfold, I 
was struck by how little the spill response technology itself 
being used in 2010 had advanced since the Santa Barbara spill 
40 years earlier.
    Director, have these technologies improved at all in the 
past 5 years? And is BSEE--now that this structure is in place, 
are you planning on making any updates to your oil spill 
response regulations, which I believe were last updated in 
1997?
    Admiral Salerno. Yes, thank you. You are correct. Between, 
say, the Exxon Valdez and Deepwater Horizon, there was not very 
meaningful improvement in oil spill response technology. In the 
last 5 years there has been--I would call it marginal increase 
in mechanical spill recovery techniques. There have been some 
new skimmers that have been designed, and we have participated 
in that, predominantly through our test facility in New Jersey, 
which is the largest test tank in the country. And they have 
developed skimmers that are several times more efficient than 
previous models.
    There have been improvements in boom technology, as well, 
so that booms can be towed by vessels at greater speed, which 
helps collect and corral oil. So there are improvements there. 
And I think, as you know, for deepwater there are the spill 
containment capabilities.
    Mrs. Capps. Thank you.
    Admiral Salerno. I think you will hear more about that on 
the second panel.
    Mrs. Capps. Right.
    Admiral Salerno. R&D is ongoing. Our Bureau invests, I 
think, more Federal dollars than any other Federal agency in 
R&D and spill response technology to, in a coordinated way with 
other Federal agencies, to enhance preparedness.
    Mrs. Capps. Right. That is encouraging to hear.
    You know, we have seen over the past decades that most 
action on drilling safety--and I think this is human nature--or 
spill response has been taken reactively, both in agencies and 
here, in Congress. When you have an accident, when there is a 
spill, the issue comes to the forefront, people respond, and 
then, in a few years, complacency tends to return, and no new 
advances are made until the next disaster.
    As you note in your testimony, the production safety system 
rules were last updated in 1988, and that is more than 25 years 
ago.
    Another question: Beyond trying to predict risks in future 
technologies, how is the Agency working to be more proactive? 
You mentioned a test area. Maybe you would like to highlight a 
little bit more of that. To keep regulations in line with 
technology before something goes wrong.
    Admiral Salerno. Well, we are doing the R&D work involving 
industry and academic sources. We use our test facility. We are 
in the process of updating our regulations for spill response. 
I would anticipate some time next year a proposal would go out 
along those lines.
    A lot of activity, a lot of R&D activity, focusing on the 
Arctic for obvious reasons.
    Mrs. Capps. Good.
    Admiral Salerno. On how oil could be recovered from 
underneath ice, how in-situ burning or dispersants might be 
used in ice-choked areas, as well as the ability to spot and 
detect oil in low-light situations.
    Mrs. Capps. And in BSEE's production system rule, the 
Agency proposed to strengthen the requirements for companies to 
use the best available and safest technology. And that is a 
proposal I understand the industry--I suppose, again, human 
nature--tends to push back on.
    I asked you about this proposal a few weeks ago, and you 
said you hoped the rules would be completed. And this would be 
the rules for industry itself to push technology forward, in 
terms of potential problems as they drill. You hoped the rules 
would be completed some time this spring. Could you give us an 
update? Where do things stand with this effort? Are things 
still on track this spring?
    Admiral Salerno. Yes, ma'am. The production safety rule is 
taking a little bit longer than we would like. We still hope to 
get that out, probably this summer.
    The vast provision of that rule, the requirement will still 
be in the rule, but the definition of how it will work is 
something that we have been working on separately. We have been 
engaging with academia and with industry, a number of industry 
groups, on----
    The Chairman. I am sorry to cut you off, but--I am not 
sorry, you are over time.
    Turn to Mr. Wittman.
    Dr. Wittman. Thank you, Mr. Chairman. And, Director 
Salerno, thank you so much for joining us.
    As you know, in Virginia, the vast majority of our 
congressional delegation and state officials are in favor of 
offshore energy development. I see that in the proposed 2017-
2022 draft 5-year plan that Virginia Lease 220 is in 
consideration. I hope that that continues in consideration, 
more than just the exploration, but into the development phase. 
I can tell you that we feel very strongly that energy 
production in Lease 220 can take place safely, especially at 50 
miles offshore. We believe in those areas it can take place 
very, very safely.
    Let me ask this. I know an earlier question was similar, 
but I want to ask specifically to the lessons learned from the 
Deepwater Horizon disaster, understanding not only where 
technology was not applied properly, but also where there was a 
breakdown in decisionmaking, both for the drilling company, 
both in BP, and within the regulatory community. There was a 
whole slate of things. If you look at that historically, you 
can see it at different points. There were problems that led to 
that particular disaster.
    Having learned what happened in studying the Deepwater 
Horizon disaster, understanding where those problems exist and, 
as you spoke of, and Secretary Jewell spoke of, the lessons 
learned, and how those lessons learned today are being applied 
to safety standards for the industry in both drilling and in 
the development of that energy, do you believe, with those 
lessons learned, that in Lease 220, that drilling can take 
place safely, and that we can apply those lessons learned in 
those areas, particularly within that lease area?
    Admiral Salerno. I do. Thanks. You raised a very important 
point. One of the most critical elements going forward is the 
culture of safety, how people make decisions. It is not solely 
relying on the technology and the data that they receive, but 
what they do with it, and whether they stop work if unsafe 
conditions present themselves. That has been a noticeable 
change in the last several years.
    Many of the companies that I do interact with--and I meet 
with all the major companies, and a lot of the smaller 
companies--this is what we talk about, how they make decisions. 
So that is where we will take safety to the next level. It was 
the focal point of our safety and environmental management 
system. We had two rules that have come out since Deepwater 
Horizon to really get at that human element and human 
decisionmaking.
    Dr. Wittman. I think that is a great point: the human 
element is important. The technology is also important, to make 
sure that we properly apply technology.
    There have been some comments made by Members of Congress 
to say that technology does not exist today for oil drilling 
offshore in the Outer Continental Shelf to be done safely. Is 
that a correct statement? Does the technology not exist for 
that to be done safely?
    Admiral Salerno. There are some areas where technology is 
really at the cutting edge: the high temperature, high pressure 
well. They can drill the well, but to actually create the 
producing systems, that technology is still being developed. 
And there are joint industry projects underway to do that. We 
are working very closely with those companies, because they are 
really out ahead of our regulations, they are ahead of industry 
standards. So this requires very, very close contact with the 
industry, to make sure that all of the safety barriers are in 
place, and the technology is well understood.
    Dr. Wittman. Got you. So, not only is it a situation where 
the technology does exist--in fact, the industry is pushing the 
envelopes of technology, and you all are trying to keep up to 
make sure that it is applied properly--but can that technology, 
even on the cutting edge, can not only be applied properly, but 
can decisionmaking now take place within that realm of new 
technology, to make sure that we do mitigate the risks? This is 
not a zero-risk operation. It never will be. But there is 
nothing on the face of this earth that really is zero risk.
    Give us a perspective about the risk of today's technology, 
where it is going, and how you all have integrated better 
decisionmaking, both at your agency level, but also with the 
folks that you permit to do the drilling, and to apply that 
technology.
    Admiral Salerno. Well, since Deepwater Horizon, we have 
established a technical assessment team in our Gulf of Mexico, 
which does exactly that. And it is also the reason why we are 
putting a technology assessment center with a bureau-wide focus 
in Houston, right in the heart of the industry, to work with 
equipment manufacturers in the industry to understand this 
technology.
    The best companies that I have interacted with are applying 
the principles of high reliability organizations, the same 
types of principles that are used in the space program and the 
airline industry, where they really look at everything that 
could potentially go wrong, they assume that it will, and then 
they build in the barriers to see that it doesn't happen. Or, 
if it fails, it will fail safe. That is the approach----
    Dr. Wittman. So you believe, then, that what they are doing 
is applying technology to minimize risk to the lowest 
possible--under current technology?
    Admiral Salerno. At the leading edge, yes, that is what I 
am seeing.
    Dr. Wittman. Thank you, Mr. Chairman.
    The Chairman. Thank you. Mrs. Dingell.
    Mrs. Dingell. Thank you, Mr. Chairman. Thank you, Director 
Salerno, for joining us today. I know being here isn't probably 
the way you wanted to spend your Wednesday morning.
    One of the things, though, that we have learned from the 
Deepwater Horizon oil spill is that we are not very good at 
getting the oil out of the water. And I want to build on what 
Representative Capps was talking about, because--and I know you 
spoke about improved technology.
    But even though many people think of oil spill response as 
going out there with the booms and the skimmers and taking it 
all out of the water--and you say it has gotten better, but I 
have been told the estimates are that only about 3 percent of 
the oil released by the Macondo well was collected that way. 
For the rest we either had to burn it, which took care of only 
about 5 percent, or use millions of gallons of chemical 
dispersants, which don't actually remove the oil from the 
water, and as we all know, have their own side effects and 
things that we become very worried about, what is happening 
when those chemicals are in the water.
    And it appears that our ability to physically remove oil 
from water is no better now than it was decades ago. And, 
obviously, we have all been talking about how that concerns us, 
and I know that you are working on it. It is a threat to all of 
us, and each of us is also worried about the regions that we 
come from.
    In 2010, the largest inland oil spill that has occurred in 
our Nation's history occurred in Marshall, Michigan, and it 
resulted in 843,000 gallons polluting the Kalamazoo River. This 
heavy crude oil, as you know, was difficult to clean up, and 
although all portions of the river are finally open to the 
public for use, nearly 4 years after the spill we still don't 
fully understand the impact of what the spill has had on the 
ecological systems of the regions. And there are issues, as you 
know, and we are all talking about it.
    One problem in particular that matters in the Midwest is 
our existing cleanup equipment, and how it will work in icy 
conditions, if an oil pipeline spill were ever to happen in the 
Great Lakes, which, God forbid, will never happen. But we keep 
praying these things aren't going to happen, and they do. The 
Coast Guard has been conducting equipment deployment tests in 
icy waters off the northern coast of Michigan in recent years, 
but those tests don't look at how well this equipment can 
remove oil when ice is present.
    What is BSEE doing to improve our ability to respond to oil 
spills in icy conditions? And do we have assurances that we 
will be able to get more oil out of the water than we did when 
the Deepwater Horizon occurred? Which I know you talked a 
little bit about when Lois was asking you this.
    Admiral Salerno. Your numbers are accurate. Mechanical 
recovery in open water is not very effective. You are correct 
about in-situ burning, dispersant use. Probably the most 
effective technique was capture at the well head. But no 
response technology is 100 percent effective, and they are all 
very much dependent on conditions.
    So, you are right, additional R&D needs to be done. We need 
better equipment, we need better techniques. And work is being 
done, certainly by BSEE, also the Coast Guard, NOAA, EPA, on 
how to improve response capability in the ice. And, in fact, we 
have used our on-site facility in New Jersey with that. We have 
even choked it with ice to test equipment in those conditions.
    But it underscores the point that our best approach here is 
to keep the oil in the tube. We double down on prevention. That 
is why we are putting so much emphasis on working with the 
companies, understanding the technology, and making sure the 
barriers are there so oil doesn't get in the water in the first 
place.
    Mrs. Dingell. Well, I applaud that. And, as I say, we all 
hope that that happens. But life doesn't tend to happen the way 
we want it to be. So I am glad that you are working on it, but 
I think the point is that we are very far away from being 
effective, and being able to clean up oil spills. And oil 
spills in icy conditions is really frightening.
    And I hope, Mr. Chairman, that the committee will continue 
to focus on this issue as we move forward. I happen to believe 
we need to be doing much more, in terms of oil spill response 
and preparing for future incidences. One of the many proposals 
from the President's Oil Spill Commission that Congress has 
ignored so far is encouraging more private investment in oil 
spill response technology, through the use of public-private 
partnerships. And it seems that this is a model that we could 
make work here.
    Could you please discuss the current level of private 
investment in oil spill response technology, and whether you 
think more is needed?
    Admiral Salerno. Well, most of the Nation's response 
capability is in the private sector. There is government 
capability. Naturally, the Coast Guard has some, EPA has some. 
But, by and large, it is oil spill response organizations that 
are relied upon to provide this technology. And, certainly 
since Deepwater Horizon, for----
    The Chairman. I am sorry, I was interested in that, too, 
but we will have another round here.
    Admiral Salerno. Happy to continue.
    Mrs. Dingell. Thanks, Mr. Chairman.
    The Chairman. Love the private sector.
    Mr. Hice.
    Dr. Hice. Thank you, Mr. Chairman, and appreciate you being 
here, Director. I think we owe it to the 11 individuals who 
lost their lives to be here and discuss and examine safety 
improvements, and I appreciate you being here.
    It is fair to say that it is absolutely not possible to 
eliminate all risk from the industry. Is that correct?
    Admiral Salerno. That is correct.
    Dr. Hice. So, that being the case, what you are all about, 
and what the industry is trying to do as a whole, is to develop 
regulations, protocols, standards that, as much as possible, 
eliminates as much risk as possible.
    Admiral Salerno. Correct.
    Dr. Hice. OK. So, I know so many questions, we have gone 
down this, but based on that, do you personally believe that 
the stakeholders, as well as the industry as a whole, is taking 
that charge seriously, to, as much as possible, eliminate as 
much risk as possible from every perspective possible?
    Admiral Salerno. I would say it is a mixed bag. I have met 
with some companies that are the leading lights in this that 
have really put a lot of emphasis on it, and are doing a 
wonderful job in managing risk. I have encountered some others 
where I question their commitment to safety.
    And mention was made earlier about some of the accidents 
that have occurred, and we have seen accidents that have 
occurred, and fatalities that have occurred since Deepwater 
Horizon, where it was a complete absence of a safety culture. 
So we are working to remedy that. That is one of the reasons 
why we are approaching a risk-based approach to inspection, so 
that we can look at individual company performance, and tailor 
our resources and energies to address the greatest risks.
    Dr. Hice. So, with those companies that are not taking 
safety seriously, what percentage would you say, just off the 
top of your head, are those type of companies?
    Admiral Salerno. I would say there is maybe 10 percent of 
the ones that I have interacted with that are worrying me, that 
I felt that they did not have the proper safety culture, they 
did not communicate safety messages to their workforce, they 
did not interact meaningfully with their contractors. And much 
of the work that is done offshore is done by contractors and 
subcontractors. So when you have these disconnects, you set 
yourself up for----
    Dr. Hice. So what is being done to those--other than just 
communication, is there anything to help pressure them to----
    Admiral Salerno. Yes. We do meet with companies and review 
their performance. If performance has been substandard, we 
visit them more frequently. And we are working to develop a 
much more refined, sophisticated risk management model, working 
with one of the national laboratories, so we can make this 
whole process much more----
    Dr. Hice. So all that is taking place is meetings. There is 
no----
    Admiral Salerno. No, no, that is not what I am saying. We 
visit more frequently. We have greater oversight where we have 
areas of concern. So we visit more frequently, inspectors going 
out to the----
    Dr. Hice. And what if they don't comply?
    Admiral Salerno. If they don't comply, we have a range of 
enforcement options. The most serious cases, we could order 
them to shut-in.
    Dr. Hice. OK.
    Admiral Salerno. And we do that.
    Dr. Hice. All right. Thank you for that. According to the 
current 5-year plan by the Department of the Interior, all this 
includes some potential Atlantic lease sale type things, which 
is very important to my district, as a whole. How have the 
regulatory changes, including the proposed blowout preventers--
has that in any way impacted or changed the potential offshore 
lease in the Atlantic?
    Admiral Salerno. They would apply to any lease holding 
activity that eventually takes place. But it doesn't directly 
affect the lease sale itself.
    Dr. Hice. So that can still go forward?
    Admiral Salerno. Right.
    Dr. Hice. OK.
    Admiral Salerno. The two are separate.
    Dr. Hice. All right. So, just as an overall summary, I 
guess, what are some of the lessons, both from the 
stakeholders, industry as a whole, that have been learned to 
ensure that safety--that the new areas utilizing the latest 
technology and so forth for safety is in place?
    Admiral Salerno. Well, obviously, we have the new rules 
that will go out. They don't take effect right away. However, 
the industry itself has set standards in place and, for 
example, forward blowout preventers. And many of the companies 
that are building new rigs are applying those standards in 
their design specifications for new blowout preventers and new 
rigs. So, we are already seeing some of that taking effect.
    As far as safety management systems, that is, again, an 
area of continued emphasis by us, and by the leading companies 
in the industry.
    Dr. Hice. Thank you, Mr. Chairman.
    The Chairman. Thank you. Mrs. Torres.
    Mrs. Torres. Thank you. Director Salerno, in the aftermath 
of the Deepwater Horizon disaster, a number of safety reforms 
have been enacted or implemented, including the establishment 
of the Bureau of Safety and Environmental Enforcement, as a 
separate entity charged with regulating drilling operations on 
the Outer Continental Shelf. This has led to improvements. I 
should say much improvement in processes for inspection, 
investigating, and enforcement.
    But we have also heard about the role human error and 
inadequate training programs played in this tragedy. A 
competent and highly trained workforce will play a key role in 
preventing these types of disasters in the future.
    My two questions for you are, can you expand on the 
challenges the Bureau is facing regarding the recruitment and 
retention of skilled workers? And, two, which job 
classifications are the most difficult to staff? And what steps 
is the Bureau taking to remedy the situation? Included in that 
is pay scale.
    Admiral Salerno. Yes, thank you. And, actually, that is one 
of the greatest strategic challenges we face, is attracting and 
retaining a quality workforce. We struggle with that. We are in 
competition with industry for the same talent. Many of our 
people we hire from industry. But many of them go back to 
industry, because we cannot compete on a salary basis. We offer 
other advantages, and many people, thankfully, are motivated by 
a desire to serve.
    We have had help from Congress on salaries for engineers 
and for scientists, so we have had some special salary rates. 
That gets renewed in our budget every year. We are hoping to 
make that permanent. Inspectors, we do not have that authority, 
but we have been able to do some things internally to help 
boost salary rates there. We are working with the Office of 
Personnel Management to try to make some of these things a 
little more permanent, but this will be an ongoing challenge.
    And looking to the future, we are very much engaged in 
reaching out to youth groups, to high schools and colleges, 
really trying to motivate them to consider public service. And 
certainly returning veterans are a prime source, as well.
    Mrs. Torres. And, if I may suggest, incentives for years of 
service may be an area where you can look at.
    I would like to yield the rest of my time to Congresswoman 
Dingell to allow you time to finish answering her question.
    Mrs. Dingell. Thank you, Mr. Chairman. I will just go back.
    And if you could talk more about--we just, as part of the 
discussion, said that we hadn't made the progress we want to, 
in terms of the technology. And I understand the private sector 
is whose technology you are using. But are they investing in 
research? Where is the research happening? And are we doing 
enough research, public or private, to improve the technology 
for cleanups when we need them?
    Admiral Salerno. Right. Well, I think I left off talking 
about subsea containment capability, and that is where there 
has been a tremendous amount of research and investment, and 
capital investment in creating capabilities to address the 
kinds of problems we had in the deepwater during the Deepwater 
Horizon event.
    Mrs. Dingell. Now, is that government doing it, or the 
private sector, or both?
    Admiral Salerno. That is private sector investment. There 
is a government requirement that capability be developed. It 
was a performance requirement. And then industry responded, 
essentially, by forming a consortium so they could pool 
resources and develop the capability to meet that requirement.
    As far as----
    Mrs. Dingell. And you think they are investing enough in 
it?
    Admiral Salerno. Yes, I have been down and I have looked at 
it, at the two major companies that provide that capability in 
the Gulf of Mexico, and I have also looked at the capability 
that will be deployed in the Arctic, personally. So, yes, the 
investment is being made.
    Mrs. Dingell. Thank you, Mr. Chair.
    The Chairman. Thank you.
    Mr. Hardy.
    Mr. Hardy. Thank you, Mr. Chairman. Thank you, Mr. Salerno, 
for being here.
    Most generally, in other disasters, we see a lack of 
communication across different Federal agencies, or stove-
piping, as one of the points of failure. For instance, the 
issue of the 911 Commission report. In the wake of the Macondo, 
the response was opposite. The split-up of the former Materials 
and Management Service into three separate agencies, splitting 
up the revenue collection into a separate bureau makes sense. 
However, I believe the mission of safe offshore operations is 
not exclusive to BSEE or BOEM. Also, the factor of safety into 
leasing decisions and revenue exploration plans.
    Would it not be beneficial to have these two agencies 
working in concert together, given the missions, while 
different, have the same end goal? Safe and measured offshore 
energy deployment--in fact, would safety be further enhanced by 
having these two agencies interact more regularly, especially 
because BOEM is reviewing exploration plans and BSEE is 
reviewing application permits? Both of these documents set 
plans developing prospect of the overall goal of safety does 
not end at the agency's doorstep.
    Admiral Salerno. I think the emphasis that each agency has 
is an appropriate breakdown of responsibilities. As far as 
coordination goes, it is very good. In every location where I 
have a regional office, there is a counterpart, BOEM regional 
office. I am colocated with the BOEM Director.
    You are absolutely correct, we do share information: 
geological information, scientific, permit information, and so 
forth. That is occurring back and forth. So, I don't foresee a 
real problem, going forward, with the way we are structured. 
There are certain things that we will do. I think we will even 
enhance the ability to share information, some IT tools and 
business management capability that will facilitate easier 
movement of data across bureau boundaries. But the personnel 
connections are very strong.
    Mr. Hardy. Another way of looking at this for me is what 
kind of interaction do we have between the agencies and the 
offshore development folks, being as how they should be the 
ones paying for the cost of these incidents? Are they working 
with you, with the agencies, to help come up with a better 
mousetrap, so to speak? Is that being utilized, their 
expertise, also?
    Admiral Salerno. As far as the private sector?
    Mr. Hardy. The private sector----
    Admiral Salerno. Yes, absolutely. My feeling is I could not 
be an effective regulator if I did not interact in a meaningful 
way, in a regular way, with the industry that I regulate. So I 
have to understand where they are going, from a technological 
standpoint, what their plans are, and the equipment that they 
plan to use. So that is ongoing, and it permeates our entire 
organization. We have to understand it.
    Mr. Hardy. Thank you, Mr. Chairman. I yield back.
    The Chairman. Thank you. Mr. Grijalva.
    Mr. Grijalva. Thank you very much. And thank you, Director, 
for being here.
    A quick question. So in that interim 5 years, much of the 
discussion that we have had at this committee level has been 
about opening up new areas--Arctic, Atlantic--the issue of 
increasing the number of leases, processing that. Spent a lot 
of time on the 5-month time-out and what the motivation behind 
that really was. But the issue of safety, which we are dealing 
with to some extent today, and the issue of accountability 
haven't been the top point of discussion. Had to do with the 
Administration, primarily, how to embarrass that 
administration. And long after that 5-month time-out, we still 
kept talking about that subject.
    But I want to ask you. The companies in the interim still 
enjoy an extremely low oil spill liability limit. They face 
minimal negligible fines for violating regulations. And I know 
that Interior has done what it can to account for inflation. 
But let me ask you, as then-Secretary Salazar testified in 
2011, the issue of civil and criminal penalties increasing the 
issue of raising the liability limits, and the consequential 
fines of violations of regulation all being something that he 
felt was very important in the comprehensive look at safety and 
accountability. How do you feel about that?
    Admiral Salerno. Well, I do believe that, for example, the 
civil penalty provisions that we currently have available to us 
probably made sense when the law was written. They look pretty 
mild, by modern standards: $40,000 per day for a violation is 
really not that much for this industry.
    We look at civil penalties as one of a range of tools. You 
know, our goal is to get people to comply. If we have to use a 
tool to get their attention, we will do that. But that probably 
could stand a fresh look.
    Mr. Grijalva. And that fresh look can only be accomplished 
by Congress at that point.
    Admiral Salerno. Yes----
    Mr. Grijalva. I think the Secretary talked about that not 
only as a preventative tool, but also as a deterrent. So I 
appreciate your answer, and I yield back.
    The Chairman. Thank you. Director, let me ask you a couple 
of questions. If I could follow up on what Mrs. Torres started 
with you, in your testimony you did say that your skill in 
staffing gaps at the agency are significant, they are crucial 
for you in being effective in your mission. GAO reports said 
that your attrition rate is about double that of the typical 
average agency. Why is that double?
    Admiral Salerno. It is very difficult, competing with 
industry on salary. That is, I think, a big part of it. I 
think, particularly my inspectors, their entry level is like a 
GS-7. Once they are skilled and trained up, they are much more 
valuable in the private sector, and, quite honestly----
    The Chairman. OK. Well, let me finish on that, then.
    Admiral Salerno. OK.
    The Chairman. Where do you go to recruit? Are you 
recruiting in colleges, or are you recruiting from the 
industry?
    Admiral Salerno. All of that. And returning veterans, as 
well. So I have--probably my inspector staff, close to 90 
percent of them have some industry background. Many of them, 
probably half of them, are veterans. And we routinely visit 
colleges, petroleum engineering schools and so forth.
    The Chairman. So are you getting more from industry than 
you are losing to industry?
    Admiral Salerno. It is two steps forward, one step back, 
really. We hired, I think, about 100 people last year. I think 
our net gain was probably about 29, just because, you know, 
people come in, and then they leave.
    And I am also losing people due to retirements. The Baby 
Boom generation, people that have been around for many years 
are stepping down. So, as I bring people in, even fresh faces, 
I am losing some of the older hands.
    The Chairman. We are not doing enough in petroleum and 
energy engineering education, are we? That is rhetorical. That 
is a statement.
    In 2012, Congress gave you the authorization for special 
pay authority to hire and keep these people. Is that working? 
Does it need to be continued? Does it need to be upgraded?
    Admiral Salerno. Absolutely needs to be continued, and I 
would love to see it upgraded. Without it, we would be in far 
worse shape.
    The Chairman. So what specifically do you need to be more 
competitive, then, that Congress can give you in that 
appropriations process?
    Admiral Salerno. That continued authorization to pay 
special salary is vital. So if that could be continued, it 
would be extremely helpful.
    The Chairman. But if we tried to up it in some way to 
assist you in maintaining or at least limiting your attrition 
rate, what would you recommend that be?
    Admiral Salerno. Can I get you more specific information on 
that, sir, rather than give you an off-the-cuff answer? I think 
it would be helpful to increase that. Salary is the biggest 
selling point for anybody looking for a job. And we have been 
trying to supplement our salary offering with other benefits of 
Federal service, but it doesn't always put food on the table.
    The Chairman. OK. That would be--I recognize that. It would 
be helpful, although I am not an appropriator. Other than that, 
it still would be helpful.
    With that, do you have any other questions?
    Mr. Grijalva. No.
    The Chairman. Director, we appreciate your time and your 
patience to be with us here. I thank you for coming.
    Under our rules, there may be other questions that other 
Members who may or may not be here have of you. The rule asks 
that our hearing record stay open for 10 days for responses. We 
would appreciate it if you would be responsive to any other 
questions that we may send to you.
    With that, once again we thank you for joining us. And we 
would like to call up the second panel, which includes Ms. 
Holly Hopkins, who is a Senior Policy Advisor for Upstream and 
American Petroleum Institute; Charlie Williams, who is the 
Executive Director of the Center for Offshore Safety; Mr. David 
Coatney, who is the Managing Director of HWCG; and Dr. Steven 
Murawski, who is a professor at the University of Southern 
Florida.
    And if you could join us, I would appreciate that, as well.
    [Pause.]
    The Chairman. We thank you for coming the great distances 
that you have come, and also for your patience with us so far.
    I have to remind the witnesses--same rule as was applied 
earlier--your oral statements are limited to 5 minutes, but 
your entire statement here is on the record.
    And, once again, you have the clock in front of you. When 
it hits red, that means the 5 minutes have elapsed, and I would 
like you to end at that time.
    I can give you just a second to get prepared. Ms. Hopkins, 
are you ready to go? All right, let's start with you, and I 
will recognize you for your 5-minute testimony.

 STATEMENT OF HOLLY HOPKINS, SENIOR POLICY ADVISOR, UPSTREAM, 
          AMERICAN PETROLEUM INSTITUTE, WASHINGTON, DC

    Ms. Hopkins. Thank you. Good morning, Chairman Bishop and 
Ranking Member Grijalva, and members of the committee. My name 
is Holly Hopkins. I am a Senior Policy Advisor at the American 
Petroleum Institute. My responsibilities include advocating for 
and advancing offshore safety.
    Following the Macondo incident, I managed two of the four 
joint industry task forces that were created to make 
recommendations to further enhance offshore safety. I am also 
extensively engaged in the development of API standards that 
promote safe and responsible development of the Nation's 
offshore oil and natural gas resources.
    API has more than 625 member companies which represent all 
segments of America's oil and natural gas industry. Our 
industry supports 9.8 million American jobs, 400,000 jobs in 
the Gulf of Mexico alone, and 8 percent of the U.S. economy. We 
appreciate the opportunity to participate in today's hearing.
    I would like to take a moment to remember the 11 workers 
who lost their lives on April 20, 2010, as well as their 
families. These husbands, fathers, sons, and brothers are a 
reminder that we must continue to improve safety in our 
industry. While the industry is committed to a goal of zero 
fatalities, zero injuries, and zero incidents, our industry 
takes any safety and environmental incident as a call to learn 
and to improve technology, training, operational procedures, 
and industry standards and best practices.
    Given the limited time for my opening statement, I refer 
you to my written testimony, which goes into further detail 
than I will be able to present today.
    Immediately after the Macondo incident, the U.S. oil and 
gas industry launched a comprehensive review of offshore safety 
to identify potential improvements in offshore operating 
procedures, equipment, subsea wall control and containment, and 
oil spill preparedness and response. Four joint industry task 
forces were formed to focus on critical areas of Gulf of Mexico 
offshore activity. Teams were comprised of industry expert 
members at API, the International Association of Drilling 
Contractors, the Independent Petroleum Association of America, 
the National Ocean Industries Association, and the U.S. Oil and 
Gas Association.
    Sessions began in early spring of 2010 to provide 
recommendations to the U.S. Department of the Interior. The 
joint industry task forces were not involved in a review of the 
incident. Rather, they brought together industry experts to 
identify best practices with the definitive aim of enhancing 
safety and environmental protection. The ultimate goal for 
these task forces was to improve industry drilling standards, 
to form comprehensive safe drilling operations, well 
containment and intervention capability, and oil spill response 
capability, not only through evaluation and revision of 
industry guidelines and procedures, but also active engagement 
with regulatory processes.
    Many of the improvements have been made through creation or 
revision of API global standards. The API standards process is 
accredited by the American National Standards Institute, and 
all API standards are reviewed on a regular basis to ensure 
they remain current. API standards are developed in an open and 
transparent process, and are the most widely cited oil industry 
standards from Federal, state, and international regulators.
    API has 224 exploration and production standards that 
address offshore operations. And since 2010, we have published 
over 100 new or revised E&P standards. Some of the highlights 
include new documents on deepwater well design and 
construction, well construction interface guidelines, subsea 
capping stacks, high-pressure, high-temperature design 
guidelines, personal protective equipment selection for oil 
spill responders, and then revised and updated standards on 
blowout prevention equipment systems, isolating potential flow 
zones during well construction, remotely operated tools and 
interfaces on subsea production systems, sub-surface safety 
valve equipment, and choke-and-kill systems.
    The Macondo incident was a tragedy that cost 11 lives, and 
the result was a call to action to industry to identify and 
develop multiple improvements in offshore equipment, operating 
procedures, well design, well control equipment, and overall 
safety systems. These changes have significantly enhanced the 
industry's ability to prevent, contain, and respond to any 
potential incident or spill. These activities have created a 
model safety program in the Gulf of Mexico and beyond for 
workers and the environment.
    As always, standards and best practices will continue to be 
reviewed on an ongoing basis in order to protect the 
environment and promote the safe and responsible development of 
energy resources that help fuel the American economy. The oil 
and natural gas industry and the Federal Government have, 
together, taken great strides to protect workers and the 
environment to improve the safety of offshore drilling 
operations. As the co-chairs of the President's Oil Spill 
Commission said in 2014, ``Offshore drilling is safer than it 
was 4 years ago.'' The industry stands committed to safe and 
environmentally responsible development.
    Thank you. That concludes my statement.
    [The prepared statement of Ms. Hopkins follows:]
Prepared Statement of Holly A. Hopkins, Senior Policy Advisor, Upstream 
                      and Industry Operations, API
    Good morning Chairman Bishop, Ranking Member Grijalva, and members 
of the committee. My name is Holly Hopkins, I am a Senior Policy 
Advisor at the American Petroleum Institute, and my responsibilities 
include advocating for and advancing offshore safety. Following the 
Macondo incident, I managed two of the four Joint Industry Task Forces 
that were created to make recommendations to further enhance offshore 
safety. I am also extensively engaged in the development of API 
standards that promote safe and responsible development of the Nation's 
offshore oil and natural gas resources. API has more than 625 member 
companies, which represent all sectors of America's oil and gas 
industry. Our industry supports 9.8 million American jobs and 8 percent 
of the U.S. economy. We appreciate the opportunity to participate in 
today's hearing.
    I'd like to take a moment to remember the 11 workers who lost their 
lives on April 20, 2010, as well as their families. These husbands, 
fathers, sons and brothers are a reminder that we must continue to 
improve safety in our industry. While the industry is committed to a 
goal of zero fatalities, zero injuries and zero incidents, our industry 
takes any safety or environmental incident as a call to learn and to 
improve technology, training, operational procedures, and industry 
standards and best practices.
    Immediately after the Macondo incident in the Gulf of Mexico (GOM), 
the U.S. oil and natural gas industry (Industry) launched a 
comprehensive review of offshore safety to identify potential 
improvements in spill prevention and intervention and response 
capabilities. Four Joint Industry Task Forces (JITFs) were assembled to 
focus on critical areas of GOM offshore activity: the Joint Industry 
Offshore Operating Procedures Task Force (Procedures JITF), the Joint 
Industry Offshore Equipment Task Force (Equipment JITF), the Joint 
Industry Subsea Well Control and Containment Task Force (Subsea JITF), 
and the Joint Industry Oil Spill Preparedness and Response Task Force 
(OSPR JITF). Teams were composed of industry expert members of the 
American Petroleum Institute (API), International Association of 
Drilling Contractors (IADC), Independent Petroleum Association of 
America (IPAA), National Ocean Industries Association (NOIA), and the 
United States Oil and Gas Association (USOGA). Sessions began in early 
spring of 2010 to provide recommendations to the U.S. Department of the 
Interior (DOI) in the areas of prevention, intervention and oil spill 
response. The JITFs were not involved in the review of the incident; 
rather they brought together Industry experts to identify best 
practices in offshore drilling operations and oil spill response, with 
the definitive aim of enhancing safety and environmental protection. 
The Procedures, Equipment, and Subsea JITFs, as they are called, all 
issued final reports in March of 2012 while the OSPR JITF released a 
progress report in November of 2011 and has projects lasting into 2015. 
The ultimate goal for these JITFs is to improve Industry drilling 
standards to form comprehensive safe drilling operations, well 
containment and intervention capability, and oil spill response 
capability; not only through evaluation and revision of Industry 
guidelines and procedures, but also active engagement with regulatory 
processes.
    The JITFs worked with trade associations, DOI's Bureau of Safety 
and Environmental Enforcement (BSEE) and Bureau of Ocean Energy 
Management (BOEM), U.S. Coast Guard (USCG), U.S. Environmental 
Protection Agency (EPA), National Oceanic and Atmospheric 
Administration (NOAA), National Response Team (NRT), the independent 
Presidential commission (National Commission on the Deepwater Horizon 
Oil Spill and Offshore Drilling), the Chemical Safety Board (CSB), the 
National Academy of Engineering (NAE), Members of Congress, and others 
as they considered the Macondo incident and potential changes in 
Industry regulation.
                            SUMMARY OF JITFs
Joint Industry Offshore Operating Procedures Task Force
    The Procedures JITF reviewed critical processes associated with 
drilling and completing deepwater wells to identify gaps between 
existing practices and regulations and Industry best practices. Their 
recommendations focused on the following five areas: cementing; loads 
and resistance; fluid displacement and negative testing; abandonment 
and barriers; and safety case. Their recommendations were intended to 
move Industry standards to a higher level of safety and operational 
performance and resulted in either revision or new development of API 
guidelines, which are considered Industry best practices for global oil 
and gas operations.
Joint Industry Offshore Equipment Taskforce
    The Equipment JITF reviewed current BOP equipment designs, testing 
protocols and documentation. Their recommendations were designed to 
close any gaps or capture improvements in these areas and focused on: 
safety case regime; a robust management of change (MOC) process; 
accessing shear data; remotely operated vehicle (ROV) interface; and 
acoustic reliability. After submitting its recommendations, the 
Equipment JITF formed three subgroups to evaluate information regarding 
BOP shearing capabilities, BOP acoustics systems, and BOP/ROV 
interface. These subgroups each produced white papers regarding their 
topics in January of 2011.
Joint Industry Subsea Well Control and Containment Task Force
    The Subsea JITF reviewed technologies and practices for controlling 
the release of oil from the source of a subsea well where there has 
been a loss of control. These include equipment designs, testing 
protocols, research and development (R&D), regulations and 
documentation to determine if enhancements were needed. The JITF 
identified five key areas of focus for GOM deepwater operations:

    <bullet> Well containment at the seafloor;

    <bullet> Intervention and containment within the subsea well;

    <bullet> Subsea collection and surface processing and storage;

    <bullet> Continuing R&D; and

    <bullet> Relief wells.

    The Subsea JITF focused primarily on potential operational 
scenarios after a well blowout has occurred. Consideration was also 
given to containment of hydrocarbons that may leak from subsea 
production system equipment (e.g. subsea production well) and casing 
stubs at the seafloor. The task force did not review blowout preventers 
(BOPs), Emergency Disconnect Systems (EDS), autoshear systems, deadman 
systems, or ROV/BOP interfaces (pumps and hot stab). These items were 
reviewed under the Equipment JITF.
    The Subsea JITF developed 29 recommendations on specific steps to 
enhance the Industry's subsea control and containment capability, 
including 15 immediate action items.
    One of the first recommendations implemented was to provide near-
term response capability for well containment. This was achieved 
through the establishment of collaborative containment companies such 
as Marine Well Containment Company (MWCC) and HWCG, LLC founded in 2010 
to provide containment technology and response for the unique 
challenges of capping a well. These companies develop and operate 
quickly deployed systems that are able to stem the uncontrolled flow 
from a well either by sealing it or directing it into storage vessels 
on the surface. More information on these companies can be found at 
http://www.marinewellcontainment.com and http://www.hwcg.org.
Joint Industry Oil Spill Preparedness and Response Task Force
http://oilspillprevention.org/oil-spill-research-and-development-cente

    The OSPR JITF was formed to review the industry's ability and 
capacity to respond to an oil spill of national significance. The task 
force addressed both the preparedness for response and the actual 
response to crude oil or related oil products after they have escaped 
containment during Exploration & Production activities and entered into 
the surrounding environments (e.g., subsea, surface, shoreline, etc.).
    Following the September 3, 2010, OSPR JITF preliminary 
recommendations report, the API Oil Spill Preparedness and Response 
Subcommittee (OSPRS) convened to address the recommendations made by 
the JITF. The OSPRS was tasked with leading Industry efforts to develop 
and implement plans that addressed the report recommendations while 
staying abreast of related initiatives. The OSPRS has maintained and 
enhanced collaboration with international organizations (e.g., 
International Association of Oil and Gas Producers-Global Industry 
Response Group (IOGP-GIRG) and the Arctic Response Technology Joint 
Industry Program (JIP)), well containment companies, Oil Spill Response 
Organizations (OSROs), and academic institutions such as Coastal 
Response Research Center (CRRC) and the Gulf of Mexico Research 
Initiative (GOMRI). The subcommittee also reviewed and commented on 
emerging materials related to oil spill response, such as the 
Presidential Commission Findings, Incident Specific Preparedness 
Review, draft NRT subsea dispersant guidance, BOEM/BSEE planning 
guidance, and a number of scientific reports (e.g., Operational Science 
Advisory Team Report).
    The OSPRS spent several months developing and prioritizing project 
plans to address each preliminary recommendation, and subsequently 
received approval and Industry funding commitment for a multi-year work 
program. The OSPRS divided the recommendations into seven categories, 
or work streams, as outlined in the original report, specifically:

    <bullet> Planning

    <bullet> Dispersants

    <bullet> Shoreline Protection and Cleanup

    <bullet> Oil Sensing and Tracking

    <bullet> In-Situ Burning

    <bullet> Mechanical Recovery

    <bullet> Alternative Technologies

    Within each category there are a number of projects being worked by 
individual project teams. These individual project teams are led by a 
member of the OSPRS. The teams have developed scoping documents and 
project plans complete with milestones and are in the process of 
implementation. In some cases projects have endorsed budgets for one or 
more years to allow access to contractors/consultants or other support 
services to complete studies, research, workshops, etc.
    These projects envision collaboration among Industry, government, 
and academia. Some project teams will carry out large-scale research 
studies while other teams will assume a monitoring and engagement role 
if similar initiatives are being conducted by other entities (such as 
the Federal Government).
    API and the oil and natural gas industry have established a robust 
oil spill response research and development program that oversees more 
than 25 projects in the eight areas previously outlined (planning, 
mechanical recovery, dispersants, in-situ burning, remote sensing, 
shoreline protection, alternative technologies). While a great deal of 
attention continues to be given to offshore incidents, further focus is 
also being directed toward near-shore and inland spill response, and 
industry continues to engage with Federal stakeholders, science and the 
academic community on these areas of focus.
    Based on the assessment conducted immediately after the Macondo 
incident, a number of publicly available reports and guidance documents 
have also been created, including:

    <bullet> Spill Response Planning:

          --  API Training and Exercise Guidelines

          --  Guidelines for Offshore Oil Spill Response Plans

          --  Personal Protective Equipment Selection for Oil Spill 
        Responders

          --  Net Environmental Benefit Analysis (NEBA) Graphical 
        Briefing

    <bullet> Oil Sensing & Tracking

    <bullet> Remote Sensing Planning Guidance

    <bullet> Dispersants:

          --  Dispersants Fact Sheet 1--Introduction to Dispersants

          --  Dispersants Fact Sheet 2--Dispersants and Human Health 
        and Safety

          --  Dispersants Fact Sheet 3--Fate of Oil and Weathering

          --  Dispersants Fact Sheet 4--Toxicity and Dispersants

          --  Dispersants Fact Sheet 5--Dispersant Use Approvals in the 
        United States

          --  Dispersants Fact Sheet 6--Trade Offs

          --  Dispersants Fact Sheet 7--Aerial Vessel

          --  Dispersants Fact Sheet 8--Subsea and Point Source 
        Dispersant Operations

          --  Dispersant Fact Sheet 9--Dispersant Use & Regulation 
        Timeline

          --  Dispersant Fact Sheet 10--Dispersant Use in the Arctic 
        Environment

          --  Industry Recommended Subsea Dispersant Monitoring Plans

          --  API JITF Subsea Dispersants Injection Newsletters

          --  The Role of Dispersants in Oil Spill Response

          --  SINTEF Dispersants Effectiveness Report--Phase I

    <bullet> In-Situ Burning

    <bullet> Mechanical Recovery

    <bullet> Deepwater Horizon Mechanical Recovery System Evaluation 
            Technical Report 1143

    <bullet> Shoreline Protection:

          --  Oil Spills in Marshes

          --  Subsurface Oil Detection Report

          --  Subsurface Oil Detection Field Guide

          --  Subsurface Oil Detection and Delineation in Shoreline 
        Sediments Phase 2--Final Report

          --  Shoreline Protection on Sand Beaches (aka Berms and 
        Barriers) Report

          --  Shoreline Protection on Sand Beaches (aka Berms and 
        Barriers) Guide

          --  Mechanized Cleanup of Sand Beaches Report

          --  Tidal Inlet Protection Strategies (TIPS) Report

          --  Biodegradation & Bioremediation on Sand Beaches Report

    <bullet> Alternative Response Technologies

    <bullet> Evaluation of Alternative Response Technology Evaluation 
            (ARTES) Technical Report 1142

    <bullet> Educational Media: Dispersants Role in Biodegradation 
            Video; Net Environmental Benefit Analysis Instructional 
            Video; Principles of Oil Spill Prevention and Response 
            Instructional Video

    <bullet> Spill Prevention YouTube Channel

    <bullet> OilSpillPrevention.org Website

    <bullet> Guidance on the creation of offshore oil spill response 
            plans

    <bullet> An evaluation of the mechanical recovery systems used at 
            sea during the Macondo incident

    <bullet> A report (and associated field guide) for spills on sand 
            beaches and shoreline sediments, including protection 
            techniques and detection and response capabilities

    <bullet> An evaluation of the process by which alternative 
            technologies are reviewed for use during an oil spill

    The industry has also invested in two international oil spill 
preparedness and response programs focused on improving industry 
operational capabilities in all parts of the world including the 
Arctic. These two programs are coordinated with API's activities, and 
together, they represent a comprehensive, global approach to continued 
advancements in oil spill preparedness and response. A newsletter 
providing periodic updates on these activities can be found at http://
www.api.org/environment-health-and-safety/clean-water/oil-spill-
prevention-and-response/api-jitf-subsea-dispersant-injection-
newsletter.

    The full suite of industry reports and recommendations are 
available at http://www.api.org/oil-and-natural-gas-overview/
exploration-and-production/offshore/api-joint-industry-task-force-
reports.
                     PREVENTION: INDUSTRY STANDARDS
    Reviewing and improving industry standards has always been a top 
priority. Since 1924, API has been the leader in developing industry 
standards that promote reliability and safety through the use of proven 
engineering practices. The API standards process is accredited by the 
American National Standards Institute (ANSI), which is the standards 
authority here in the United States and accredits similar programs at 
several national laboratories. As part of API's accredited process all 
API standards are reviewed on a regular basis to ensure they remain 
current. API standards are developed in an open and transparent process 
which includes subject matter experts from Academia, Government and 
Industry and are the most widely cited oil industry standards by 
Federal, State, and International Regulators.
    API has 224 exploration and production standards that address 
offshore operations, covering everything from blowout preventers to 
comprehensive guidelines for offshore safety programs, and more than 
100 have been incorporated into Federal regulation. Since 2010 API has 
published over 100 new and revised exploration and production 
standards; key standards include the following:
New Documents:

    <bullet> RP 96, Deepwater Well Design and Construction, 1st 
            Edition, March 2013

                 In June 2010, an API work team held a kick-off meeting 
                to outline initial content for the new API RP 96. This 
                document provides well design and operational 
                considerations to safely design and construct deepwater 
                wells with maximum reliability. There was coordination 
                with the Subsea JITF and the API Standard 53 workgroup 
                to ensure their recommendations were addressed in the 
                document as well.

    <bullet> Bulletin 97, Well Construction Interface Guidelines, 1st 
            Edition, April 2011

                 In July 2010, the Procedures JITF held a kick-off 
                meeting to outline initial content for Bulletin 97. 
                Bulletin 97 provides guidance on information that is to 
                be shared regarding well construction and rig-specific 
                operating guidelines. It is intended to align the lease 
                operator's safety and environmental management system 
                (SEMS) with drilling contractor's safe work practices 
                (CSWP). The WCID-SEMS is a bridging document that 
                includes the elements identified in API 75 within the 
                context of well construction activities. It is 
                understood that work processes vary between operators 
                and contractors, which should be honored in the 
                development of the WCID document.

    <bullet> Specification Q2, Quality Management System Requirements 
            for Service Supply Organizations for the Petroleum and 
            Natural Gas Industries, 1st Edition, December 2011

    <bullet> RP 17W, Subsea Capping Stacks, 1st Edition, July 2014

                 In August 2011 a workgroup was formed to create a new 
                document on subsea capping stack recommended practices 
                for design, manufacture, and use. The document applies 
                to the construction of new subsea capping stacks and 
                can be used to improve existing subsea capping stacks. 
                The document can aid in generating a basis of design 
                (BOD) document as well as preservation, transportation, 
                maintenance, testing documents, and operating 
                instructions.

    <bullet> TR 17TR8, High-temperature, High-pressure Design 
            Guidelines, 1st Edition, February 2015

                 This technical report is to provide design guidelines 
                for oil and natural gas subsea equipment utilized in 
                high-pressure high-temperature (HPHT) environments.

    <bullet> RP 17V, Recommended Practice for Analysis, Design, 
            Installation, and Testing of Safety Systems for Subsea 
            Applications, 1st Edition, February 2015

    <bullet> RP 98, Personal Protective Equipment Selection for Oil 
            Spill Responders, 1st Edition, August 2013

                 This RP was developed from a recommendation of the 
                OSPRS and provides general information and guidance for 
                the development of oil spill responder personal 
                protective equipment (PPE) control measures. Although 
                an extensive amount of information has been developed 
                on the topic of PPE for emergency responders, this 
                document focuses on the PPE selection process as well 
                as its technical evaluation based on the hazards 
                present.

    <bullet> TR 1PER15K-1, Protocol for Verification and Validation of 
            High-Pressure and High-Temperature Equipment, 1st Edition, 
            March 2013

                 This report focuses on an evaluation process for HPHT 
                equipment in the petroleum and natural gas industries 
                which includes design verification analysis, design 
                validation, material selection considerations, and 
                manufacturing process controls necessary to ensure the 
                equipment is fit-for-service in the applicable HPHT 
                environment.

    <bullet> RP 2SIM, Structural Integrity Management of Fixed Offshore 
            Structures, 1st Edition, June 2013

Revised Documents:

    <bullet> Standard 53, Blowout Prevention Equipment Systems for 
            Drilling Wells, 4th Edition, November 2012

                 Based on the Equipment task force's recommendations, 
                an API work team began development on the fourth 
                edition of API RP 53. The purpose of the document is to 
                provide requirements on the installation and testing of 
                blowout prevention equipment systems on land and marine 
                drilling rigs (barge, platform, bottom-supported, and 
                floating). The fourth edition was updated to a 
                Standard.

    <bullet> Standard 65-2, Isolating Potential Flow Zones During Well 
            Construction, 2nd Edition, December 2010

                 API Recommended Practice (RP) 65--Part 2 was first 
                published in May 2010. API then revised the document 
                based on (1) lessons learned from the Macondo incident; 
                and (2) alignment with the planned Deepwater Well 
                Design and Construction RP (discussed below). The 
                revisions resulted in the API RP becoming API Standard 
                65-Part 2, second edition. The document contains best 
                practices for zone isolation in wells to prevent 
                annular pressure and/or flow through or past pressure-
                containment barriers that are installed and verified 
                during well construction. Well construction practices 
                that may affect barrier sealing performance are 
                mentioned along with methods to help ensure positive 
                effects or to minimize any negative ones.

    <bullet> RP 17H, Remotely Operated Tools and Interfaces on Subsea 
            Production Systems, 2nd Edition, November 2014

                 Based on recommendations from the Equipment JITF the 
                first edition of API 17H was revised. The second 
                edition provides recommendations for development and 
                design of remotely operated subsea tools and interfaces 
                on subsea production systems in order to maximize the 
                potential of standardizing equipment and design 
                principles.

    <bullet> Specification Q1, Quality Management System Requirements 
            for Manufacturing Organizations for the Petroleum and 
            Natural Gas Industry, 9th Edition, June 2013

    <bullet> Specification 14A, Subsurface Safety Valve Equipment, 12th 
            Edition, January 2015

    <bullet> Specification 16C, Choke and Kill Systems, 2nd Edition, 
            March 2015

Standards Under Development:

    <bullet> Specification 16A, Specification for Drill-through 
            Equipment, 4th Edition

    <bullet> Standard 16AR, Repair and Remanufacture of Blowout 
            Prevention Equipment, 1st Edition

    <bullet> Specification 16D, Control Systems for Drilling Well 
            Control Equipment and Control Systems for Diverter 
            Equipment, 3rd Edition

    <bullet> Specification 16F, Specification for Marine Drilling Riser 
            Equipment, 2nd Edition

    <bullet> Recommended Practice 16Q, Design, Selection, Operation and 
            Maintenance of Marine Drilling Riser Systems, 2nd Edition

    <bullet> Specification 16R, Marine Drilling Riser Couplings, 2nd 
            Edition

    <bullet> Specification 16RCD, Drill Through Equipment--Rotating 
            Control Devices, 2nd Edition

    <bullet> Recommended Practice 16ST, Coiled Tubing Well Control 
            Equipment Systems, 2nd

    <bullet> 18 Life Cycle Management, 1st Edition

    Government-referenced and safety-related standards may be freely 
viewed online at http://publications.api.org.
                                SUMMARY
    The Macondo incident was a tragedy that cost 11 lives, and as a 
result, was a call to action to industry to identify and develop 
multiple improvements in offshore equipment, operations, well design, 
well control equipment targeted at prevention and containment and new 
procedures and tools for responding to oil spills. These activities 
have created a model safety program in the GOM and beyond for well 
operations crews and the environment. Active participation from and 
coordination with the public sector, academia, and other stakeholders 
has been fundamental to turning initial recommendations into genuine 
plans of action and enhanced safety guidelines. As always, standards 
and best practices will continue to be reviewed on an ongoing basis in 
order to protect the environment and promote the safe and responsible 
development of energy sources that help fuel the American economy.
    The oil and natural gas industry and the Federal Government have 
together taken great strides to protect workers and the environment and 
to improve the safety of offshore drilling operations. As the co-chairs 
of the President's spill commission said in 2014, offshore drilling is 
safer than it was 4 years ago. The industry has placed a particular 
focus on increasing its ability to (1) prevent spills from occurring, 
(2) intervene to halt any spill that does occur, and (3) respond to 
spills with the most effective mitigation measures possible.
    The industry stands committed to safe and environmentally 
responsible development.

                                 ______
                                 

Questions Submitted for the Record by Chairman Rob Bishop to Ms. Holly 
                Hopkins, Senior Policy Advisor, Upstream
    Question 1. In your testimony, you mentioned the many regulations 
which the Department of the Interior put into place following the 
Macondo Incident. Are there any examples of regulations that, in the 
rush to implement, may have impaired safety, contrary to their original 
intent? Are there any regulations, proposed or otherwise, now that do 
so?

    Answer. Our primary concern with the Department of the Interior 
(DOI) regulations is that the Bureau of Safety and Environmental 
Enforcement (BSEE) and the Bureau of Ocean Energy Management (BOEM) 
continue to specify procedures and add approval requirements rather 
than identifying objectives and allowing companies to select the 
methods that are best for their operations and circumstances, and best 
for ensuring safe operations. Regulations are seldom the optimal means 
of achieving safety objectives. They are difficult and lengthy to 
promulgate, need continuous updating, do not address all circumstances, 
and foster a compliance mentality. Further, excessive prescription and 
direction by the regulators discourage individual and corporate 
innovation, initiative, and complicate efforts to develop the safety 
culture needed for sustained safety performance excellence.
    The key to continuous safety improvement, effective risk 
management, and the timely application of new technology and procedures 
is collaboration between government regulators and industry.
    An outstanding example of successful collaboration in the OCS 
regulatory program was the industry-government response after 
Hurricanes Ivan, Katrina, and Rita damaged offshore drilling and 
production facilities in 2004 and 2005. Following the 2005 hurricane 
season, DOI held a meeting with industry leaders and identified issues 
of concern. Industry representatives added to the list and developed a 
plan for addressing all issues in a timely manner. DOI and United 
States Coast Guard (USCG) personnel participated in the work groups. 
This collaborative effort yielded remarkable results. The most pressing 
Mobile Offshore Drilling Unit (MODU) mooring issues were effectively 
addressed in 6 months with new standards and risk assessment tools. 
Improved structural, met-ocean data, pipeline, and platform equipment 
standards followed. Had DOI attempted to develop regulations to address 
all of these issues, it would have taken several years and accomplished 
far less.
    Following Macondo, DOI chose to identify and address issues by 
promulgating new regulations rather than working with the companies 
that conduct the operations and develop the technology and procedures. 
As a result, progress has been delayed and there is much confusion 
about where the offshore regulatory program is headed. For example, 
BSEE was unable to propose new BOP requirements until this spring--5 
years after the blowout. This created uncertainty and complicated 
corporate planning. Industry comments on the BOP Well Control rule are 
still being developed, but some of the new requirements are less than 
optimal. Completion of this rule will be a complex and challenging 
task, and further delays (and the associated uncertainty) are likely. 
Industry groups and individual companies can effectively address many 
of the items covered in the proposed rule, and a collaborative effort 
would have facilitated information sharing, reduced uncertainty, 
ensured that all safety issues were addressed in an integrated and 
systematic manner, and accelerated progress. In short, the current 
prescriptive regulatory model is underwhelming and fails to achieve 
results in a timely manner.
    With regard to specific requirements that increase safety risks, 
three prominent examples are identified in our comments on the proposed 
Arctic regulations. We believe the Same Season Relief Well requirement 
compromises safety by prohibiting or altering safety-critical 
operations at the end of the drilling season. No risk data were 
provided to justify this requirement, and there are far more effective 
means of achieving the objective. BSEE and BOEM underestimate the cost 
of the proposed rule and the economic analysis put forward 
significantly and systematically underestimates the potential impact to 
industry. The Arctic rule also proposes, without any technical 
justification, to increase the frequency of BOP pressure testing to 
every 7 days. DOI studies have demonstrated that this increased 
frequency does not improve BOP reliability. It will, however, 
unnecessarily expose personnel to safety risks associated with the 
interruption of operations and the additional handling of pipe and 
equipment that is necessary to conduct the tests. Finally, the proposed 
Arctic regulations contain several new proposals that together would 
have the effect of shifting responsibility for operational decisions 
away from the rig to company personnel or even agency personnel not 
working onsite. Onsite personnel have the best understanding and most 
complete picture of the current operation, key risks and critical 
considerations. In addition, their experience in active operations 
provides them with the judgment to make effective real-time decisions 
within the bounds specified by the Operators governing procedures and 
operations integrity guidelines. This responsibility includes full 
control of the operations and the full authority to stop activities at 
any time.
    In summary, we believe DOI's response to Macondo would have been 
much more effective if the Department had worked collaboratively with 
industry to identify the issues and ensure they were addressed in the 
most effective manner. While communication with BSEE and BOEM has 
greatly improved, the bureaus are continuing to promulgate prescriptive 
rules that have unclear objectives and completion schedules, lack 
justification, have technical deficiencies, and fail to address 
operations in a systematic manner.

    Question 2. How has the division of BOEMRE into two separate 
agencies enhanced safety? Can the missions of these two agencies 
coexist in one agency and still ensure the utmost safety in operations?

    Answer. There has been no evidence that the division of BOEMRE into 
two separate agencies has enhanced safety. Yes, BSEE and BOEM could 
exist in one agency and still ensure the utmost safety in operations. 
Additionally one agency would ensure coordination, consistency and 
efficiency between the two agencies and avoid redundancy and 
duplication.
    BOEMRE's predecessor, the Minerals Management Service (MMS), was an 
effective regulatory agency with highly competent, professional, and 
dedicated staff. The MMS's combined resource management and regulatory 
mandates were an organizational strength, not a weakness. While we 
understand the rationale for moving the minerals revenue functions to a 
separate office, the division of responsibilities between BSEE and BOEM 
is confusing and illogical. The announced intent was to establish an 
offshore leasing and science agency (BOEM) and a single offshore safety 
and environmental regulator (BSEE). This objective, while 
understandable, is extremely difficult to achieve given the substantial 
overlap between the resource management and regulation of operations 
responsibilities. It was that overlap that led to the consolidation of 
these function in MMS in 1982.
    The potential for conflict and overlap increased greatly when DOI 
elected, without consultation with industry or other experienced 
observers of the OCS program, to assign plan approval responsibilities 
to BOEM. These plans are operational documents that would more 
appropriately be under the purview of the regulator (BSEE), not the 
leasing and science bureau (BOEM). BOEM has thus assumed the role of a 
second OCS regulator within DOI. This contradicts the post-Macondo 
recommendations by the National Commission and others which called for 
a consolidation of regulatory responsibilities in a single agency. 
Concerns about too many offshore regulatory agencies and the associated 
complexity, overlap, and confusion have thus been further exacerbated.
    BOEM is becoming increasingly involved in the regulation of 
operations by adding conditions to plan approvals. These conditions are 
the equivalent of regulations without public review and comment. Some 
items must be submitted to both BOEM and BSEE. Further evidence of the 
overlap and potential conflict is found in the proposed Arctic Rule 
which includes contradictory BOEM and BSEE relief well requirements. 
There also appears to be a general absence of coordination among the 
DOI bureaus in the development of rules. For example, BOEM's Bonding 
ANPRM and that Office of Natural Resource Revenue (ONRR) valuation 
rule, both of which will have significant effects on the economics of 
deepwater projects, were not developed in consultation with the other 
bureaus.
    We believe that offshore safety and environmental protection would 
indeed be strengthened and improved by combining BOEM and BSEE in a 
single bureau. Scientists, engineers, inspectors, and others must work 
together without the stovepipes inherent in the current organizational 
framework. In addition to enhancing safety and environmental 
protection, a combined bureau would have far more cost-effective and 
efficient. We do endorse the separation of the royalty management 
functions, and believe that production measurement inspections should 
be conducted by ONRR, not BSEE. Per its 2014 Annual Report, BSEE is 
currently conducting more metering inspections than any other type of 
inspection. This is entirely inconsistent with the objective of 
separating the revenue and safety functions.

    Question 3. Can you provide any examples of rulemakings or 
regulations, either proposed or final, that have hindered technological 
innovations in the field of offshore safety?

    Answer. Our primary concern, as noted in our response to the first 
question, is DOI's persistence in attempting to mitigate risks with 
prescriptive regulations, without necessarily enhancing the safety of 
operations. Risk management and mitigation is a continuous iterative 
process, and must be managed in a systematic manner in order to most 
effectively improve safe operations.
    Widespread concerns about counterproductive regulations were 
included in our comments on the proposed Arctic regulations. Additional 
concerns will be raised in our comments on the Well Control NPRM. 
Historically, the most successful elements of the OCS regulatory 
program have been performance and risk-based, operator-managed, and 
flexible. For example, Deepwater Water Operations Plans (DWOPs), the 
principal regulatory instruments for deepwater production facilities, 
provide for effective risk management with minimal prescription. The 
DWOP approach has helped drive the innovation needed to safely produce 
in record water depths.
    In contrast, deepwater drilling has been regulated in a more 
traditional manner, with prescriptive rules, continuing regulatory 
direction and approvals, and limited flexibility. In our view, BSEE 
should manage drilling operations in a more systematic manner, similar 
to the approach that is taken with the DWOP program. Unfortunately, 
BSEE's recent Well Control and Arctic NPRMs demonstrate that DOI still 
thinks safety can be achieved through detailed prescription and 
regulator direction.
    In summary, we believe the DOI regulatory approach could be 
improved with more goal-setting, less prescription, and improved 
collaboration to foster a stronger safety culture that promotes 
innovation.

                                 ______
                                 

    The Chairman. Thank you, I appreciate that.
    Mr. Williams.

 STATEMENT OF CHARLIE WILLIAMS, EXECUTIVE DIRECTOR, CENTER FOR 
                OFFSHORE SAFETY, HOUSTON, TEXAS

    Mr. Williams. Thanks to the committee for this opportunity 
to talk to you about the Center for Offshore Safety.
    Following the Macondo incident in the U.S. Gulf of Mexico 
there has been renewed focus on promoting the highest level of 
safety for the offshore oil and gas industry. Based on Macondo 
studies and regulatory changes, SEMS became a requirement, a 
regulatory requirement right after Macondo. The focus in the 
United States has been on both enhancing and developing 
performance-based safety and environmental management systems, 
or SEMS.
    These are assessed by third-party auditing, to make sure 
that they are effective, and they are actually delivering what 
is expected of those kinds of systems. And they also are 
sustainable learning systems, where the feedback from what has 
been learned is fed back into how can we make improvements to 
make these systems even more effective. So, safety is dependent 
on the technology, it is dependent upon the standards, and it 
is dependent on how you manage, plan, and execute the projects. 
And there was a lot of discussion about this earlier today in 
the committee.
    So, why has this focus really been so much on SEMS? And 
that is the sole mission for Center for Offshore Safety, is how 
to make SEMS more effective, and how do we learn and feed back 
into SEMS processes.
    The first part, like I said, is that it changes the--it has 
a focus on embedding safety into how you plan, how you execute, 
how you implement, how you define hazards, and how do you 
maintain barriers. It embeds this thinking into your management 
processes. It also changes to performance-based, which says 
that companies will--there is a certain basic framework 
companies will say how they are going to respond to this 
framework, and then they will be assessed against how effective 
and how well they are doing what they said, and how effective 
those safety management systems are that they have embedded. So 
it really drives accountability also, in a different way.
    There also must be--a key part of this is norms and 
motivations for leadership and decisionmakers to constantly 
think about safety, and behave in ways that maximize safety.
    The Center for Offshore Safety was formed as a 
collaborative effort in the industry, but it was also part of 
the Presidential Commission recommendation. It was part of the 
industry studies looking at what other groups had done that 
looked at SEMS, and making SEMS effective in other industries. 
So, we were put together to collect the information, to do the 
analysis, and to develop good practices to close any gaps or 
opportunities that we saw.
    The COS and the industry members and the industry are 
committed to improving SEMS performance, and we are doing that 
in several ways. The first one is people that are members of 
the Center for Offshore Safety make commitments to certain 
performance requirements. But the most important thing that we 
have is a collaboration opportunity, where the industry can get 
together and share and learn about safety environmental 
management systems and collaborate.
    And also, through the audits and through other performance 
measures, like safety performance indicators and learning from 
incident data that we collect, we can learn together. You know, 
we can find opportunities to improve and continuously improve. 
So that is one of the main opportunities that we have here.
    And since this is a continuous learning process, it is 
really beneficial; there are companies that have had SEMS for a 
long time, have been doing really well. There are a few 
companies that were new to SEMS after the regulation. This 
process allows all companies, even companies that were running 
good plans, to learn how to make those good plans even better, 
and to focus on those improvements.
    We have developed a lot of tools that are already in place 
right now. We have issued our first annual report that I have 
here that talks about what are the areas we are going to focus 
on for improvement in the future, based on the data that we 
have collected. And we have also developed and have in place 
tools for accrediting third-party auditors and for making sure 
third-party auditors have the correct training, and the third-
party auditors have the correct background to deliver good 
audits, and deliver the information that we have developed.
    So, our focus is and always will be this focus, laser 
focus, on safety and environmental management systems, what we 
can learn about them, and how we can make those better for the 
industry. And certainly our thoughts will always remain with 
the families and with the people that were lost in the Macondo, 
but it is a key driver, it pushes us ahead on making the 
improvements that need to be made in these management systems. 
Thank you.
    [The prepared statement of Mr. Williams follows:]
  Prepared Statement of C.R. (Charlie) Williams, Executive Director, 
                       Center for Offshore Safety
    America's offshore oil and natural gas industry is safer than 
before, but our goal will always be zero accidents and zero spills.
    A significant enhancement in safety and environmental protection in 
the oil and natural gas industry post-Macondo was the creation and 
ongoing work of the Center for Offshore Safety (COS). COS was created 
by the industry for the industry, and is devoted entirely to 
continually assessing, learning about, and improving the safety and 
environmental management systems (SEMS) implemented by operators in the 
OCS.
    SEMS has the following benefits:

    <bullet> Shifts execution and oversight strategy from a 
            prescriptive rule-based approach to one that is proactive 
            and performance-based

    <bullet> Manages safety with the same principles of planning, 
            organization, implementation, and controls that we expect 
            from other business functions

    <bullet> Drives both Process and Personal accountability up and 
            down the organizational structure

    SEMS requires mechanisms that:

  1.  Specify what is needed for safe operation

  2.  Check to see that these specifications are being followed

  3.  Build competency by developing individual knowledge and skill

    COS is entirely focused on Safety and Environmental Management 
Systems (SEMS) and how their effectiveness can be continually evaluated 
and enhanced.
    SEMS is intended as an active-learning safety and environmental 
management system that establishes and manages barriers, takes a 
systematic approach to all parts of offshore safety, has active 
monitoring via safety performance and other indicators, uses 
independent verification via third-party auditors, and focuses 
continually on operationalizing and enhancing safety and environmental 
management. Most significantly, SEMS focuses on the importance of 
leadership and the interaction of management with staff to deliver a 
positive safety culture.
    The COS mission is promoting the highest level of safety for 
offshore operations through effective leadership, communication, 
teamwork, use of disciplined management systems and independent third-
party auditing and certification. Sharing data and lessons learned 
throughout the industry is an essential part of the work COS does to 
continually enhance safety.

    Through the COS, industry members are committed to improving SEMS 
performance by subscribing to the following principles:

    <bullet> Industry leaders demonstrate a visible commitment to 
            safety

    <bullet> Operators, contractors, and suppliers work together to 
            create a culture of safety

    <bullet> Decision making at all levels will not compromise safety. 
            Safety processes, equipment, training and technology 
            undergo continual examination and improvement

    <bullet> Members share learnings and apply industry standards, good 
            practices and promote continual improvement

    COS broadly represents the oil and natural gas business on the U.S. 
Outer Continental Shelf with members from all aspects of the upstream 
offshore oil and natural gas industry including operators, drilling 
contractors, equipment manufacturers and service contractors. The COS 
has a full-time staff that works in conjunction with industry task 
groups to address specific SEMS issues. In addition, COS has a 
governing board made up of senior management of the industry member 
companies.

    The COS is responsible for:

    <bullet> Assuring that third-party Audit Service Providers and 
            their auditors meet the goals, objectives and requirements 
            for conducting SEMS audits

    <bullet> Compiling and analyzing SEMS data and other safety metrics 
            to find areas for enhancement

    <bullet> Creating Good Practices to close gaps found through the 
            safety data analysis

    <bullet> Coordinating COS-sponsored functions designed to 
            facilitate sharing and learning processes regarding SEMS 
            and good practices

    <bullet> Identifying and promoting opportunities for industry to 
            continually improve SEMS and safety

    <bullet> Developing outreach programs to facilitate communicating 
            with government and external stakeholders regarding SEMS

    COS has developed processes and documents in the following areas:

    <bullet> COS SEMS Toolkit--SEMS Audit Protocols, Operator-
            Contractor interface documents, staff Knowledge & Skills 
            worksheets, and other products for SEMS.

    <bullet> SEMS Audit Service Provider (ASP) Documents, protocols, 
            and guides

    <bullet> COS Auditor Qualification and Training, SEMS Certification 
            for Operators and Contractors, and ASP Accreditation 
            Documents--Suite of documents that outline the 
            qualification and training requirements for third-party 
            auditors performing COS SEMS audits, COS SEMS certification 
            requirements, accreditation requirements for ASP performing 
            third-party audits and COS Standard Audit Report worksheets 
            and template.

    <bullet> Skills and Knowledge Management System Guideline (SKMS)--
            Tools and techniques to provide industry with a common 
            process for the verification and development of employee 
            and contractor skills and knowledge

    <bullet> Leadership Site Engagement--Good practice guidance for 
            senior managers and leaders to demonstrate visible safety 
            and environmental commitment during visits to offshore 
            operating sites, as well as enhancing accountability and 
            safety culture

    COS is actively working in the following areas:

    <bullet> Audit Service Provider Accreditation--Develop an enhanced 
            set of COS-endorsed standards for accrediting Audit Service 
            Providers and their auditors to support the COS SEMS 
            certification program.

    <bullet> SEMS Certification Program-Operator Certification--
            Certification of operator SEMS programs via accredited 
            third-party audit.

    <bullet> SEMS Certification Program-Contractor Certification--
            Third-party SEMS Certification of drilling contractors and 
            offshore service/supply companies in order to provide 
            assurance to operators and regulators that a system is in 
            place which meets applicable requirements and demonstrates 
            contractor workers have skills and knowledge to follow safe 
            work practices.

    <bullet> Safety Performance Indicators (SPI) Program--Clearly 
            defined indicators to evaluate safety performance and aid 
            in identifying safety trends. This includes new leading 
            indicators of SEMS effectiveness.

    <bullet> Learning from Incidents (LFI) Program--A process and 
            methodology to identify, assess and communicate high value 
            learning incidents to promote cross-industry learning. This 
            includes identifying SEMS elements that were ineffective 
            and contributed to the incident and how the possibility of 
            the incident will be minimized in the future.

    <bullet> Information and Knowledge Management--An information and 
            knowledge management framework to gather, manage and share 
            information to enable the industry to continually improve 
            SEMS performance.

    <bullet> COS Safety Events--Plan, develop and coordinate annual COS 
            Safety Forum, Offshore Technology Conference Technical 
            Sessions, SEMS Audit Workshops, and other events to 
            facilitate sharing knowledge and promoting opportunities to 
            continually improve SEMS and safety.

    COS has recently published its first Annual Performance Report 
detailing the initial round of data and lessons learned from the Safety 
Performance Indicator Program, Learning from Incidents Program and SEMS 
audits described above. This report is available via the COS Web site.
    The oil and natural gas industry is committed to operating in a 
safe and responsible manner while minimizing our impact on the 
environment. Protecting the health and safety of our workers, our 
contractors and our neighbors is a moral imperative and core value of 
our industry.
    No incident is acceptable. Our industry takes every incident 
seriously. Continued vigilance is essential in helping to prevent 
future incidents.
    In the 5 years since the Macondo incident, the oil and natural gas 
industry has methodically examined every aspect of offshore safety 
measures and operations to identify potential improvements in safety 
management. COS was established by the industry to ensure that this 
continues and is effective, that there is a single group exclusively 
focused on SEMS, and that there is a group responsive to supporting a 
culture of safety.
    We worked with the U.S. Department of Interior, the Presidential 
Oil Spill Commission, other Government Organizations, and industry 
experts as we developed the mission, programs, and tools of COS.
    But COS did not start from scratch. Offshore exploration and 
production has long been focused on safety and delivering remarkably 
safe and successful technology and operations. The industry is 
committed to ensuring that SEMS is continually enhanced and that the 
COS organization is in place to focus on this and share industry 
knowledge of SEMS and safety.
    Despite industry's history of safety dedication and performance, it 
was understood that the balance between personnel safety and prevention 
of major incidents had to be enhanced and the focus on continual SEMS 
learning, as well as operationalizing those learnings, must be 
maintained. The oil and natural gas industry has dedicated the past 5 
years to using the lessons learned from Macondo to enhance safety and 
operational practices.
    Our strong culture of safety continues to grow along with advances 
in technology and industry standards. So long as there is any room for 
improvement, our work at COS will never be complete. This is our 
livelihood, and our work is critical to America's new energy 
renaissance.
    Every incident is both one too many and a powerful incentive for 
COS and industry to improve SEMS, the learning process, skills and 
knowledge, operating procedures and standards, and effectiveness 
measures and audits. Our thoughts will always remain with the families 
of all those who lost their lives in this tragic accident. And the 
industry, and the industry through COS, stands ready to continue to 
work with government and regulators to improve safety.

                                 ______
                                 

    The Chairman. Thank you very much.
    Mr. Coatney.

   STATEMENT OF DAVID COATNEY, MANAGING DIRECTOR, HWCG LLC, 
                         HOUSTON, TEXAS

    Mr. Coatney. Thank you, Chairman Bishop, Ranking Member 
Grijalva, members of the committee. I appreciate the 
opportunity to testify before you today. My name is David 
Coatney, Managing Director of HWCG LLC, a deepwater well 
containment consortium, formerly called Helix Well Containment 
Group. I appreciate the opportunity to share with the committee 
the oil and gas industry's capacity in general, with specific 
focus on HWCG for quickly and comprehensively responding to a 
deepwater well blowout for the protection of people, property, 
and the environment.
    First, a little bit about me. I am a fourth-generation 
family member of southwest Louisiana and I have been working in 
the oil and gas industry for 40 years. I received my petroleum 
engineering degree from Louisiana State University in 1977, and 
commenced working for Marathon Oil Company in the Gulf of 
Mexico. I have worked in multiple positions, drilling, 
completions, and production operations, offshore and on, USA 
and international. I was the offshore installation manager in 
the North Sea, managed the giant Yates Field in west Texas, and 
held positions of engineering manager and international 
production manager.
    I provided field development coordination for Rocky Gas 
development projects during reconstruction, and was Swift 
Energy's Vice President of Production. Finally, I have been 
HWCG's Managing Director since early 2011. Throughout my 
career, a focus on industry and professional standards in the 
promotion of safe, efficient, and soundly engineered 
developments has been the baseline.
    Five years ago, the deepwater oil industry suffered a loss. 
Many focused on the released oil. And while the environment 
costs were significant, we will never forget the loss of those 
11 people, and will continue to do all we can to avoid another 
incident.
    While I believe the industry has always been safety 
conscious, the Macondo tragedy represented a defining challenge 
that forced all of us to become even more cognizant of safety. 
Through concerted efforts of the Bureau of Safety and 
Environmental Enforcement, the U.S. Coast Guard, and 
consortiums such as HWCG, we have focused on leveraging the 
collaborative powers of thousands of man-years of industry 
experience to set a new bar for response to a deepwater 
containment event.
    Months of the Deepwater Horizon well releasing oil into the 
Gulf was a hardship on all. It would have been a greater loss 
if we had stopped deepwater production all together. The 
industry took an introspective look to improve, and confirmed 
need for immediate access to certain large-scale equipment, 
including special purpose equipment called capping stacks. The 
Deepwater Horizon response success capping the well is a 
blueprint for HWCG's well containment plan.
    HWCG, a consortium of 16 deepwater oil and gas companies, 
was developed through collaborative efforts of members and 
industry-servicing entities in close cooperation with the BSEE 
and the U.S. Coast Guard. The greatest improvement in emergency 
response since Macondo is maintenance of an integrated 
comprehensive response solution, trained frequently across the 
year with members ready for immediate deployment.
    There are two containment consortiums in the Gulf, others 
for international and multiple capping stacks, matching 
pressure and flow requirements of wells. HWCG's solution is 
founded on a model anchored on fit for purpose, with 
collaboration and mutual aid as cornerstones, is based on 
tried-and-tested equipment proven on Macondo, is supported by 
frequent meetings of technical experts, contains a detailed 
well containment plan, and has established response protocols 
with conformance to NIMS guidelines.
    HWCG has over 250 mutual aid subject matter experts 
available to assist each other during a response. And finally, 
HWCG's equipment is immediately deployable and technology 
current through daily use in support of ongoing exploration and 
development projects. HWCG was tested by the regulators in 
2013, through an actual deployment of a capping stack on the 
seafloor in the Gulf in 5,000 feet of water. Even with a 
weather hold, it took less than 6 days--a vast improvement, 
considering the Macondo deployment of nearly 90 days.
    HWCG's solution, with capabilities of 130,000 barrels per 
day, many times Macondo's flows, is a comprehensive well 
containment response model made up of equipment, people, 
procedures, and processes.
    Thank you for the opportunity to share our story. I would 
be happy to entertain questions.
    [The prepared statement of Mr. Coatney follows:]
    Prepared Statement of David Coatney, Managing Director, HWCG LLC
    Thank you Chairman Bishop, Ranking Member Grijalva and members of 
the committee. I appreciate the opportunity to testify before you 
today.
    My name is David Coatney. I am the Managing Director of HWCG LLC, a 
deepwater Well Containment Consortium, formerly called Helix Well 
Containment Group. I appreciate the opportunity to share with the 
committee, today, the offshore Oil and Gas Industry's capacity, in 
general, with specific focus on HWCG for quickly and comprehensively 
responding to a deepwater well blowout in the Gulf of Mexico for the 
protection of people, property and the environment. But first, a little 
bit about me . . .
    I have been working in the Oil and Gas Industry for 40 years, 
second generation in that line of work. I received my Petroleum 
Engineering degree from Louisiana State University in 1977 and 
commenced working for Marathon Oil Company at that time in the Gulf of 
Mexico operations. I've worked in multi-disciplinary capacities 
including drilling and completions and production operations--offshore 
and onshore, USA and international. I was the Offshore Installation 
Manager (OIM as you oftentimes hear it) in the North Sea operations; 
managed the giant Yates Field in west Texas; and held positions of 
Engineering Manager and International Production Manager. Since 
retiring from Marathon in 2003, I've provided field development 
coordination for the USA-awarded Bechtel Iraqi gas development projects 
during reconstruction and was independent producer Swift Energy's VP-
Production. Finally, I have been HWCG's Managing Director since its 
organization in early 2011.
    Throughout my career, focus on Industry and professional standards 
in the promotion of safe, efficient and soundly engineered developments 
has been the baseline.
    Five years ago the deepwater oil industry suffered a loss. Many 
focused on the released oil and while the environmental costs were 
significant, we will never forget the loss of those 11 people and will 
continue to do all we can to avoid another incident.
    While I believe the industry has always been safety conscious, the 
Macondo tragedy represented a defining challenge that forced all of us 
to become even more cognizant of safety. Through concerted efforts of 
the Bureau of Safety and Environmental Enforcement (BSEE); the U.S. 
Coast Guard (USCG) and consortiums such as HWCG LLC, we have focused on 
leveraging the collaborative powers of thousands of man-years of 
Industry experience to set a new bar for response to a deepwater 
containment event.
    The months of the Deepwater Horizon well releasing oil into the 
Gulf of Mexico was a hardship on all. It would have been a greater loss 
if we had stopped deepwater production altogether. The industry took an 
introspective look to improve itself and confirmed the need for 
immediate access to certain large scale equipment, including special 
purpose subsea blowout preventer equipment called capping stacks, as 
well as, dedicated surface flowback equipment. The Deepwater Horizon 
response success in capping the well is a blueprint for HWCG's well 
containment plan.
    HWCG LLC is a consortium, comprised of 16 deepwater oil and gas 
companies, that was developed through collaborative efforts of its 
members and over 34 Industry servicing entities in close cooperation 
with the BSEE and USCG. This yielded an integrated response solution 
capable of capping of a deepwater well in less than 7 days.
    The greatest improvement in emergency response since Macondo is 
maintenance of an integrated and comprehensive response solution, 
drilled frequently across the year with its members, and ready for 
immediate deployment. Today there are two containment consortiums for 
activities in the Gulf; others for international operations and 
multiple capping stacks matching pressure and flow requirements of 
wells. HWCG's response solution is founded on a model which: (i) is 
anchored on a ``fit-for-purpose'' concept with collaboration and mutual 
aid as cornerstones; (ii) is based on the utilization of tried and 
tested equipment proven on the Macondo event; (iii) is supported by 
frequent meetings of technical experts; (iv) contains a detailed Well 
Containment Plan; and (v) has established emergency response protocols 
with baseline conformance to NIMS guidelines. HWCG has a members' 
database of over 250 mutual aid subject matter experts available to 
assist each other during a response. And . . . finally, HWCG's 
equipment is maintained ``immediately deployable'' and ``technology 
current'' through its daily use in support of ongoing exploration and 
development projects--the final key to the HWCG program.
    HWCG Consortium was tested by the regulators in 2013 through one of 
our members, Noble Energy, through an actual deployment of capping 
stack to a location on the seafloor of the Gulf in 5,000 ft. of water. 
The deployment, even with a weather hold, took less than 6 days--a vast 
improvement considering a Macondo-deployment of nearly 90 days.
    HWCG's Response Solution with capabilities of 130,000 BPD, many 
times the requirements of Macondo flows . . . A comprehensive well 
containment response model--made up of equipment, people, procedures 
and processes--Ready to be activated immediately in the event of a 
deepwater well control incident . . .
    Thank you for the opportunity to share our story. I would be happy 
to entertain any questions.

                                 ______
                                 

    The Chairman. Thank you, I appreciate that.
    Mr. Murawski.

   STATEMENT OF STEVEN MURAWSKI, PROFESSOR AND PETER BETZER 
 ENDOWED CHAIR OF BIOLOGICAL OCEANOGRAPHY, UNIVERSITY OF SOUTH 
                    FLORIDA, TAMPA, FLORIDA

    Dr. Murawski. Chairman Bishop, Ranking Member Grijalva, and 
the committee members, thank you for the opportunity to provide 
testimony today. My name is Steven Murawski, and I am an 
environmental scientist at the University of South Florida in 
St. Petersburg. Today I appear before you to summarize some of 
the environmental consequences of the Deepwater Horizon 
accident, and propose some steps to address the ongoing 
challenges we face in ensuring safer marine hydrocarbon 
production.
    The Deepwater Horizon event was both unprecedented and 
unanticipated. Up until the accident, oil spills were thought 
of as two-dimensional events: oil spilled instantaneously over 
a two-dimensional grid. Deepwater Horizon event was a four-
dimensional spill, leaking almost 5 million barrels of crude 
over an 87-day period, a mile deep in the ocean. It, therefore, 
presented many unique challenges which required inventing new 
techniques, some on the spot, to cope with the new challenges 
arising from that spill.
    In the 5 years since the spill, we have gathered an 
enormous amount of information on environmental effects, the 
efficacy of measures used to fight the spill, and have learned 
a number of important lessons that need to be put into use in 
fighting the next deep spill.
    Five years ago, a well a mile deep was a novelty. Now the 
industry is drilling in 2 miles of water depth, and even 
deeper. Should a blowout occur in 2 miles of water depth, many 
of the conditions encountered during the Deepwater Horizon 
would be fundamentally different, resulting in yet a different 
spill scenario. For example, hydrate formation conditions will 
be altered and more critical when determining the utility of 
containment technology and the rise rate of droplets. These 
differences need to be carefully considered, before or if the 
Deepwater Horizon playbook is used once again.
    With respect to the environmental consequences of Deepwater 
Horizon, a number of important impacts have emerged from the 
work of NERDA and independent scientists. For example, oil and 
gas from the ruptured well created dense clouds of fine, 
neutrally buoyant droplets that never surfaced. The key and yet 
unresolved aspect of this problem is the role, if any, that the 
addition of dispersants injected at the well head played in 
keeping that oil volume from surfacing. This is a fundamental 
problem of enormous practical importance that can only be 
answered through high-pressure experimentation and modeling.
    The combination of oil, gas, dispersants, dead plankton, 
and fine clay from river inputs conspired to form a dirty 
blizzard comprising between 4 and 10 percent of the Deepwater 
Horizon oil volume, which coats the bottom of the Gulf in a 
1,000-square-mile area today.
    Monitoring the fish populations on the Continental Shelf 
since the spill has revealed a number of important effects. 
Declines in growth of red snapper and other reef fish have been 
accompanied by coincident declines in recruitment of red 
snapper in the Eastern Gulf, which has important implications 
for fisheries rebuilding.
    A host of other environmental issues have emerged from 
monitoring the various components of the ecosystem, including 
the deaths of hundreds of thousands of shore birds, severe 
health issues with bottlenose dolphins, impacts on marsh flora 
and fauna, and impacts on deep biota, including cold-water 
corrals and other invertebrates. The Exxon Valdez experience 
shows us that it can take a half-decade or more for ecological 
change to become apparent. Therefore, continued vigilance is 
warranted.
    What do we need to note in the advent of another large, 
deep spill? We need better baseline contamination information 
for sediments, water, and biota associated with the 
approximately 4,000 oil and gas facilities in the Gulf. Oil 
spill planners need to understand what resources are at risk 
from a potential spill at any location in the Gulf, and how 
surface and subsurface oil spills move, at what rates, and in 
response to what factors. These and other issues should be 
viewed as critical known unknowns in the oil spill response, 
and finding their answers should be a priority.
    How can we close the critical knowledge gaps that we have? 
I will highlight three recommendations I have in my written 
testimony.
    First, literally every environmental scientist I know that 
has worked in the Gulf has lamented the lack of comprehensive 
pre-spill environmental baselines, making the job of assessing 
oil spill effects needlessly complicated and expensive. 
Congress and/or the Administration could stipulate that all 
existing and planned oil and gas production facilities be 
monitored for such baseline data.
    As well, we need to invest in independent science through 
the existing environmental baseline studies and oil spill 
preparedness. I recommend that you consider significant 
increases in funding for the environmental studies program at 
BOEM, as well as funding research recommendations of ICCOPR.
    In summary, increased government oversight, better 
equipment, higher regulatory standards, et cetera, are 
important, but they are not the only factors that are critical 
here. As we remember the legacy of Deepwater Horizon, we should 
redouble our efforts to anticipate, prepare, and train for the 
next disaster.
    Thank you very much, and I appreciate any questions you 
might ask me.
    [The prepared statement of Dr. Murawski follows:]
   Prepared Statement of Steven A. Murawski, Ph.D., Peter R. Betzer 
 Endowed Chair of Biological Oceanography, University of South Florida
    Chairman Bishop, Ranking Member Grijalva, and committee members, 
thank you for the opportunity to again provide testimony to this 
committee on issues important to management of the Nation's natural 
resources. Today I appear before you to summarize some of the 
environmental consequences and propose some steps to be taken to 
address the ongoing challenges we face resulting from the Deepwater 
Horizon oil spill, and in enabling safer drilling in the future.
    My perspectives in providing this testimony are two-fold. During 
the Deepwater Horizon (DWH) oil spill I served as a senior science 
advisor to the Under Secretary for Oceans and Atmosphere at the 
Commerce Department for issues related to the oil spill. I did so from 
my position as the Director of Scientific Programs and Chief Science 
Advisor at the National Marine Fisheries Service. I saw firsthand the 
difficulties in responding to the unprecedented volume of oil released 
continuously over an 87-day period in the deep, cold recesses of the 
Gulf of Mexico.
    Subsequent to the spill, I retired after 34 years of service from 
NOAA to become a Professor of Biological Oceanography at the University 
of South Florida, in St. Petersburg, Florida. In my current capacity I 
direct a large, multifaceted and multi-institutional research program 
concerned with understanding oil spill impacts and increasing 
preparedness to deal with deep spills of the future. The work of my 
colleagues and me is funded through a grant from the Gulf of Mexico 
Research Initiative (GoMRI), which was in-turn funded via $500 million 
from BP in the early days following the spill. The goals of our Center 
for Integrated Modeling and Analysis of Gulf Ecosystems (C-IMAGE; 
http://www.marine.usf.edu/c-image/) are to address fundamental 
questions of science with respect to response procedures and to help 
understand the long-term consequences to natural resources and people 
of toxic components of oil in environment.
An Unanticipated and Unprecedented Spill

 ``We are fighting an omnidirectional, almost indeterminate threat 
  here. We are trying to protect the entire Gulf Coast at the same 
                                                            time.''

                 Coast Guard Commandant Thad Allen, May 18, 2010 before
         the Senate Committee on Commerce, Science, and Transportation.

    In the years prior to the Deepwater Horizon incident, the offshore 
oil and gas industry had progressively migrated offshore into the 
deeper parts of the Gulf of Mexico, and elsewhere around the world, as 
easier to obtain formations were explored and subsequently played-out. 
The advent of ``ultra-deep'' drilling (>5,000 feet water depth) has 
accounted for an increasing and now significant portion of production 
in the last decade, despite the relatively high costs of production 
there. While Deepwater Horizon was located in over a mile of water 
depth, it is by no means the deepest well drilled in the Gulf. As the 
quote above from former USCG Commandant Admiral Thad Allen (cited in 
Lubchenco et al. 2012) indicates, despite the practice of drilling in 
such extreme depths, the industry and government regulators were 
unprepared for the advent of a massive spill occurring at the water-
geological interface. Even now there is considerable dispute as to the 
specific conditions that conspired to cause the accident, the efficacy 
of response measures--many of which were essentially made up on the 
spot--and the full set of environmental effects of DWH.
    In the intervening years since the spill, government regulators and 
the industry have become more safety conscious regarding deep drilling, 
as attested to by the witnesses in today's hearing. However, as with 
the Deepwater Horizon incident, we must ask the question--are we 
preparing for the circumstances for the last spill or anticipating the 
conditions that will occur during the next major spill? Remember that 5 
years ago a mile deep well was a novelty, now the industry is drilling 
in 2 miles water depth and even deeper.
    The volume of oil and gas released during Deepwater Horizon into 
the environment and the conditions under which that release happened by 
were unprecedented at the time. Although deep blowouts and their 
characteristics were previously and presciently considered (Ross 1997; 
NRC 2003), practical spill response measures for such a unique 
scenario, such as sub-surface containment, dispersant use in the deep 
sea, and prediction of fate and effects, were not brought into 
operational spill response planning prior to DWH (McNutt et al. 2012; 
Lubchenco et al. 2012).
    Should a deep blowout occur at 2 miles water depth, many of the 
conditions extant during the DWH spill will be fundamentally different, 
resulting in yet a different spill scenario. Hydrate formation 
conditions will be altered and more critical in determining the utility 
of containment technology and the rise rate of oil droplets. Different 
gas/oil ratios (GORs) will result in altered turbulent mixing of multi-
phase jets of oil, gas and water. As well, the ``family'' of oil 
composition will likely differ resulting in a heavier/lighter or 
sweeter/more sour crude being released. All of these differences need 
to be carefully be considered as to impacts and efficacy before, or if, 
the Deepwater Horizon ``play book'' is used once again.
What People Ask Scientists in the Gulf about DWH
    In order to design a hydrocarbon extraction policy that is safer 
for the workers and the environment, it is contingent on us to 
carefully assess the risks of accidents of various types and volumes. 
Risk is a combination of the probability of a particular accident or 
phenomenon happening and the significance of the consequences should 
that particular event occur. In the case of DWH, the frequency of a 
deep spill may be low (as compared to accidental low level releases 
associated with surface operations), but the sheer volume and extent of 
the spill may have consequences that last for decades or that result in 
threshold-level changes to the ecosystem that are unrecoverable. 
Understanding the totality of these risks requires that we evaluate 
spill effects from many perspectives. State and Federal regulators, 
representatives of various use sectors and the public all consider the 
spill from a variety of different lenses. Gulf scientists are often 
asked about many aspects of the spill that reflect these multiple 
perspectives of risk. The questions that most often recur include:

    <bullet> Where is the oil now? When will it be gone?

    <bullet> How toxic is (was) the oil?

    <bullet> What about dispersants?

    <bullet> Is the seafood safe to eat?

    <bullet> What are the short- and long-term impacts on biota 
            (marshes, fish, birds, marine mammals)?

    <bullet> What will be the human health impacts, and on human use of 
            natural resources?

    <bullet> Are we (as a society) better prepared now to respond to a 
            spill of the magnitude of DWH?

    <bullet> Is such a spill less likely to occur now than it 
            (apparently) was in 2005?

    Designing an acceptable oil spill risk policy for the Nation 
requires that we understand better the answers to these and other 
questions so that we can improve the system to minimize the frequency 
and mitigate the impacts of future spills along these and other 
dimensions. Improvements to the current system for risk reduction have 
real costs to the industry and society, and balancing those costs with 
the goal of minimizing the risk to levels well below those that existed 
in 2005 should be our ultimate goal. In order to do so, we need more 
and better science to address the trade-offs of risk to cost. Thus, in 
the wake of the DWH incident it is critical that we carefully evaluate 
the questions above, and others, as we plan for the next disaster 
response and build more risk aversion into the current regulatory 
system
What Do We Know Now That We Did Not Know Then?
    Because of the generous funding of organizations such as GoMRI, the 
National Science Foundation, various state and Federal agencies, and 
other sources, we now have partial answers so some of the key questions 
vexing responders during the DWH spill. For example, we now know the 
following:

    <bullet> Oil and gas from ruptured well will create dense clouds of 
            fine, almost neutrally buoyant plumes in 900-1,200 meters 
            of water and never surface--even without the addition of 
            chemical dispersants. The key--and yet unresolved--aspect 
            of this problem is the role, if any, the addition of 
            dispersants injected at the well head played in keeping oil 
            volume from surfacing. This is a fundamental problem of 
            enormous practical importance that can only be answered 
            through carefully controlled high pressure experimentation 
            and modeling (e.g., Paris et al. 2014). These studies are 
            ongoing (funded by API, GoMRI, BSEE, and others) but have 
            yet to be concluded and independently peer reviewed.

    <bullet> Oil does not, in all circumstances, float, and large 
            quantities of the DWH oil remain trapped in sediments of 
            the deep Gulf. The oil took many paths; some sank, some 
            floated to shore, and other quantities were consumed by 
            bacteria while in the water column. Estimates of oil in the 
            deep ocean sediments range from 4-30 percent of the volume 
            exiting the well. Additional DWH oil can be found near 
            beaches in the form of tar patties and tar balls, and in 
            some of the coastal marsh habitats.

    <bullet> A combination of oil, dispersants, dead plankton and fine 
            clay from river inputs conspired to form a ``dirty 
            blizzard'' which coats the bottom of the Gulf in a >1,000 
            square mile area (Valentine et al. 2014; Schwing et al. 
            2015), and which also occurs in the deep waters off Mexico 
            following the IXTOC-I blowout in 1979-1980.

    <bullet> High resolution satellite and aircraft imagery and 
            airborne sampling can be used both to track surface oil and 
            to measure its thickness and therefore quantity, as well as 
            the chemical composition of oil.

    <bullet> The composition of oil residues in fishes can closely 
            resemble that of the crude oil that taints them (Murawski 
            et al. 2014).

    <bullet> Different species can exhibit vastly different 
            contamination levels, even if taken in the same location, 
            due to differences in contamination vector and physiology.

    <bullet> Due to a combination of aggressive fishery closures and 
            intensive seafood inspections (Ylitalo et al. 2012) no 
            tainted seafood apparently reached the market following 
            DWH.

    The over 400 scientific papers published in the wake of the DWH 
disaster have done much to close the knowledge gap, and the lessons 
from these studies need to be folded into disaster response strategies. 
Impressive as the pace of scientific understanding of spill dynamics 
has been in the past 5 years, there remain a number of key scientific 
uncertainties that are critical to resolve prior to the next deep 
spill:
What Do We Need To Know (That We Do Not Know Now)?

    <bullet> What are the baselines of contamination in sediments, 
            water and biota associated with the 4,000 oil and gas 
            facilities in the Gulf (and pipeline fields as well)?

    <bullet> How do the depth of the water and specific oil composition 
            affect the efficacy of response measures?

    <bullet> What resources are at risk from a potential oil spill at 
            any location in the Gulf?

    <bullet> How would surface and sub-surface oil spills move, at what 
            rates, and in response to what factors?

    <bullet> What are the environmental consequences of oil spill 
            response measures (burning, dispersants, sand berms, water 
            releases)?

    <bullet> Will deep plumes form without the addition of any 
            dispersants at all? What value is added by the use of deep 
            dispersants (if any), what is their environmental 
            consequence?

    <bullet> Can ultra-deep drilling and production be accomplished 
            with greatly reduced risks of environmental damage?

    Resolving these and other issues should be viewed as critical 
``known unknowns'' in oil spill response. Below I focus on a few 
approaches that Congress and the Administration could collaborate on in 
addressing them.
Steps We Can Take to be Better Prepared for Future Spills
(1) Address the Lack of Adequate Environmental Baselines:
    Currently there are literally hundreds of environmental scientists, 
students and citizens conducting studies to determine the impacts of 
the DWH spill on the environment and biota of various types. These 
studies are used both to assess penalties in the litigation phase of 
the accident, but also to understand the spill's implications for 
public safety and long-term environmental sustainability in the Gulf. 
We can discover much about these impacts by evaluating contaminants 
locked in the sedimentary record before, during, and after the spill 
(Stanschi et al. 2001; Schwing et al. 2015), monitoring the recovery 
process (Murawski et al. 2014) and by comparing resources in the spill 
zone to control areas far from the spill. However, literally every 
environmental scientists that I have spoken with has lamented the lack 
of comprehensive pre-spill environmental baselines as making the job of 
assessing DWH effects needlessly complicated and expensive. For 
example, one of the only baseline studies of hydrocarbon residues in 
sediments, water and fish comes from a study (funded by MMS) conducted 
in the early 1990s, over 300 miles west of the DWH accident (McDonald 
et al. 1996). Had the record of PAH contamination of the environment 
surrounding DWH been periodically monitored, the process of 
disentangling DWH effects from background contamination would be much 
more straightforward than it is today.
    Maintaining adequate baseline studies and periodically assessing 
changes due to energy exploration and development activities is clearly 
within the purview of DOI/BOEM, as specified in the Outer Continental 
Shelf Lands Act (OCS) of 1973:

        ``The Environmental Studies Program \1\ now managed by BOEM was 
        first established in 1973 by the OCS Lands Act, which directed 
        the Secretary of the Interior to--
---------------------------------------------------------------------------
    \1\ This section quoted directly from: 2015. BUDGET JUSTIFICATIONS 
and performance information for 2016, The U.S. Department of the 
Interior, BUREAU OF OCEAN ENERGY MANAGEMENT: http://www.doi.gov/budget/
appropriations/2016/upload/FY2016_BOEM_ Greenbook.pdf.

        <bullet>  Establish information needed for the assessment and 
        management of impacts on the human, marine, and coastal 
        environments of the OCS and potentially affected coastal areas.
        <bullet>  Predict impacts on marine organisms resulting from a 
        variety of factors: chronic low level pollution or large spills 
        associated with OCS production; discharge of drilling muds and 
        cuttings, as well as pipeline emplacement; and onshore 
        development.

        <bullet>  Monitor human, marine, and coastal environments to 
        provide time-series and data trend information for 
        identification of significant changes in the quality and 
        productivity of these environments.''

    Clearly, despite these stated mission goals for DOI, gathering the 
``information needed for the assessment and management of impacts on 
the human, marine, and coastal environments of the OCS . . .'' is a 
priority not currently being met. Given the continuing development of 
ever deeper petroleum reservoirs in the Gulf of Mexico, as well as the 
schedule for expanded leasing activities along the Atlantic Seaboard 
and off Alaska, there is an increasing need for these environmental 
baselines and associated studies. The budget for BOEM and BSEE within 
the Department of the Interior have been stagnant for years and are 
inadequate to meet existing and new responsibilities of these agencies.

    One way to assure adequate baseline data are obtained is to require 
such data be collected periodically. Congress and the Administration 
could stipulate that:

        The Department of the Interior shall require (at the expense of 
        the operator) that all existing and planned marine oil and gas 
        production facilities be monitored at no more than 5-year 
        intervals to provide baseline and ongoing contamination 
        assessments of sediments, the water column, and marine life 
        (e.g., invertebrate and fishes) in the vicinity of these 
        facilities. The Department shall develop scientific protocols 
        for such activities and make the data publicly available on a 
        continuing basis.

    Such a requirement not only would make assessing the impacts of any 
new spill much more direct, but would potentially help the industry 
demonstrate the facts about environmental pollution associated with its 
routine operations and if a company was responsible for environmental 
damage from an accident. For example, in the case of the Hercules #265 
gas rig explosion in July, 2013 off the Louisiana coast, baseline 
information on fish contamination was available for the vicinity from 
post-DWH studies. Sampling in the aftermath of the Hercules event 
showed no increase over the baselines in the concentration of low 
molecular weight polycyclic aromatic hydrocarbon (PAH) metabolites in 
red snapper bile, although high molecular weight PAHs, resulting from 
burning hydrocarbons, did increase.
    There is ample precedent for industries such as oil and gas to pay 
for routine monitoring of the environmental consequences of their 
operation, under the supervision of Federal agencies. For example, 
under the Clean Water Act, permittees are required to monitor, at their 
expense, wastewater discharges into public waterways, including the 
ocean. Similarly, some fisheries, regulated under the Magnuson Stevens 
Fishery Conservation and Management Act pay for 100 percent observer 
coverage to assure compliance with catch quotas and bycatch limits 
(e.g., the Bering Sea groundfish trawl fleet). I believe that similar 
routine and infrequent monitoring of the environments surrounding oil 
and gas facilities is both consistent with provisions of the Outer 
Continental Shelf Lands Act, and is cost effective.
(2) Invest in Independent Science through Environmental Studies and Oil 
        Spill Preparedness Programs
    The Bureau of Ocean Energy Management (BOEM, representing parts of 
the former Minerals Management Service), maintains its Environmental 
Studies Program (ESP) to conduct research and provide critical 
information on a wide variety of subjects ranging from the impacts of 
seismic exploration on marine mammals, deep coral and chemosynthetic 
community mapping, alternative energy development, archeological relic 
preservation and contamination studies. The spatial domain of study has 
increased to include the Arctic and, with impending lease sales in the 
Atlantic, to that region as well. The budget to cover the wide scope of 
issues and increasing spatial domain of development is only about $35 
million per year--far too little to make effective progress and support 
national policy initiatives. I recommend that Congress and the 
Administration consider a significant and commensurate increase in the 
Environmental Studies Program budget at BOEM.
(3) Invest in Interagency Oil Spill Research
    One of the important, but often overlooked, lessons of DWH is the 
key roles that coordinated actions among the relevant Federal agencies 
play in addressing the ``omnidirectional'' threats resulting from 
massive and unique oil spills (Lubchenco et al. 2012; McNutt et al. 
2012). Congress anticipated the importance of the synergy among 
agencies in writing OPA-90 by establishing the Interagency Coordinating 
Committee on Oil Pollution Research (ICCOPR). Housed within the U.S. 
Coast Guard, ICCOPR has membership including all agencies dealing with 
aspects of oil spill response. However, while OPA was authorized in 
1990, there has been no recent funding directed to ICCOPR to address 
the long list of interagency research priorities identified by that 
group. Other that some Federal funding spent under very restrictive 
stipulations of the Oil Spill Trust Fund, there is no funding to 
coordinate disaster response strategies among agencies, and to close 
critical research gaps identified by them. I recommend that Congress 
and the Administration collaborate on funding directed specifically to 
address the research priorities identified by ICCOPR.
    This research potentially bears not only on the response measures 
to a spill but can help identify (through resource mapping studies 
combined with four-dimensional hydrodynamic modeling) drilling 
locations that may present an inordinate risk should a large accidental 
spill occur. In this case, regulators may deem drilling in these 
locations unacceptable. While these and other research projects are 
clearly worthy of priority they remain essentially unfunded.
(4) Increase Transparency and Collaboration among Industry, Government 
        and Academic Scientists

      ``The worst time to be exchanging business cards is during a 
                                                          crisis''.

   Quoted by Dr. Marcia McNutt, former Director of the U.S. Geological 
             Survey and current editor, Science Magazine (McNutt 2015).

    In responding to the unprecedented nature of the DWH spill, a 
number of ad hoc committees were formed to help answer thorny technical 
problems, devise new solutions and to review data and analyses to be 
made public. While initially made up of government and industry 
scientists, all of these committees eventually entrained independent 
academic scientists. This is because the expertise necessary to solve 
the problems resided outside pre-arranged communication channels, and 
because the scale and scope demanded high levels of transparency in 
decisionmaking and in the conclusions being reached. The inclusion of 
academic scientists was not without controversy or problems, but on 
balance better decisions were ultimately made because of it (McNutt et 
al. 2012; Lubchenco et al. 2012; McNutt 2015). Problems in using 
independent scientists in this role were exacerbated by the lack of 
organization of the large, diverse community with specialized 
expertise, and the unprecedented nature of the interagency working 
groups as established. Since the DWH spill the academic community in 
the Gulf has formed the Gulf of Mexico University Research 
Collaborative (http://gomurc.usf.edu/) with the goal of establishing a 
clearing house to rapidly identify pertinent expertise in the event of 
a large-scale spill. As well, the U.S. Coast Guard has formed 
partnerships with the academic community, including establishing new 
memoranda of understanding to enhance such collaborations.
    A number of key scientists and policy advisors, both within and 
outside agencies, have also been working to better define the roles and 
advantages of enhanced collaborations among responders and academic 
scientists through the Science Partnerships Enabling Rapid Response 
project at the Center for Ocean Solutions,\2\ at Stanford University. 
Rather than being seen as antagonistic, such collaborations among 
industry, government and academia are a positive development and such 
collaborations should therefore be nurtured and supported.
---------------------------------------------------------------------------
    \2\ www.centerforoceansolutions.org/project-science-partnerships-
enabling-rapid-response.
---------------------------------------------------------------------------
(5) Re-Authorize OPA-90
    It has been nearly 25 years since the Oil Pollution Act of 1990 was 
passed by Congress and signed into law. The industry has evolved 
considerably, and drilling and production have become much more 
complex, especially with the advent of ultra-deep drilling. While the 
current law is a vast improvement over what existed when the Exxon 
Valdez spill occurred, like most legislation, it needs to be updated 
and expanded as circumstances have changed. A vigorous, open and 
collaborative debate on provisions of a re-authorized law can carefully 
consider provisions to reduce or eliminate inordinate risks in 
hydrocarbon production while carefully considering the costs of various 
proposals to the industry and the public. As an example, the process of 
such an open and transparent debate preceded the 2007 reauthorization 
of the Federal Magnuson Stevens Fishery Conservation and Management 
Act, resulting in near unanimous passage of landmark legislation that 
sets the global standard for fishery conservation and sustainability. 
We should have no less comprehensive model legislation regulating oil 
pollution for the United States. I will not discuss specific proposals 
for new provisions of a reauthorized OPA but suggest the process of 
considering reauthorization will result in a thorough debate on the 
merits of various regulatory approaches.
(6) Improve International Aspects of Oil Spill Preparedness and 
        Response
    As the oil and gas industry in the Gulf expands to ever deeper 
waters of the Gulf it has edged closer to the boundaries of the U.S. 
Exclusive Economic Zones (EEZ) with Mexico and Cuba. Likewise, the 
Mexican state oil company PEMEX has initiated ultra-deep drilling near 
the U.S. EEZ, and Cuba has been conducting exploratory drilling in its 
waters. A large spill near the boundaries of EEZs in the Gulf will 
likely affect all. The next deep spill in the Gulf will thus likely 
have a more international component to both oil spill effects 
(distribution across international boundaries) and in coordinated oil 
spill response. To their credit, the U.S. Coast Guard, NOAA, BSEE, EPA 
and the U.S. State Department have been reaching out to these nations 
to coordinate response activities in the advent of a spill impacting 
multiple jurisdictions. More needs to be done, however, in harmonizing 
safety standards, collaborating on international response, joint 
cleanup and training and exercises and in setting of mutually 
beneficial extraction policies. The international aspects will be 
evident as well in the Arctic as exploration and production activities 
are expanded there as well. There is much to be gained from more direct 
engagement on such international collaborations, and Congress and the 
Administration can set the tone for positive engagement with 
international partners.
Summary
    Increased government oversight, better equipment, higher regulatory 
standards determining when and how to drill, and heightened awareness 
on the part of the industry are important factors in assuring that deep 
drilling becomes safer for workers, the public and for the environment. 
However, while these steps are necessary they are not, in and of 
themselves, sufficient to reduce risk of harmful spills to a negligible 
degree, as was the operating assumption prior to Deepwater Horizon. The 
marine environment is a publicly-owned resource. All operations 
conducted on public lands need to be carefully monitored, in an open 
and transparent way, to assure the public that oil and gas operations 
do not harm the asset value of the full portfolio of ecosystem goods 
and services (Ocean Studies Board 2013) owned by all of us. Likewise, 
in the advent of another deep oil spill, measures used by the industry 
to clean the environment and mitigate damage should not compound the 
toxic effects of the spill itself. More research on innovative methods 
to interdict spills and clean them up are urgently required. As we 
remember the legacy of DWH we should redouble our efforts to 
anticipate, prepare and train for the next disaster. The events earlier 
this month when workers were killed and injured aboard a Mexican 
production platform in the Gulf of Mexico should remind us of the 
dangers of complacency. Guarding against such complacency by doing more 
to make ocean drilling safer for people and the environment honors the 
legacies of the 11 workers killed as a result of the Deepwater Horizon 
disaster.

    Thank you for your attention, and I will answer your questions to 
the best of my ability.
References
    Lubchenco, J., M. McNutt, G. Dreyfus, S.A. Murawski, D. Kennedy, P. 
Anastas, S. Chu, and T. Hunter. 2012. Science in Support of the 
Deepwater Horizon Response--An Introduction. Proceedings of the 
National Academy of Sciences 109(50): 20212-20221.

    McDonald, S.J., K.L. Willett, J. Thomsen, K.B. Beatty, K. Connor, 
T.R. Narasimhan, C.M. Erickson, and S.H. Safe. 1996. Sublethal 
detoxification responses to contaminant exposure associated with 
offshore oil production. Canadian Journal of Fisheries and Aquatic 
Sciences 53: 2606-2617.

    McNutt, M., S. Chu, J. Lubchenco, T. Hunter, G. Dreyfus, S.A. 
Murawski, and D. Kennedy. 2012. Applications of science and engineering 
to quantify and control the Deepwater Horizon oil spill. Proceedings of 
the National Academy of Sciences 109(50): 20222-20228.

    McNutt, M. 2015. A community for disaster science. Science (April 
19, 2015). p. 11.: http://m.sciencemag.org/content/348/6230/
11.full.pdf.

    Murawski, S.A., W.T. Hogarth, E.B. Peebles and L. Barbeiri. 2014. 
Prevalence of external skin lesions and polycyclic aromatic hydrocarbon 
concentrations in Gulf of Mexico fishes, Post-Deepwater Horizon, 
Transactions of the American Fisheries Society, 143:4, 1084-1097 http:/
/dx.doi.org/10.1080/00028487.2014.911205.

    Ocean Studies Board and Marine Board, National Research Council. 
2003. Oil in the Sea III. Inputs, fates, and effects. National 
Academies Press, Washington, DC.

    Ocean Studies Board, National Research Council. 2013. An Ecosystem 
Services Approach to Assessing the Impacts of the DEEPWATER HORIZON OIL 
SPILL in the Gulf of Mexico. National Academies Press, Washington, DC, 
246 pp.

    Paris, C.B., M. Le Henaff, Z.M. Aman, A. Subramaniam, J. Helger, 
D.-P. Wang, V.H. Kourafalou, and A. Srinivasan. 2014. Evolution of the 
Macondo Well Blowout: Simulating the Effects of the Circulation and 
Synthetic Dispersants on the Subsea Oil Transport. Environmental 
Science and Technology available online.

    Ross, S.L., Ltd. 1997. Fate and behavior of deep water subsea oil 
well blowouts in the Gulf of Mexico. Report prepared for the Minerals 
Management Service. Available at: http://www.bsee.gov/Technology-and-
Research/Oil-Spill-Response-Research/Reports/200-299/287AA/.

    Santschi, P.H., B.J. Presley, T.L. Wade, B. Garcia-Romero, and M. 
Baskaran. 2001. Historical contamination of PAHs, PCBs, DDTs, and heavy 
metals in Mississippi River Delta, Galveston Bay and Tampa Bay sediment 
cores. Marine Environmental Research 52: 51-79.

    Schwing, P.T., I.C. Romero, G.R. Brooks, D.W. Hasting, R.A. Larson, 
and D.J. Hollander. 2015. A decline in benthic foraminifera following 
the Deepwater Horizon event in the Northeastern Gulf of Mexico. PLoS 
ONE 10(3): e0120565. doi:10.1371/journal.pone.0120565.

    Valentine, D.L., G.B. Fisher, S.C. Bagby, R.K. Nelson, C.M. Reddy, 
S.P. Sylva, and M.A. Woo. 2014. Fallout plume of submerged oil from 
Deepwater Horizon. Proceedings of the National Academy of Sciences, 
October 27, 2014 DOI: 10.1073/pnas.1414873111.

    Ylitalo, G.M., M.M. Krahn, W.W. Dickhoff, J.E. Stein, C.C. Walker, 
C.L. Lassitter, E.S. Garrett, L.L. Desfosse, K.M. Mitchell, B.T. Noble, 
S. Wilson, N.B. Beck, R.A. Benner, P.N. Koufopoulos, and R.W. Dickey. 
2012. Federal seafood safety response to the Deepwater Horizon oil 
spill. Proceedings of the National Academy of Sciences 109(50): 20274-
20279.

                                 ______
                                 

    The Chairman. Thank you. I appreciate the testimony from 
all four of you.
    Mr. Newhouse, you didn't have a chance to ask the Director 
a question. Do you want to start us off with the questions this 
round?
    Mr. Newhouse. Well, I appreciate that, Mr. Chairman. Thank 
you very much.
    After listening to the testimony that I was able to hear 
today--first of all, appreciate you guys being with us this 
morning--I certainly would not agree that this is just a pat-
on-the-back hearing, but I think it is a very important session 
that we are having this morning. I appreciate that this is a 
necessary look at where we are today, how we could advance 
needed energy production, while at the same time being as 
certain as possible to have requirements in place so that 
industry meets and follows safety requirements for personnel, 
as well as the environment.
    So, along those lines, just a couple of questions, if I 
may. And certainly this could be for anyone, but I was thinking 
perhaps Ms. Hopkins and Mr. Coatney first.
    First of all, there are timelines involved throughout the 
offshore energy process, from leasing, to exploration, to 
drilling, production, and more. But in the last couple of 
years, the industry has had to adhere to an ever-growing number 
of regulations meant to help ensure that production is 
conducted in the most safe and environmentally responsible 
manner possible, a goal that, clearly, everyone shares.
    Industry, for its part, needs to be certain that it is 
feasible to meet all the regulatory deadlines before embarking 
on something as capital-intensive as offshore production. 
Without that certainty, it seems the industry will decrease 
operations in the long run, which would hurt production and 
have a negative impact on America's energy security.
    Do you think the timelines contained throughout the 
statutes still give industry enough time to do its job, even in 
view of the ever-growing number of boxes that need to be 
checked before operations can happen?
    Ms. Hopkins. So thank you. Yes, I believe that what is 
important is that the industry has a consistent, predictable, 
reliable regulatory framework under which to act and to explore 
for and develop energy and natural resources, oil and gas.
    Mr. Coatney. Thank you, Representative. From HWCG's 
perspective, in well containment--well containment being 
certainly a new advent since 2010--the NTLs, as they exist, and 
the opportunity to build the containment consortiums to be able 
to meet those, is very workable. And we are able to continue to 
develop the necessary components to have an effective and 
comprehensive response to any containment event.
    Mr. Newhouse. Thank you very much. Mr. Williams and perhaps 
Ms. Hopkins as well, the Department has just proposed a well 
control rule that would incorporate the latest industry 
standards for blowout preventers and to Federal regulation. It 
seems the Federal Government has recognized industry has made 
some serious changes since the incident in 2010.
    Can you talk a little bit about what some of those changes 
are that will be included in the new rules, and how they have 
made systems safer?
    Ms. Hopkins. Certainly. So, one we spoke about, it is in my 
written testimony, as well, is API updated our BOP standard in 
2012 to prioritize consistent procedures, preventative 
maintenance, inspection, and testing. And BSEE does, in the 
proposed rule, incorporate, or proposes to incorporate, 
Standard 53 in its entirety into the regulations. That is one 
example.
    In addition, there are, I believe it is approximately 11 
other, or 10 other, documents that are incorporated by 
reference by BSEE, many of those related to our BOP equipment 
specifications. So, yes, we have updated and revised many of 
our documents and created new documents since the incident.
    Mr. Newhouse. Thank you.
    Mr. Williams. So I would like to also mention one section 
in there is on SEMS, safety and environmental management 
systems, relative specifically to the blowout preventers. And, 
as I talked about, SEMS talks about how if you planned, how if 
you established barriers, what is your plan for maintaining 
those barriers to keep them in place and assuring that they 
exist. So it talks about actually adding--looking at SEMS 
specifically on the blowout preventers, and the long-term plan 
for how you maintain the barrier.
    Mr. Newhouse. Thank you very much. Thank you, Mr. Chairman. 
Appreciate the opportunity.
    The Chairman. Thank you. Appreciate that.
    Mr. Grijalva.
    Mr. Grijalva. Thank you very much. And if I may, Mr. 
Williams, what percentage of the industry belongs to your 
organization?
    Mr. Williams. So, we are a membership organization, but we 
have open participation. So when we do our task group work on 
our different----
    Mr. Grijalva. If you were to give me a percentage, what 
would it be?
    Mr. Williams. Well, there are 13 operators, and there are 
roughly 86 operators that did SEMS audits.
    Mr. Grijalva. It is my understanding that maybe 55 percent 
of those operating companies covering 55 percent of the Gulf 
leases are members, which is part of the point of discussion 
today.
    Did the company that caused the explosion, are they a 
member of your organization?
    Mr. Williams. BP? Yes.
    Mr. Grijalva. OK.
    Mr. Williams. Oh, Hercules?
    Mr. Grijalva. Yes, Hercules.
    Mr. Williams. No, they are not.
    Mr. Grijalva. And let me follow up with one other question.
    Mr. Williams, you, in your testimony, and this is just 
because Ms. Hopkins talked about predictability, in terms of 
regulations. You mentioned in your testimony that the Center 
for Offshore Safety certified SEMS programs for drilling 
contractors, as well. Currently, SEMS regulations do not apply 
to contractors. But, given your certification program, do you 
believe it would be appropriate for BSEE to extend SEMS 
regulation to those contractors, as well, and make it part of 
the package?
    Mr. Williams. So, we have both contractors and drilling 
contractors that are members. And, being a member, you are 
committed to doing a SEMS audit, even if it is not a regulatory 
requirement. And we have already had one drilling contractor 
voluntarily do this and become certified. So the path that we 
are on is having the contractors voluntarily do that and become 
certified.
    Now, the regulation currently requires the operators assure 
that the contractors have the adequate plans in place. But I do 
believe that contractors need to voluntarily do this, and they 
are.
    Mr. Grijalva. So it shouldn't be a requirement on the part 
of the agency.
    Mr. Williams. I think if it is done voluntarily, and you 
use third-party auditors, and it is certified through a sound 
process, that that is good.
    Mr. Grijalva. I was just pointing to uniformity and 
predictability. That is why I asked the question.
    Ms. Hopkins, the former commissioners of the President's 
Oil Spill Commission, that commission on the Deepwater Horizon 
have stated repeatedly they believe that the Center for 
Offshore Safety needs to be fully independent, a fully 
independent organization. But it is still part, as I understand 
it, of the American Petroleum Institute. Are there any plans to 
make the Center independent, that was recommended by the 
Commission?
    Ms. Hopkins. So the Center for Offshore Safety was 
developed by the industry for the industry, with the purpose of 
adopting standards of excellence to ensure continuous 
improvement and safety in offshore operational integrity. This 
purpose is being effectively carried out by the COS in its 
current state. This is self-evident in the tremendous progress 
and success of the COS----
    Mr. Grijalva. Should it be independent or not, if I may, 
because I am running out of time, and I need to interrupt you. 
Do you feel it should be an independent agency, separate from 
the Institute?
    Ms. Hopkins. As I said, the COS is currently carrying out 
its mission in an effective manner.
    Mr. Grijalva. So it doesn't need to be.
    Ms. Hopkins. It is currently working as intended.
    Mr. Grijalva. I would take that as no, it doesn't need to 
be.
    The last question, Ms. Hopkins, is to what extent does the 
institute use independent science? By that I mean science that 
the industry isn't funding itself, science that would help 
determine the impacts from oil spill response methods, 
particularly the use of dispersants on the scale that we saw 
during the Deepwater Horizon response.
    Any comment or thought on the point and the question I just 
asked?
    Ms. Hopkins. So I might need clarification on your 
question, but I believe you are asking if API and the industry 
does do research in these areas.
    Mr. Grijalva. Independent, having independent science make 
the analysis and make the studies. I was thinking in particular 
of dispersants that were used throughout the Deepwater Horizon 
cleanup.
    Ms. Hopkins. OK. It----
    Mr. Grijalva. Has any thought--any thought, in terms of the 
Institute, utilizing----
    Ms. Hopkins. Yes----
    Mr. Grijalva [continuing]. Independent parties to do that?
    Ms. Hopkins. Certainly. API encourages and is supportive of 
research designed to provide useful and valuable information to 
regulatory agencies, a response--decisionmakers and affected 
communities. And, in fact, the industry has and continues to 
engage with research organizations.
    The Chairman. OK, I appreciate that, thank you. Sorry to 
interrupt.
    Chairman Lamborn.
    Mr. Lamborn. Thank you, Mr. Chairman. For either Ms. 
Hopkins, Mr. Williams, or Mr. Coatney, does the proposed well 
control rule create additional cost and bureaucratic red tape 
that is either, one, unnecessary, or two, would lead to the 
loss of future production?
    Ms. Hopkins. So, obviously, the rule was just released, 
published, a few days ago. So we are still currently reviewing 
the rule and all of its requirements and revisions to changes 
in the current requirements. There obviously is, as the agency 
has pointed out, a cost associated with implementing the new 
proposals. We will also be looking at that economic analysis 
that they have done, and providing our own information 
regarding the economics of the rule.
    We will be looking at the provisions that they have 
proposed to ensure that they are provisions that will increase 
safety, and that they will be of benefit, and not just a 
regulatory burden, as you mentioned.
    Mr. Lamborn. Either one of you two gentlemen want to 
comment on that? Mr. Williams or Mr. Coatney?
    Mr. Williams. I would just add what I did before. I mean, 
like Ms. Hopkins said, we are going to focus on--does it 
benefit safety? And I know one provision in particular, 
relative to SEMS, is aligned with what we think is an important 
part of adding safety.
    Mr. Coatney. And, Representative, I believe all I would 
make a statement to is that certainly our members are reviewing 
the rule, as well, as it has come out, to understand its 
impacts. For deepwater well containment, our focus is primarily 
on the fit-for-purpose capacity of the capping stacks that were 
used. So, they are a slightly different use, if you will, than 
what the rule has.
    Mr. Lamborn. OK, thank you. Now, in the last 5 years, what 
did industry do on a voluntary basis, in addition to what the 
regulators in our government did to create more safety?
    Ms. Hopkins. So, thank you for the question. And more 
extensive details are in my written testimony, but immediately 
following the incident, the industry formed four joint-industry 
task forces to focus on operating procedures, operating 
equipment, subsea wall control and containment, and then oil 
spill preparedness and response. Each of those four joint 
industry task forces produced recommendations that were 
provided to the Department of the Interior. Many of those 
recommendations were incorporated into the Secretary of the 
Interior's safety report that was issued at the end of May in 
2010.
    Out of those recommendations came many revisions, a 
creation of new documents. So we created a new document on 
deepwater well design and construction. We created a new 
document on well construction interface, which is a bridging 
document between the operator and the drilling contractor. We 
revised our RP53, as I mentioned earlier, which was originally 
a recommended practice. We upgraded that to a standard, and 
that is on blowout prevention equipment systems.
    In addition, we have begun revising, and in different 
stages along that, various equipment specifications on blowout 
preventers. We published a new document on procedures, and 
updated that, as well, into a standard at a later date. We put 
together a recommended practice for protected personal 
equipment for oil spill responders. So, we have done a number 
of, over 100 documents have been either created or updated 
since 2010 in response to this incident, and that was all 
voluntary.
    Mr. Lamborn. Thank you. And last, how do our safety 
standards compare to other countries that allow drilling off 
their coasts in the Atlantic, such as Mexico, Canada, Brazil, 
or even Cuba?
    Ms. Hopkins. The Gulf of Mexico does have a very strong 
safety--or, I am sorry, the U.S. Outer Continental Shelf and 
our regulations are a very strong regulatory framework. Many of 
the regulations are based upon API standards, and many 
international governments, as well, incorporate API standards 
into their regulations, as well.
    Mr. Lamborn. Would either one of you other gentlemen, Mr. 
Williams or Mr. Coatney, want to comment on that?
    Mr. Coatney. What I would say is that, in the well 
containment category, the developments that have arisen in the 
Gulf of Mexico applications, as a result of Macondo have been 
transferable to other entities around the globe, such that 
there are capping stacks located throughout the globe and 
organizations that are able to deploy that response solution in 
their applications.
    Mr. Lamborn. OK, thank you very much.
    The Chairman. Thank you.
    Mr. Huffman.
    Mr. Huffman. Thank you, Mr. Chairman. My question is for 
Dr. Murawski. The 5-year anniversary of this horrific oil spill 
has brought us some very slick television ads from British 
Petroleum, showing healthy wildlife and pristine waters, 
talking about the unprecedented mitigation efforts, suggesting 
that all is well in the Gulf.
    But what we don't see are pictures of a place such as Cat 
Island, Louisiana. And I have a poster here, too. One is before 
the Deepwater Horizon spill on the left. So what you see there 
is a well-vegetated barrier island providing all sorts of 
ecosystem and hurricane safety services for that area. And on 
the right what you see is a completely de-vegetated and, 
actually, shrunken barrier island that has reduced in size, 
because all the vegetation was killed. The vegetation was 
holding the land in place, and it has begun to erode and, 
literally, disappear before our eyes.
    Could you speak to this, and perhaps some other barrier 
island impacts that we don't see in those slick BP TV 
commercials?
    Dr. Murawski. Thank you for the question. I haven't been to 
Cat Island specifically, but I have spent a considerable amount 
of time in Barataria Bay, and places like Bay Jimmy, where, as 
Mr. Graves said, the oil still exists.
    One of the phenomena we see there is that most of this oil 
exists a few feet into the marsh. And what has happened over 
time is, because of the toxicity of the oil, it actually kills 
the roots of the marsh grass, and the roots of the marsh grass 
are basically a matrix that keeps the land in place. So, we 
have seen accelerated erosion off of those marshes, as the 
marsh grasses died back. And that certainly is occurring in 
those places where it is most oiled, and probably occurring on 
these barrier islands, as well.
    Mr. Huffman. And when you see offshore islands like this 
literally disappearing because of that erosion, what does that 
mean, in terms of storm surge and potential impacts from events 
like hurricanes?
    Dr. Murawski. Well, honestly, you know, when we talk about 
the role that the natural world plays in environmental 
protection, and particularly hurricane protection, the so-
called green infrastructure, this has been a very effective way 
to mitigate the effects of storm surge over time. And we see 
land use practices that have defeated that.
    We can assume that, if this is the cause, that that would 
accelerate the loss of this, and degrade the green 
infrastructure protection that we see in storm surge.
    Mr. Huffman. I am also interested in something I read about 
just in the last week. In the wake of Hurricane Ivan, an 
offshore platform owned by Taylor Energy in the Gulf was 
toppled because of a subsurface mudslide. Apparently, the 
apparatus down there was buried in so much sediment that, even 
now, more than 10 years later, it is still leaking, and neither 
the industry nor Federal officials nor anyone else has any idea 
of really, at this point, how they are going to stop it from 
leaking. I believe it is one of the longest-running oil spills 
that we have ever seen. And recent data suggested the volume of 
what has spilled is 20 times higher than the figure originally 
put forward by Taylor Energy.
    What would be the consequences if an event like this, 
which, of course, the industry would like us to believe is no 
longer possible--but if it were to happen in a place like the 
Arctic, what would be the consequences, given how hard it would 
be, in a difficult location like that, to deal with an undersea 
leak in a very remote location?
    Dr. Murawski. I am familiar with the Taylor situation 
there. And, of course, what that is providing is a chronic 
moderate-level exposure that is out in the environment. And, as 
you said, the circumstances are so difficult, it is almost 
impossible to deal with.
    In terms of the implications for an Arctic spill on those 
lines, the Chukchi Sea is a very difficult place, even without 
the drilling. So, the effects of a long-term spill like that 
would be probably devastating to the wildlife and the 
subsistence livings that people make on the North Slope.
    Mr. Huffman. Great. Thank you very much for your testimony.
    I yield back, Mr. Chairman.
    The Chairman. Thank you.
    Mr. Hice, do you have some questions?
    Dr. Hice. Thank you, Mr. Chairman. I appreciate each of you 
being here, and the testimony that you have given regarding the 
various changes that have been made in the last 5 years.
    But, for the sake of the committee members, Mr. Williams, 
let me go to you. Would you expand some on the concept of stop 
work authority?
    Mr. Williams. Yes, I would. So, it is another key part of 
safety and environmental management systems. But, basically, it 
says that every person has the right and the responsibility to 
stop work if they think something is unsafe, or they don't 
understand what is being done, that the work can be stopped. It 
is one of the key barriers that people are using right now in 
managing safety.
    Dr. Hice. How often is that utilized?
    Mr. Williams. I don't know, exactly. But it is not 
infrequent that people do it. And companies have really been 
pushing hard to change the culture, where people do want to do 
it. And, in fact, some companies are rewarding people that do 
it, even if it is subsequently found out that it wasn't 
necessary to do. They reward the behavior.
    So, it is not infrequent, but most of it is not related to 
major safety items.
    Dr. Hice. It is not related to major safety items?
    Mr. Williams. That is correct.
    Dr. Hice. So it is minor issues like what?
    Mr. Williams. Well, I mean, a real common one is around 
safe lifting, for instance. So safe lifting is an issue, but 
often people actually find things in lifting operations, and 
then they stop them before it is a problem. So it is actually a 
good thing.
    Dr. Hice. So, if companies are rewarding individuals for 
reporting unsafe environmental or--environment within the 
workplace issues, that would be a significant help on safety, 
overall.
    Mr. Williams. Yes, sir.
    Dr. Hice. You would certainly think so.
    Mr. Williams. Yes, sir.
    Dr. Hice. In addition to that, before I change the subject, 
can you comment a little bit on some of the investments--I will 
use that word--made by the industry to help improve safety?
    Specifically, Ms. Hopkins, as you mentioned a moment ago on 
incident prevention, containment response, those types of 
things. I know you mentioned four areas. Let me, I will just 
direct this to you, Ms. Hopkins. You mentioned four areas. But 
can you just go more specifically on the investments made here, 
and the impact that is resulting from that?
    Ms. Hopkins. Unfortunately, I don't have any dollar figures 
that I can share with you. We know, at least in one instance, 
for the Marine Well Containment Company that was established, 
it was a $1 billion initial investment when it was started up. 
Obviously, that has increased over time.
    You do have several million dollars that was spent, or that 
was budgeted, by the American Petroleum Institute specific to 
oil spill response studies and research. You also have the 
creation of the Center for Offshore Safety, and then, 
obviously, the membership dues are additional expenditures that 
have been made by the industry to improve safety.
    So again, I apologize, I don't have an overall number. But, 
as you point out, in all of these areas investments have been 
made and have been----
    Dr. Hice. So it is fair to say, though, that billions of 
dollars are being spent. It is not a small amount of money. So 
there is a significant investment to address these issues.
    Ms. Hopkins. Yes.
    Dr. Hice. Let me ask you while I have you here. In my home 
state of Georgia there is conversation about the potential of 
offshore energy in the Atlantic. And so, with that, a lot of 
constituents are talking about it. Can you please comment on 
the benefit that offshore exploration would have in the 
Atlantic, as well as the degree of certainty that you would 
have regarding the safety of that operation, compared to, say, 
2010?
    Ms. Hopkins. So, you know, the industry is committed to a 
goal of zero fatalities, zero injuries, and zero incidents. And 
we do believe that the offshore oil and gas industry is safer 
than it was 5 years ago. That would extend to the Atlantic, 
considering that the current OCS regulations apply to all of 
the OCS, not just the Gulf of Mexico, not just deepwater. So, 
all of the safety improvements that have been made would apply 
to any activities that were to occur in the Atlantic, and 
certainly the Arctic, as well.
    We do have, very near our shores we see other countries--
Canada, Cuba, and the Bahamas--pursuing or considering 
development of offshore oil and natural gas resources. And 
rather than sitting idly, and watching other nations secure 
these benefits, the United States should seize the opportunity 
and bring economic stimulus to the Atlantic Coast and our own 
economy.
    Dr. Hice. OK. Thank you. Thank you, Mr. Chairman.
    The Chairman. Mr. Costa.
    Mr. Costa. Thank you very much, Mr. Chairman and members of 
the committee, and thank my colleague from California, Lois 
Capps, for allowing me to ask some questions. I have another 
appointment I need to get to.
    Obviously, we have discussed here today, under the category 
of lessons learned, 5 years later, what we have done to deal 
with the challenges of deepwater exploration, and the 
definitions of deepwater exploration now, with new science and 
technologies, is far greater depth of drilling range than ever 
imagined, probably, 20 years ago. But with that comes risks, 
and we saw those risks, you know, in the worst way develop 5 
years ago with the spill in the Gulf.
    We, obviously, have a great deal of drilling activity 
taking place, and expansion of proposed drilling in various 
parts of the Atlantic and Alaska, as was noted.
    I am wondering, Mr. Williams and maybe Ms. Hopkins, what 
the takeaway is here. I mean we have seen the changes of how 
the Department of the Interior has implemented both safety 
standards on the drilling safety rule, workplace safety rule, 
blowout preventers, production safety rule. Supposedly, one 
person can stop a production well if they believe something is 
amiss.
    Under the category of lessons learned and takeaways, what 
would you say was the greatest? And can you imagine in the 
future--the environmental impacts, obviously, in the Gulf are 
still being felt. But what would you describe, Mr. Williams, 
under the category of lessons learned, notwithstanding the 
changes in the--I had been one that had argued for years we 
ought to change the Mineral and Management Services, and 
obviously, the Administration did do that. Is it operating 
better now, under the new reorganization?
    Mr. Williams. They have put a very significant effort into 
managing across the new organizations. That was part of the 
work that they did when they divided up into the three groups. 
And I think, for them to do a good job, they need to make sure 
they ensure that and do that effectively.
    Certainly, the focus of BSEE on environment and 
enforcement, the interaction with me in that regard, has been 
good.
    Mr. Costa. Do you think the enforcement has been strong?
    Mr. Williams. I think the enforcement has been strong. But 
what I would say is that I think one of the--the key thing that 
I am focused on is making sure that people have the effective 
planning, and keep their barriers in place, and manage safety, 
and that we have methodologies for measuring the effectiveness 
of that.
    Mr. Costa. And provide the oversight.
    Mr. Williams. Correct.
    Mr. Costa. Ms. Hopkins, you commented a moment ago on the 
previous questioning that, with the expansion, or proposed 
expansion in the Atlantic and Alaska, that these lessons that 
we hope have been learned will be applied, and these new safety 
rules will be in place for any further expansion or drilling. 
Is that correct?
    Ms. Hopkins. Correct.
    Mr. Costa. And what is the takeaway for your industry, in 
terms of 5 years later, and the coordination and the response 
by energy companies to what was a very devastating accident 
that--11 lives were lost and, obviously, the changes have 
occurred in the industry.
    Ms. Hopkins. So, yes, there have been extensive changes 
that have occurred in the industry. As you mentioned, the 
industry came together jointly across all segments, operators, 
drilling contractors, service supply companies, equipment 
manufacturers----
    Mr. Costa. Is it true within any of your companies that one 
person on a rig can halt production because something may be 
amiss?
    Ms. Hopkins. So, as Mr. Williams referred to, the stop work 
authority and the safety and environmental management systems 
rule, yes.
    Mr. Costa. Any other suggestions, you think, in looking 
down the road, that we can do a better job?
    Ms. Hopkins. We are always looking to continuously improve 
safety.
    Mr. Costa. Under best management practices?
    Ms. Hopkins. Yes.
    Mr. Costa. And how do you do that?
    Ms. Hopkins. Well, the API develops standards accredited by 
the American National Standards Institute. Our process is 
audited every 5 years by ANSI. It is based on openness, 
balance, consensus, and so we follow that process to ensure 
that our standards, and they are regularly updated on a 5-year 
review cycle, we ensure that those recommended practices, 
standards, and specifications do keep up with current 
technologies, and are reviewed every 5 years.
    Mr. Costa. All right. My time has expired. Thank you, 
Congresswoman Capps, for your kindness. And thank you, Mr. 
Chairman.
    The Chairman. Actually, I am the one that recognized you, 
not her.
    [Laughter.]
    Mr. Costa. Well, I was thanking you, too.
    The Chairman. OK. I will just----
    Mr. Costa. I always thank you.
    The Chairman. Just so we get that in the record.
    Mr. Costa. No, I want it on the record. Thank you, Mr. 
Chairman.
    The Chairman. Mrs. Capps, go ahead.
    Mrs. Capps. I will give you all the credit that you would 
like, Mr. Chairman.
    [Laughter.]
    Mrs. Capps. You know, we have already talked about the 
Deepwater Horizon spill, one of the worst environmental 
disasters in our history. And it superseded the previously 
worst spill, which is off the coastline I represent, in 1969, 
in Santa Barbara, Platform A burst, and devastation was 
enormous.
    I know that it can take, because I live there in that area, 
and I did at the time, I know it can take decades to fully 
recover from an oil spill of this magnitude.
    The Gulf's famed oyster industry still has not bounced back 
from the damage caused by the spill. And research shows that 
other fishery resources may have been impacted in the long 
term. This includes our red snapper stock, which virtually lost 
its entire 2010 and 2011 year classes.
    Dr. Murawski, what have been the impacts of the spill on 
Gulf fisheries and fishing communities, including the offshore 
and near-shore habitats that support them?
    Dr. Murawski. Thank you. The impacts on the fisheries have 
been varied. We hear a lot of reports on the local scale, 
particularly in the near-shore areas, where fisheries for 
crabs, oysters, and the other critters, some of those areas are 
closed today because of the presence of oil. So that can have a 
significant impact at the local community level.
    When you look at the Gulf of Mexico level, many of the 
industrial fisheries actually can move around. You know, for 
example, a shrimp fishery, because of the large closure due to 
seafood safety concerns, that moved off to Texas. And so the 
landings in Texas increased, but that reduced the volume of 
shrimp coming ashore in Louisiana, and particularly Alabama and 
Mississippi, that had their landings cut by half.
    So, in that regard, we see a mobile workforce that is more 
resilient than a local community, in terms of their fisheries. 
And that seems to be the way things are playing out.
    You mentioned oysters before, and it is an important point 
to make. If you look at the total level of oyster production in 
the Gulf of Mexico, it is about what it was before the spill. 
But what has happened is there has been a major switch between 
the oyster production from natural beds, as opposed to 
aquiculture. So, aquiculture production in Louisiana has 
increased dramatically, and we have many reports of the natural 
oyster populations being depressed.
    Mrs. Capps. We know that the Deepwater Horizon spill caused 
billions of dollars of damage to the Gulf Coast economy, and 
that efforts to clean up just the most visible damage from the 
mess will cost billions more.
    We also know that there are ongoing costs in terms of lost 
fisheries, productivity, diminished coastal resiliency, and 
human health.
    So, another question to you, Dr. Murawski, isn't it true 
that scientists are still uncovering new impacts of the spill 
on the Gulf ecosystem that it may be years before we can fully 
understand the impact, economically, of these many different 
kinds of costs?
    Dr. Murawski. That is true. And, as I said in my verbal 
testimony, it took quite a while for us to realize the full 
implications of Exxon Valdez: the collapse of the herring stock 
in Prince William Sound. And, as you mentioned, we have seen 
repeated year classes of red snapper in the Eastern Gulf 
declining. It was an improving stock. It's improving in the 
Western Gulf, but the recruitment seems to be declining in the 
Eastern Gulf.
    We also know that there is a substantial fraction of that 
oil that is still in the environment, and so it is still having 
impacts. So, it really is premature for us to conclude things 
on the sort of macro level----
    Mrs. Capps. Right.
    Dr. Murawski [continuing]. At this point.
    Mrs. Capps. And, as I conclude my time, Mr. Chairman, even 
as BP released its 5-year report hailing its efforts to clean 
up its own mess, others were shining a light on all the damage 
that remains unrepaired and undiscovered.
    I would like to submit for the record a National Wildlife 
Federation report titled, ``Five Years and Counting.'' This 
report documents ongoing damage to the Gulf natural resources 
resulting from the BP spill. Everything from brown pelicans to 
bluefin tuna to sperm whales has been harmed by this spill. And 
we, according to this study by the National Wildlife 
Federation, we are a long way from restoring the Gulf 
ecosystem.
    This is an ongoing problem, and we must continue working on 
it. I hope we can revisit this topic, and I yield back.
    The Chairman. Thank you. Without objection, we will add 
that to the record, as well.
    Mrs. Capps. Great.
    The Chairman. I know the Ranking Member has a couple more 
questions, but let me have a shot at a few of them, here.
    Mr. Coatney, if I can start with you, who invented the 
capping stack technology. Was it the government?
    Mr. Coatney. No. The capping stack technology was a 
collaborate effect of the industry participants that are 
operating in the deepwater environment.
    The Chairman. The company consortiums. Who paid for it? Was 
it the government?
    Mr. Coatney. No, sir. It is paid for by the members 
themselves, the industry members themselves, and those of the 
consortiums.
    The Chairman. So it was an industry-driven innovation that 
came up with this technology that your company employs to make 
the shores safer.
    You said that you are a resident of the Gulf area, so I am 
assuming you take all of this very personally.
    Mr. Coatney. Yes, sir. I must admit I do. Fourth-generation 
family member of southwest Louisiana, my members have been 
there for a long time, and I have walked the marshes and very 
much enjoy them. Therefore, I do want to protect them.
    The Chairman. Thank you. So if there were an incident 
tomorrow, could you spend maybe a minute of my time and walk us 
through how your company would work to deploy that capping 
stack?
    Mr. Coatney. Yes, sir. What would occur is that the 
responsible party, the operator that was having the incident, 
he would make a call accordingly to regulatory agencies, as he 
is compelled to do. But as for containment, he would make a 
call into a central number. That number would contact key 
people at any point, 24 hours a day.
    They then--with HWCG as an example, HWCG personnel would 
then interface with the operator himself, as the responsible 
party, and initiate actions upon his guidelines to basically 
effect a movement to get equipment moving and resources moving, 
to include an incident command facility where the source 
command services would occur from, to mobilizing a capping 
stack with some initial protocols of testing the capping stack 
prior to loading it on to a vessel, and then transporting it to 
the site, at which time, once it got on site, along with 
ancillary equipment that would be there, that would be landed 
on to the well that was experiencing the problem, and then 
other vessels that will have been mobilized simultaneously 
would be put there to effect capture, to the extent that it had 
to flow and could not be shut in effectively and safely at the 
time, to capture the flow and put it in storage.
    The Chairman. Thank you. I appreciate that. I am an old 
history teacher. I almost understand what you were telling me. 
That was good.
    Ms. Hopkins, Mr. Williams, you know, Plato said that 
necessity is the mother of all inventions, and we saw after 
Macondo innovations that came from the industry as a necessity 
for that. Could you just speak very quickly, each of you, to 
some of the reforms industries have realized right away in the 
wake of Macondo, and how you put them into place and work with 
the Federal regulators to bring safety to this issue?
    Let me start with Ms. Hopkins and Mr. Williams.
    Ms. Hopkins. OK, certainly. So, as I mentioned, the four 
joint industry task forces were formed. Recommendations were 
made, both to the government and then within the industry 
itself. Several, as I mentioned, over 100 API-recommended 
practices, specifications, standards have either been created 
or revised since the incident.
    In addition to those standards and documents that were 
created, we obviously created the Center for Offshore Safety, 
which I will let Mr. Williams speak to, and then, obviously, 
the containment companies, HWCG and MWCC, and I will let Mr. 
Coatney speak to that.
    Additionally, we did spend a great, as I mentioned, a 
number of millions of dollars on oil spill preparedness and 
response--over 25 different work groups were created.
    All of that information is available on our Web site. It 
does include dozens of reports that have been developed on 
dispersants, mechanical recovery, in-situ burning, all of the 
different tools in the toolkit related to oil spill response. 
So a great deal of work has been done to improve safety and in 
terms of, also, prevention, most importantly, but then 
containment and response, if we do have an incident.
    The Chairman. Thank you. Mr. Williams, look, I only have 13 
seconds. So I am going to have another round, I am going to 
come back. That will be the first question I ask. Is that OK?
    Mr. Williams. Yes, sir. Thank you.
    The Chairman. All right, thank you. Mr. Grijalva, do you 
have some more questions?
    Mr. Grijalva. Excuse me, Doctor, following up on some of 
the questions that were being asked by Mrs. Capps, during the 
BP spill, emergency responders--and I was asking about that 
earlier--used an unprecedented amount of dispersant to keep the 
massive oil slicks from forming and then going to the surface 
and coming ashore. We know these chemicals made the oil less 
visible, but it didn't make it go away, it didn't make it 
disappear.
    The questions I have--where is this dispersed oil? And what 
effect is it having on the marine environment? That is number 
one.
    Do we know what the effect of these chemicals, these 
dispersants are, what the impacts are, long-term? And do we not 
know? And do you think it is wise for oil companies to assume 
that dispersants are the answer to mitigating the damage from 
an oil spill?
    Dr. Murawski. Sorry, let me take the middle question first. 
In terms of the impacts of dispersants, dispersants are tested 
with EPA criteria and protocols. EPA is actually revising, 
taking comments on a revised rule on those testing procedures.
    The types of testing they do are to something called the 
lethal dose 50. That is, at what point do you have a dose that 
kills 50 percent of the test animals? One of the issues that 
recurs is the test animals that are used in these standardized 
tests are not necessarily the most sensitive animals in the 
real world, particularly in the environment that they were used 
in the Gulf of Mexico.
    We know that, for example, fish eggs and larvae and the 
larvae of deep corals are much more sensitive to low levels of 
both oil and dispersants. So, if one really wanted to 
understand the toxicity of those chemicals, one would do it in 
a more realistic setting.
    The other thing about dispersants is they are what we would 
call a mildly toxic detergent, right? Taken by themselves, they 
have certain levels of toxicity, which are considered to be 
low, and lower than the crude oil. But taken as a binary, the 
oil and the dispersant itself, they act in combination to 
create much more toxic mixes, and there have been a number of 
experiments done since the Deepwater Horizon spill to indicate 
that.
    In terms of the use of dispersants and what consequence it 
had, as far as the oil goes, as I said before, we know that a 
substantial amount of the oil lies trapped at the bottom of the 
sea, due to this marine snow event. We also know that there is 
oil at the toes of many of these beaches that is bound up with 
sand. And so, every time there is a large storm in the Gulf, we 
see tar balls and tar mats coming to shore. And we also see 
some of the oil in the marsh, as well.
    In terms of the dispersants, the individual components 
degrade rather quickly over time. There are some components 
that are more persistent. But they are generally, by 
themselves, not particularly toxic.
    In terms of the industry's response in using dispersants, 
we need to be quite discriminate in their use, particularly 
since we don't know some of these questions about the impacts 
on real-world organisms. Certainly the theory there is you are 
trying to break up oil droplets into tiny bits that are more 
easily digested by bacteria, and that certainly worked. The 
real question is, what is the environmental trade-off, fighting 
those oil spills offshore, as opposed to fighting them on land? 
And it really is a Hobson's Choice that we have.
    Mr. Grijalva. Let me follow up on that. I think a study 
published in February, where massive spill deposits had been 
recovered, that between 6 and 10 million gallons of BP oil 
remains in the floor of the Gulf, or just beneath the surface 
of the lands and the waters around the Gulf Coast. What does 
that mean for future cleanup, and what does that mean for 
future restoration efforts?
    Dr. Murawski. The offshore oil--there is no effective way 
to clean up what lies on the bottom. Much of that is quite 
deep, and it is somewhat dispersed over a 1,000-square mile 
area. Trying to clean that up would do more damage than letting 
it rest and eventually landfill, you know--that is sediment 
deposits over the top of it. It will keep having impacts on the 
biota there.
    And we know this because we have sampled down off Mexico, 
where the Ixtoc spill was, 35 years ago, and we see that Ixtoc 
spill in deepwater landfilled under about 4 inches of sediment. 
Interestingly, it is still intact, because the biota there does 
not bioturbate, or actually use that sediment, because it is 
still toxic.
    The Chairman. Let me interrupt here for a second. Do you 
still have other questions?
    Mr. Grijalva. No.
    The Chairman. Does anyone else have other questions for 
this final round?
    [No response.]
    The Chairman. Then, if not, do you want a couple more 
seconds to finish the answer?
    Mr. Grijalva. Yes, the----
    The Chairman. Finish that one.
    Mr. Grijalva. On the lands--if I may, Doctor, the lands and 
the shores, what does that do to cleanup and restoration 
efforts?
    Dr. Murawski. Honestly, when oil gets into the marsh, there 
are no effective cleanup mechanisms you can use----
    Mr. Grijalva. OK.
    Dr. Murawski [continuing]. That you wouldn't do more damage 
to the marsh, than if you let it rest there. And, of course, it 
will weather over time. But, as I said before, it takes quite a 
while for that to weather out.
    Mr. Grijalva. Thank you.
    The Chairman. All right. I have two more questions for Mr. 
Williams and Mr. Murawski. Let me go to him first, and then I 
will come back to the original one. And I have an additional 
one for you, as well.
    Mr. Murawski, you wrote an editorial--I think it appeared 
on Friday--talking about, and you mentioned part of it here 
about the baseline, but also the paying for studies that are 
proposed, and that you proposed that the industry should pay 
for those studies as they go on.
    What about people--about things like stormwater, 
agricultural/industrial run-off, excess development, 
overfishing, the dead zone, municipal/industrial discharges 
that have some kind of impact? Do they get a free pass, and 
only the deep pockets of the industry are the ones that should 
pay for this?
    Dr. Murawski. Well, the editorial that we had in the Tampa 
Bay Times basically looked at the principle of polluter pays.
    And, you know, one of the interesting things about this 
is----
    The Chairman. So these other people should be paying, as 
well, in your mind?
    Dr. Murawski. Well, certainly, in terms of inshore 
pollution, we know that, for example, water treatment 
facilities need to pay their monitoring costs, as well.
    The Chairman. So you are calling for them, as well.
    Dr. Murawski. Well, most of them actually do. I guess my 
point with the offshore industry is that we have constant 
reference to, well, it's a dirty Gulf, and so, therefore, it 
was dirty before the oil spill, and it is hard to figure out. 
The only way we really can understand that is to try to have 
some baseline information. And, frankly, I think it is in the 
industry's best----
    The Chairman. I appreciate that. I am not arguing about the 
baseline, it is just who should be paying for this? Do we have 
a deep pocket industry that you feel should be paying for it?
    But maybe even more less who pays for it, I am assuming, 
becomes insignificant. I am assuming you don't believe that the 
quality or the results of the research would be anyway flawed 
because of who was paying for this, or who does not pay for it. 
If the industry were to fund your research, as they are doing, 
I don't think you are arguing that that would have a flawed 
impact on your research results, would you?
    Dr. Murawski. I think it bears thinking about how you set 
up the independence of the research. You know, certainly, you 
have situations where industry can pay to have these done by 
certain consulting firms under the guidance of the government--
--
    The Chairman. You are telling me you could be bought off?
    Dr. Murawski. Sorry?
    The Chairman. Are you telling me you could be bought off?
    Dr. Murawski. No, sir.
    The Chairman. OK.
    Dr. Murawski. What I am saying is that they can be done 
under certain standards and replication of samples, et cetera.
    The Chairman. OK. Well, let me go back to Mr. Williams, 
then, if I could.
    Go with the original one. I cut you off and you didn't have 
enough time to deal with that. Some of the reforms have been 
put into place.
    Mr. Williams. Yes, sir. So, the Center for Offshore--the 
regulation did change, where the companies were required to 
have SEMS. You know, many companies already had SEMS in place. 
But what the industry voluntarily did and put in place was 
create the Center for Offshore Safety, create this place where 
we could collaborate, work together, learn together about how 
to make things better.
    We also developed the audit protocols, we developed the 
auditor qualifications, we did the auditor certification. All 
of this was done by the industry voluntarily, plus other 
indicators on the effectiveness of management systems. And 
those all have been collected, and go into an annual report as 
we learn about these systems, learn how to make them better.
    The Chairman. So I am intrigued by that, because there are 
some voices out there that would say that this sort of 
interaction degrades safety. But what you are talking about is 
the impact that comes from the collaboration process that 
actually moves us forward.
    Mr. Williams. Yes, sir.
    The Chairman. And I think it was kind of what Costa was 
starting to ask you about here. There is what we are hoping 
for, some kind of balance, as we deal with the issues of 
safety, as we also deal with the issues of how can we be 
productive in this area, and we can move forward in that. It 
seems, as in the past, we are looking as if we are moving in 
that direction. But maintaining that balance is always a 
difficult task to do.
    I am making the assumption we can't legislatively say, 
there will always be a balance in here. What is important is 
making sure that the industry has an active voice, and the 
industry becomes a part of it. And I think you have all 
demonstrated how the industry comes up with innovations, even 
ahead of where the agency comes up with regulations. And I am 
assuming that is part of what you are telling me with your 
testimony today.
    Mr. Williams. Yes, sir. And one of the key things, in fact, 
we work on is this balance, particularly this balance between 
prescriptive and performance-based safety, and between 
personnel safety and safety management systems. And it is all 
about making the technology and the standards and the safety 
management work together to deliver a safe result.
    The Chairman. And I am assuming you have some kind of 
incentive for doing that within the industries, as well.
    Mr. Williams. Yes, sir.
    The Chairman. OK. I thank you for that. With that--I have 
to go to my last line. There are magic words I am supposed to 
say right now. And until I find out what my magic words are, I 
do want to thank all four of you for coming great distances and 
being with us today, and for your testimony.
    And there may be other, here it is--there may be other 
questions the witnesses will be asked from other Members in 
writing. And, once again, we have 10 business days for these 
responses.
    Once again, I do appreciate your time and willingness to be 
with us. Thank you so very much. I appreciate the committee's 
interest. We will be talking about these issues again in the 
future.
    And if there is no other business, without objection, the 
committee stands adjourned.
    [Whereupon, at 12:12 p.m., the committee was adjourned.]

            [ADDITIONAL MATERIALS SUBMITTED FOR THE RECORD]

[LIST OF DOCUMENTS SUBMITTED FOR THE RECORD RETAINED IN THE COMMITTEE'S 
                            OFFICIAL FILES]

--  National Wildlife Federation Report--Five Years & Counting: 
Gulf Wildlife in the Aftermath of the Deepwater Horizon 
Disaster

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
